<html>
<title> - COMPREHENSIVELY COMBATING METHAMPHETAMINES: IMPACTS ON HEALTH AND THE ENVIRONMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                       COMPREHENSIVELY COMBATING
                      METHAMPHETAMINES: IMPACTS ON
                       HEALTH AND THE ENVIRONMENT

=======================================================================

                             JOINT HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                and the

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2005

                               __________

                           Serial No. 109-57

                               __________

      Printed for the use of the Committee on Energy and Commerce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                      U.S. GOVERNMENT PRINTING OFFICE
24-258PDF                   WASHINGTON : 2005
_______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

        David Cavicke, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                         Subcommittee on Health

                     NATHAN DEAL, Georgia, Chairman

RALPH M. HALL, Texas                 SHERROD BROWN, Ohio
MICHAEL BILIRAKIS, Florida             Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
CHARLIE NORWOOD, Georgia             FRANK PALLONE, Jr., New Jersey
BARBARA CUBIN, Wyoming               BART GORDON, Tennessee
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOHN B. SHADEGG, Arizona             ANNA G. ESHOO, California
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          TED STRICKLAND, Ohio
STEVE BUYER, Indiana                 DIANA DeGETTE, Colorado
JOSEPH R. PITTS, Pennsylvania        LOIS CAPPS, California
MARY BONO, California                TOM ALLEN, Maine
MIKE FERGUSON, New Jersey            JIM DAVIS, Florida
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
SUE MYRICK, North Carolina           JOHN D. DINGELL, Michigan,
MICHAEL C. BURGESS, Texas              (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)

                                     

                                     

                                     

                                     

                                     

                                     

                                     

                                     

          Subcommittee on Environment and Hazardous Materials

                    PAUL E. GILLMOR, Ohio, Chairman

RALPH M. HALL, Texas                 HILDA L. SOLIS, California
NATHAN DEAL, Georgia                   Ranking Member
HEATHER WILSON, New Mexico           FRANK PALLONE, Jr., New Jersey
JOHN B. SHADEGG, Arizona             BART STUPAK, Michigan
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
CHARLES F. BASS, New Hampshire       LOIS CAPPS, California
JOSEPH R. PITTS, Pennsylvania        MIKE DOYLE, Pennsylvania
MARY BONO, California                TOM ALLEN, Maine
LEE TERRY, Nebraska                  JAN SCHAKOWSKY, Illinois
MIKE ROGERS, Michigan                JAY INSLEE, Washington
C.L. ``BUTCH'' OTTER, Idaho          GENE GREEN, Texas
SUE MYRICK North Carolina            CHARLES A. GONZALEZ, Texas
JOHN SULLIVAN, Oklahoma              TAMMMY BALDWIN, Wisconsin
TIM MURPHY, Pennsylvania             JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                 (iii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Coleman, Hon. Eric, Commissioner, Oakland County, Michigan, 
      on Behalf of National Association of Counties..............    43
    Colston, Stephanie, Senior Advisor to the Administrator, 
      Substance Abuse and Mental Health Services Administration, 
      U.S. Department of Health and Human Services...............    14
    Heerens, Joseph R., Senior Vice President, Government 
      Affairs, Marsh Supermarkets, Inc., on Behalf of Food 
      Marketing Institute........................................    65
    Kamatchus, Ted G., Marshall County Sheriff's Office, on 
      Behalf of National Sheriffs' Association...................    60
    Knapp, Gordon, President, PCH North America, Pfizer, Inc.....    55
    Murtha, Peter, Director, Office of Criminal Enforcement, 
      Forensics and Training, U.S. Environmental Protection 
      Agency.....................................................    30
    Rannazzisi, Joseph T., Deputy Chief, Office of Enforcement 
      Operations, U.S. Drug Enforcement Administration...........    24
    Wagner, Mary Ann, Senior Vice President for Pharmacy, Policy, 
      and Regulatory Affairs, National Association of Chain Drug 
      Stores.....................................................    51

                                  (v)

  

 
                       COMPREHENSIVELY COMBATING


 
                      METHAMPHETAMINES: IMPACTS ON


 
                       HEALTH AND THE ENVIRONMENT

                              ----------                              


                       THURSDAY, OCTOBER 20, 2005

          House of Representatives,        
          Committee on Energy and Commerce,        
             Subcommittee on Health, joint with the        
                        Subcommittee on Environment and    
                                       Hazardous Materials,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:05 a.m., 
at 2123 Rayburn House Committee Building, Hon. Nathan Deal 
(chairman, Subcommitee on Health) presiding.
    Members present, Subcommittee on Health: Representatives 
Deal, Shimkus, Walden, Bono, Ferguson, Burgess, Barton (ex 
officio), Brown, Gordon, and Dingell (ex officio).
    Members present, Subcommittee on Environment and Hazardous 
Materials: Representatives Gillmor, Wilson, Otter, Sullivan, 
Murphy, Barton (ex officio), Solis, Pallone, Capps, Schakowsky, 
Inslee, Green, Baldwin, and Dingell (ex officio).
    Staff present: Ryan Long, majority counsel; Jerry Couri, 
majority counsel; Tom Hassenboehler, majority counsel; Chad 
Grant, majority legislative clerk; Chelsea Brown, majority 
staff assistant; John Ford, minority counsel; Dick Frandsen, 
senior minority counsel; Jessica McNiece, minority research 
assistant and Alec Gerlach, minority staff assistant.
    Mr. Deal. The committee will come to order. I would first 
of all unanimous consent that Mr. Walden be allowed to enter an 
opening statement into the record. Without objection, so 
ordered.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Deal. I will recognize myself now for an opening 
statement and we will proceed with that portion of the hearing 
and then hopefully get to the witnesses as soon as possible.
    I would like to, first of all, thank our witnesses for 
being here today. We recognize that you have expertise and we 
are grateful for your cooperation and attendance at this 
hearing. Our purpose of this particular hearing is to examine 
the impacts that the production and the use of methamphetamines 
have had on the health and the environment and how we can 
effectively and comprehensively attempt to win this battle 
against this devastating substance.
    Methamphetamine poses an increasing threat all across the 
country. It is true in my home State of Georgia, particularly 
in the northern and the central sections of our State. And law 
enforcement officials and health care professionals report that 
a more diverse group is abusing the drug. In parts of Northern 
Georgia that I represent, methamphetamine has emerged as the 
primary drug threat. And this drug has destroyed the lives of 
individuals, families, and communities throughout my district.
    In April of this year, the Governor of the State of Georgia 
signed into law methamphetamine legislation which restricts the 
sale of products whose primary ingredient is pseudoephedrine to 
behind the counter of a retail or pharmacy store and requires 
that wholesalers of these products be licensed. Other States 
have taken actions similar to Georgia. And I look forward to 
discussing with the witnesses how effective these laws have 
been.
    As Congress decides if Federal legislation action is the 
necessary next step, I believe it is important to attempt to 
craft policy that keeps products out of the hands of the people 
who would use them to cook up this addictive stimulant drug 
without--in the same time inhibiting the access of the 
overwhelming majority of people who simply want these 
medications to help fight colds and allergies.
    We do have a problem that must be addressed. And the 
adverse health effects of regular methamphetamine uses is well 
documented and the long-term effects are evident: irreversible 
blood vessel damage, respiratory problems, irregular heartbeat, 
extreme anorexia, cardiovascular collapse, and death.
    I would like to thank my good friend from Ohio, Mr. 
Gillmor, and his staff from the Environment and Hazardous 
Materials Subcommittee for joining us in preparing and 
conducting today's hearing. Mr. Gillmor is presently attending 
another meeting at this moment and will soon resume and will 
assume the Chair of the joint subcommittees, which are being 
convened for the purpose of this hearing. He will do that 
shortly.
    Again, I thank all of the witnesses and I look forward to 
hearing from you as this hearing proceeds.
    I now recognize my friend, Mr. Brown, from Ohio.
    Mr. Brown. Thank you, Mr. Chairman. And I am pleased to be 
part of this hearing with my friend from California, Ms. Solis, 
and both subcommittees, and my neighbor in Ohio, Mr. Gillmor.
    Methamphetamine use is a perilous mistake for individuals, 
as we know, an onerous challenge for affected communities, a 
chronic drain on law enforcement and public health resources.
    States like Ohio, where use of this drug was once rare, are 
witnessing an alarming rise in production and use and 
addiction. Since 2000, the number of labs seized in Ohio has 
more than quadrupled. Last year, authorities seized 104 meth 
labs in Summit County, Akron, Ohio, alone.
    That is not because Summit County has a unique meth 
problem. As I will get to later, it is because Summit County 
has an aggressive meth eradication strategy. This drug is not 
like cocaine or heroin, with foreign cartels dumping dangerous 
poison into our neighborhoods.
    In a hearing before the Government Reform Committee a 
couple months ago, Ohio officials testified that most of the 
meth producers feeding the drug line in--drug pipeline in Ohio 
were actually in the State cooking up the drug in ``backyard'' 
labs.
    Instructions for cooking meth are available on the 
Internet, and the necessary ingredients are available at the 
local drug store. And taking even small amounts can result, as 
we know, in serious health effects, including hallucinations, 
psychotic violent behavior, hypothermia and convulsions. In the 
long-term, meth users suffer from significantly higher rates of 
Alzheimer's and stroke and epilepsy.
    When authorities discover meth labs, they often find 
children in the homes exposed to the toxic ingredients and 
byproducts. And increasingly, the number of infants born 
addicted to meth, suffering from low birth weight and birth 
defects, is increasing.
    The costs of meth control are real and a growing concern. 
In 2004 alone, the DEA and the State of Ohio spent $680,000 
cleaning up meth labs. It is easy to get. It is difficult to 
control. It is highly addictive. It is extremely harmful. It is 
not a public health crisis in the making. It is a public health 
crisis now.
    In Summit County, as I mentioned, an innovative coalition 
of city--between civil officials working in cooperation with 
local law enforcement has invested the resources to clean up 
nearly 150 meth labs.
    Their program is not only an excellent prototype for other 
Ohio communities, it sets a standard for the Nation as a whole.
    Meth labs pose imminent environmental and public health 
dangers, so local officials have no choice but to act. It is 
our responsibility at the Federal level to ensure they don't 
have to act alone. We need a multi-pronged approach to this 
problem.
    The primary ingredient used to make meth is available in 
many everyday cold medicines. A number of States require stores 
to take medicines, as the Chairman said, containing 
pseudoephedrine off the shelf and move them behind the pharmacy 
counter. Summit County, which I mentioned earlier has taken a 
leadership roll, has also taken this common-sense step to 
prevent meth production.
    In addition to tackling the access issue, we need to--
issue, we need to put resources into prevention and education. 
Americans are using meth to lose weight. Workers are using meth 
to stay up when they need to work late. We have to put 
resources into public awareness efforts to educate communities 
about the dangers of any kind of meth use for any kind of 
issue.
    Today's hearing is an important step in our effort to 
reduce the devastating effects of the meth epidemic. I look 
forward to hearing from our witnesses. Thank you, Mr. Chairman.
    Mr. Deal. Thank you. Mr. Sullivan, do you have an opening 
statement?
    Mr. Sullivan. No.
    Mr. Deal. All right. Ms. Solis, do you have an opening 
statement?
    Ms. Solis. Yes, I do. Thank you.
    Mr. Deal. So recognized.
    Ms. Solis. Thank you and good morning. I would like to 
thank Chairman Gillmor and Chairman Deal for holding this 
hearing on health and environmental impacts of 
methamphetamines. And I want also to thank all the witnesses 
that are here today.
    The issue of methamphetamines and its array of impacts on 
our community is one that I am somewhat familiar with. 
Methamphetamine, or meth, is one of our Nation's most serious 
drug threats, and meth production is a significant problem 
throughout the State of California, where I reside. I believe 
it is the smaller and more numerous labs, often staffed by 
cookers who are themselves meth users, that are public safety 
threats because they are concealed in populated communities, 
some that we have found in my own district.
    Small meth labs can be found in apartments, hotel rooms, 
abandoned facilities, and even cars. In my district, in the San 
Gabriel Valley of California, we have become plagued with small 
meth labs in hotels and homes. Over the past several years, 
nearly 200 meth labs were found and nine meth lab related 
explosions or fires resulted in injuries to police, firemen, 
and children.
    The clandestine manufacture and distribution of 
methamphetamine has created a public health and safety crisis 
in Los Angeles County. Short-term exposures to high 
concentrations of chemical vapors that may exit into any 
functioning meth lab can cause severe health problems and even 
death. The chemicals and fumes that permeate the walls, the 
carpets, plaster, wood of meth labs, as well as the surrounding 
soil, are known to cause cancer, short-term and permanent brain 
damage, immune and respiratory system problems.
    Meth not only harms those who use the drug but also harms 
anyone who comes in contact with the toxic waste in the meth 
lab, such as meth cookers, their families, and first 
responders. So often, children are the innocent victims of 
meth. More than 80 percent of all meth labs seized are found in 
homes, garages, apartments, motels, or mobile units where 
children are often present.
    These labs, stocked with toxic chemicals and at high risk 
for explosion, expose children to highly dangerous living 
conditions. And these children may show permanent damage to 
their respiratory tracks. Meth labs are often discovered when 
firefighters respond to a lab fire. Police and firefighters 
have to take safety courses to handle meth situations because 
of the likelihood of explosions and invisible poisonous gases 
and other dangers.
    The meth manufacturing process presents an extremely 
dangerous environmental hazard. One pound of meth produces six 
pounds of toxic waste. The waste is often dumped down in sinks, 
toilets, water wells, corroding pipes, septic systems, and 
sewers as well as contaminating our water supplies and 
groundwater. The waste can also be dumped into rivers and the 
ground near the lab along highways, in parks forests and on 
hiking trails.
    Even months after meth labs have been closed, chemical 
residue still remains. These highly contaminated sites lead to 
costly cleanup and remediation. Environmental impacts include 
severe indoor contamination, toxic chemical dumps, hazardous 
waste disposal, and groundwater contamination.
    A few former meth super labs have been--have become 
superfund sites, our Nation's most toxic sites. In the State of 
California, Region 9 EPA officials have had to engage in 
removal action at 15 meth sites. But there are no uniform 
Federal guidelines or standards for the cleanup and remediation 
of these meth labs. There has also been little research on the 
health effects associated with these clandestine meth labs. 
Until the early 1990's, methamphetamine was made mostly in 
these labs.
    While in the State Senate where I served, I addressed some 
of these issues by sponsoring legislation that would restrict 
the sale of two principal ingredients in making meth. My bill 
imposed new requirements on the sales of iodine and red 
phosphorous. I also requested funds for two high tech law 
enforcement vans quipped to fight and clean up meth labs in the 
Los Angeles County basin. And I worked very closely with our 
local law enforcement to do that.
    The city of Covina in my district has also adopted a city 
ordinance limiting the sale of cold and allergy medications 
containing pseudoephedrine and ephedrine, such as Sudafed, 
Nyquil, and other nonprescription decongestants. California has 
the Drug Endangered Children Response Team, which specializes 
in seizing labs that manufacture methamphetamine and provides a 
coordinated response to the crisis that children--that we have 
found in the homes of these meth labs. More than 600 children, 
by the way, have been rescued from meth labs. All have received 
specialized medical and social services to diagnose and treat 
the physical and emotional effects of drug exposure.
    Today, it is important to remember that meth is not only a 
California problem, but it is a problem for our country. All 
levels of government, as well as the private sector, need to 
work together to fight this growing problem. I look forward to 
hearing from our witnesses in coming up with some solutions to 
address this very important issue. Thank you. I yield back.
    Mr. Deal. I thank the gentlelady. Mr. Brown, your colleague 
has made me aware that today is your birthday and the Committee 
would join in wishing you a happy birthday. I have used my 
Chairman's privilege to deny him the opportunity to sing a 
solo. Mr. Murphy, do you have an opening statement? You are 
recognized.
    Mr. Murphy. Thank you, Mr. Chairman. I am pleased that we 
are holding this hearing today. We need to deal with the dual 
issue of the direct health impact of methamphetamines on 
individuals as well as the long-term toxic impact in our 
environment. And so it is fitting and proper that this 
Committee takes this on.
    Certainly we are all concerned and should be highly 
concerned of the growing use of methamphetamines. And as small 
labs open up around the country whose sole purpose is to make 
money and develop more addicts out of our youth and adults, 
destroying their own lives, we also need to make sure that we 
are covering the long-term effects.
    There are so many elements which are dumped and essentially 
creating these toxic sites, with substances--as red 
phosphorous, iodine, starter fluid, acetone, ammonia, drain 
cleaners, lithium. So many different things are a part of what 
is created in these meth labs, which then become a secondary 
health effect around them.
    We have to recognize as one of the health effects of this 
is that some of the outcome also involves depression and other 
psychological disorders secondary to this. And as such, we have 
huge health problems that come out of this.
    This is not victimless crimes that occur. And so often I 
hear people refer to drug crimes as victimless. But when we 
look at those who are caught up in the cycle of abuse of drugs, 
caught up in the addictive net, and also then innocent 
bystanders effected by the toxic chemicals that are left 
behind, it is important that this Committee takes a strong 
stand and moves legislation to protect the health of the 
citizens of this country. I yield back.
    Mr. Deal. Thank the gentleman. I recognize the ranking 
member of the full committee, Mr. Dingell, for an opening 
statement.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy 
and I thank you for holding this hearing. This is a very 
important matter and I am pleased that you are conducting these 
affairs.
    Methamphetamine, or meth, and its effects are both serious 
and devastating. Methamphetamine-making operations have been 
uncovered in all 50 States. The total number of meth laboratory 
incidents in my home State of Michigan has increased 
dramatically.
    Last year, 295 clandestine meth labs were discovered in 
Michigan, whereas 9 years ago only 10 labs were uncovered. 
Federal estimates indicate that more than 12 million Americans 
have tried meth and 1.5 millionf are regular users. Police 
officers nationwide rank meth as the No. 1 drug they battle 
today. In a survey of 500 law enforcement agencies in 45 States 
released in July of 2005 by the National Association of 
Counties, 58 percent said that meth is their biggest single 
drug problem compared with 19 percent for cocaine.
    The ravages of meth use have affected our society perhaps 
more than any other drug in history. Meth addictions have 
dramatically increased the number of children placed in foster 
care, strained public health services as well as increased the 
number of violent crimes. Viable meth labs assembled in homes 
have resulted in explosions which maim and kill not only those 
cooking the drug, but also their families and other innocent 
persons. Users experience serious physical and mental health 
risks. Each pound of meth production produces five pounds of 
toxic waste.
    Fighting the war on drugs has never been easy, nor are the 
solutions always straightforward. Many different proposals have 
been put forward with the intended goal of decreasing the 
amount of meth that is produced in the United States. Included 
in these proposals are recommendations to move certain over-
the-counter drugs containing pseudoephedrine, which is the key 
ingredient in making meth, behind the counter. The expectation 
is that moving the pseudoephedrine-containing products behind 
the counter will allow for better monitoring of who is buying 
excessive or frequent amounts of these drugs.
    Other proposals include recommendations to limit the number 
of pseudoephedrine-containing products that any one individual 
can purchase and recommendations to make pseudoephedrine-
containing products available by prescription only.
    Many States have already adopted a variety of measures 
aimed at curbing meth production and distribution. Congress 
should look over these programs, seek guidance from experts in 
the field, examine the efficacy of different State laws, and 
try to arrange, as best we can, the closest possible 
cooperation with State and local units of government and have a 
joint effort on these matters. We have to make informed 
decisions about how to best move forward with Federal 
legislation in this area.
    I would like to note this morning that we have a 
distinguished citizen from Michigan prepared to present 
testimony on behalf of the National Association of Counties, 
the Honorable Eric Coleman, who is the Commissioner from 
Oakland County and First Vice President of the National 
Association of Counties.
    I thank all of the witnesses for appearing before us today, 
Mr. Chairman. And I thank you for holding this very important 
meeting. And I yield back the balance of my time.
    Mr. Deal. I thank the gentleman. Dr. Burgess, do you have 
an opening statement?
    Mr. Burgess. Yes, Mr. Chairman, I do, but in the interest 
of time, I will submit that for the record and we can go on to 
the witnesses.
    Mr. Deal. All right. Ms. Wilson, do you have an opening 
statement?
    Ms. Wilson. Yes, Mr. Chairman.
    Mr. Deal. You are recognized.
    Ms. Wilson. Thank you, Mr. Chairman. I know a lot of us are 
well aware of the problems of methamphetamine in our 
communities. It was something that really started predominantly 
in the west and is now expanding across the country.
    One of the problems with methamphetamine, of course, is its 
devastating effect and powerful addictive capacity and its 
propensity to cause those who use it toward violence against 
those they love and the children who depend upon them.
    In addition, methamphetamine is pretty easy to make and 
gets compared to a lot of other drugs. And we have seen not 
only the explosion in meth labs across the country but the 
difficulty of cleaning up the toxic waste that is created in 
those meth labs. The cleanup from meth can range from $1,500 to 
$250,000. And that falls primarily on local communities who 
discover these laboratories in apartment buildings and garages 
and mobile homes across our communities. We need to continue to 
help local communities with those cleanup problems so they 
don't end up just in our sewer system.
    Methamphetamine is now second to only marijuana as the most 
widely used elicit drug in the world and is particularly 
prevalent in the Western United States. The materials to make 
it are generally legally sold. And that is one of the reasons 
that I think we need to change some of our Federal laws to make 
it mandatory to put these drugs behind the counter and to 
reduce the amount--the level at which these drugs have to be 
controlled substances so that it is much harder for young 
people to walk into the local Walgreen's and get a couple of 
packs of Sudafed and be able to cook up meth.
    It is destroying our families and our communities. And we 
see it in the spike in the number of children taken into foster 
care and the children found in the midst of the toxic waste of 
meth labs. And Mr. Chairman, I thank you for holding this 
hearing today.
    Mr. Deal. I thank the gentlelady. Mr. Pallone, do you have 
an opening statement?
    Mr. Pallone. Yes. I thank you, Mr. Chairman. As you know, 
meth abuse has spread throughout the country. And in response 
over the past decade, the Federal Government has ramped up its 
regulation of ephedrine and pseudoephedrine, precursors that 
are often used in the elicit production of meth. Similarly, a 
number of States have enacted their own laws aimed at 
curtailing meth abuse. And many of these laws focus on the 
supply side of the problem and increase enforcement efforts 
aimed at the disruption of illegal drug markets. I am 
interested to hear from our witnesses on how effective these 
laws have been.
    Research suggests that these efforts have had a limited 
impact on curtailing meth abuse, primarily because large scale 
meth producers have been able to access alternative supplies of 
meth inputs. Despite increased enforcement efforts over the 
past decade and the significant level of resources dedicated to 
reducing drug abuse, the problem of meth use continues to 
spread.
    Mr. Chairman, I believe producers of elicit drugs must be 
held accountable to the fullest extent of the law and that we 
should do everything to limit the supply of meth. However, I 
think if we are truly going to tackle this problem we need to 
develop a comprehensive meth policy that not only reduces meth 
availability through precursor regulation but also reduces the 
demand for meth through prevention and treatment programs.
    It is interesting that last night during special orders a 
number of the--on the Democratic side, particularly one from 
one of our western States, talked about how there have been 
some success in curtailing meth abuse through prevention and 
treatment as well as increased enforcement, but that at the 
same time, the Republican budget, the reconciliation bill that 
we are not dealing with today, are--actually have significant 
cuts in some of the programs that would--that have been 
successful against meth.
    And I was looking at the Republican State budget and it 
actually has significant cuts in State grants for safe and 
drug-free schools, in the Federal anti-drug advertising, and 
also probably most important for meth, eliminating high density 
drug traffic area. The program for that is cut significantly.
    And when we talk about these superlabs that produce large 
quantities of these drugs, the majority of these are located in 
Mexico. So when you are talking about eliminating a program 
that goes after high density trafficking, you know, that would 
go across State lines, you are directly going to impact 
enforcement of meth abuse. And so I think that this is another 
example where the Republican budget, which thankfully we didn't 
vote on today, would have a negative impact on the success that 
some of the States, as well as the Federal Government, are 
having in basically eliminating or cutting down on meth abuse.
    I also would like to see what is said today about the 
problems--the environmental impact and the cleanup, as Ms. 
Solis said, because I think that is important as well--what we 
are doing in that regard. Thank you, Mr. Chairman.
    Mr. Deal. Mr. Otter, do you have an opening statement?
    Mr. Otter. Yes. Thank you, Mr. Chairman. I think, Mr. 
Chairman, in the interest of time, I think I will just submit 
it for the record.
    Mr. Deal. Very well. In any regard, does Chairman Barton of 
the Full Committee have an opening statement?
    Chairman Barton. That I do. Is it my turn?
    Mr. Deal. Yes. You would be recognized at this time.
    Chairman Barton. Thank you, Chairman Gillmor and Chairman 
Deal for holding this hearing. I think it is important that we 
address the health and environmental impacts of 
methamphetamine.
    In the past decade, methamphetamine abuse has spread across 
the nation. It has become an especially severe problem for many 
rural areas and small towns. It used to be a city problem but 
now it has migrated to the country.
    The drug is a highly addictive stimulant that can cause 
serious mental and physical health effects. Its primary 
ingredient is also the primary ingredient in many over-the-
counter cold and allergy medications. We need to make it more 
difficult for criminals to gain access to these drugs, while at 
the same time not imposing unnecessary burdens that makes it 
more difficult for law-abiding families to obtain the medicines 
they need to treat their colds and allergies.
    Methamphetamine currently comes from two primary sources. 
About two-thirds of the methamphetamines consumed in the United 
States come from illegal superlabs that organized crime groups 
have established in countries like Mexico. The second is from 
small toxic labs. In 2003, my home State of Texas reported 677 
incidents associated with these small laboratories. These mini 
methamphetamine labs are everywhere: in basements, parks, and 
even in the trunks of cars. Even though these labs account for 
only a third of the meth, they also breed violent crime.
    The cost of finding the labs and prosecuting the operators 
is burning a hole in countless county budgets. If that is not 
bad enough, the stuff used to produce this stuff is both 
explosive and poisonous. It poses a serious health risk and 
poses the risk of injury to police and firefighters who enter 
these labs. And it has become an environmental nightmare.
    Often overlooked in the discussion of the proliferation of 
methamphetamine labs across the country is the contamination 
they leave behind. Local, State, and Federal enforcement 
officials have been struggling with researching and identifying 
the toxic byproducts. There are currently no uniform Federal 
standards or guidelines governing the process or the endpoint 
for cleaning up and remediating these small disaster areas. We 
look forward to hearing from the EPA and other agencies on what 
Federal authorities are currently using to list and identify 
these hazardous byproducts, what progress has been made, if 
any, in the remediation process.
    We must take a comprehensive approach to addressing 
methamphetamine production. We can't focus just on the small 
labs and ignore the superlabs, because they account for twice 
the amount of the drug consumed. We need to make it more 
difficult to obtain the ingredients. We also need to take steps 
to choke off the superlabs, both through domestic efforts and 
international cooperation.
    Methamphetamine is a dangerous drug. It hurts people. And I 
want to thank our witnesses for coming to testify, to provide 
their insight on how best to address the issue. I look forward 
to hearing from all of the witnesses and am particularly 
interested in their thoughts, if any, on the legislative 
proposals that have been introduced at the Federal level.
    I want to thank my subcommittee chairman and the members of 
both of these subcommittees for attending this important 
hearing. With that, Mr. Chairman, I yield back my time.
    Mr. Deal. I thank the gentleman. Ms. Capps, do you have an 
opening statement?
    Ms. Capps. Yes, I do.
    Mr. Deal. You are recognized.
    Ms. Capps. I thank you for holding this hearing and am 
pleased that Congress is beginning to take action on what is a 
very serious problem. I am also proud of the work that our 
senator from California, Senator Feinstein, has done on behalf 
of our State.
    We all relate to our local communities. And this morning's 
sublimes in my local paper are describing some of the latest 
research but also illustrating the problem. The numbers are 
given for the number of adults seeking treatment, which has 
doubled in my community over this--the--from between the last 
year and 2000. It is a growing problem in every location and 
across this country. And that is because as we have been 
describing. It is relatively cheap to acquire, easy to produce. 
By now everyone is aware that cold medications provide the 
basic elements needed to take--to make meth. And it can be 
taken in a variety of ways. It makes it way too convenient. And 
for this reason and others, meth amphetamine use is spreading 
across the country.
    But while easier and cheaper than other drugs, its danger 
is no less. Over time, it--as we know, it leads to several 
health problems, including bone loss, liver, kidney, lung 
damage, and a variety of harmful psychotic behaviors often 
leading to violence.
    I am especially concerned with the impact meth has on 
children. Children services are seeing increased numbers of 
abused or neglected children from families torn apart by 
methamphetamine use. In the same article I referred to, the 
numbers are given for the County of Santa Barbara and the 300 
children in foster care. Over 52 percent of them were removed 
from their homes because one or more of their parents were 
using methamphetamine.
    Children who live in homes where meth is produced can often 
suffer the same effects as users. Additionally, they are 
exposed to significant toxic waste that is harmful to their 
health and not easily cleaned up. And that has been noted 
already in this hearing as the opening statements. It may be 
there for years after that location stops being used as a meth 
lab. So families not even aware the home they are moving into 
had been contaminated in this way.
    The problem cries out for a solution and we need to act. 
But as with so many challenges we face, we need to be balanced 
in our response. It is clear that we need to increase our 
assistance to law enforcement as they fight methamphetamine. We 
also need to take steps to make it harder for producers to 
acquire pseudoephedrine. But we also need to remember that the 
cold and allergy medications based on this chemical are needed 
by many Americans.
    We need to balance efforts to secure them against law-
abiding citizens who need to have easy access to them. So I 
look forward to hearing from our witnesses today about how this 
balance is best struck. And I yield back.
    Mr. Deal. I thank the gentlelady. Mr. Shimkus, do you 
have----
    Mr. Shimkus. No, Chairman. I will waive.
    Mr. Deal. Mr. Ferguson, do you have an opening statement? 
Ms. Baldwin, do you have an opening statement?
    Ms. Baldwin. Yes, I do. Thank you, Mr. Chairman.
    I join my colleagues who have spoken before me in 
emphasizing the hazardous consequences of methamphetamine on 
both individual health and the environment. And as we have 
heard, the use of meth and even just exposure to meth 
production can make a person's body and health deteriorate, 
just as meth production and its waste can be incredibly harmful 
to our environment.
    This is clearly a major health and environmental threat. 
And I am glad that these subcommittees are taking up the issue. 
But Mr. Chairman, I am frustrated. And this frustration stems 
from actions taken beyond this Committee's jurisdiction, which 
have resulted in decreased funding for the Byrne-Grant Program.
    I think the most powerful tool that we have available to 
combat meth is our capacity to prevent its initial manufacture. 
In able to do that, we will need strong law enforcement 
resources. And our law enforcement professionals in turn need 
reliable and steady programs to help fund their efforts.
    I spent a good deal of time during the recent August recess 
meeting with law enforcement professionals in my district in 
South-central Wisconsin. Most of the district is rural. And as 
we know, the meth epidemic is particularly bad in rural areas. 
At every single one of those meetings, the local sheriff or the 
local police chief told me about their tremendous need for 
Edward Byrne Grant funding to combat the meth epidemic.
    As my colleagues know, the Byrne Grant Program is designed 
to assist local law enforcement agencies in combating drugs and 
violence. And it is an incredibly important for local law 
enforcement authorities as they fight drug-related crime.
    In Rock County, Wisconsin, the Byrne Grant allocations fund 
their drug unit. When this funding is cut, we are cutting the 
ability of local law enforcement to effectively carry out their 
efforts in the war on drugs. These law enforcement 
professionals told me time and time again that the problem is 
getting larger while the funding to fight meth and other 
illegal drugs is getting smaller.
    Instead of increasing funding for the Byrne Grant Program, 
it has been on a steady decline. In June of this year, this 
House failed to pass an amendment that would have restored 
$286,000,000 to the program. So while I am delighted that we 
are drawing attention to this very serious and widespread 
problem, I am also incredibly frustrated that we are not taking 
action to support the most powerful tool that we have available 
to prevent the manufacture of meth, a reliable and steady 
funding stream for local law enforcement.
    Thank you, Mr. Chairman. I yield back.
    Mr. Deal. Ms. Schakowsky, do you have an opening statement?
    Ms. Schakowsky. Yes.
    I thank you, Mr. Chairman, the chairmen of both 
subcommittees, and ranking members. Much has been, I think, 
eloquently stated by many of my colleagues, and I will just 
submit my written testimony for the record.
    Methamphetamine is perhaps the most destructive and 
hazardous drug we have ever had to confront because it is easy 
and inexpensive to make, extremely potent, highly addictive, 
dangerous to manufacture, and dangerous to use.
    Our Attorney General, like many of our local law 
enforcement officials around the country, is working very hard 
in Illinois to develop a comprehensive plan to address the 
serious problem of meth use in our State. Just a week ago 
today, she convened a meeting of local legislators and law 
enforcement officials from Illinois, Iowa, and Missouri.
    She arranged for the summit after hearing reports from law 
enforcement authorities indicating that meth makers from 
Illinois' border States are coming to Illinois to purchase 
pseudoephedrine products, the key ingredient in making 
methamphetamines. Those States--many of those neighboring 
States--have laws that require virtually all over-the-counter 
products containing ephedrine or PSE to be placed behind 
pharmacy counters where legitimate customers may still obtain 
the drugs after showing State-issued identification and signing 
a log.
    We have a law in Illinois that went into effect January 1 
of this year. At the time that that was done in Illinois, it 
was one of the strongest in the country. But since then, 
several States have passed more restrictive laws. And 
therefore, the Attorney General is going to go back to the veto 
session of the Illinois State Legislature and ask for a law 
similar to that in Iowa so that we can keep up.
    But I think what this says--the struggle of States and 
local authorities to deal with it--means that we need a 
comprehensive national strategy to deal with meth. We have a 
lot of people going from one State to another to find the best 
place where they can purchase the products that they seek. We 
want to reduce demand for this drug by educating Americans 
about its danger. We need to find and fund effective ways to 
prevent and treat meth addiction.
    We also need to make sure there is a national plan in place 
to deal with the environmental impacts of methamphetamines. And 
we need more funding for enforcement, as was pointed out by 
Representative Baldwin, especially in high activity areas. I 
thank you, Mr. Chairman.
    Mr. Deal. Mr. Green, do you have an opening statement?
    Mr. Green. Mr. Chairman, I would like to have--put an 
opening statement in the record and join my colleagues, but 
also show that my colleague from Illinois, Ms. Schakowsky, is a 
White Sox fan and hopefully this Astro hat, I will be able to 
give it to her next week.
    But be that as it may, Mr. Chairman, I will put my full 
statement in the record. But getting away from baseball, I want 
to thank our panel for being here. We need to provide both the 
resources and the tools and--to let you do our job and to work 
with our local officials. Because my county officials in 
Houston talk about that methamphetamines is much worse than 
cocaine, heroin, and everything else that is on the street. So 
we need to do that and recognize it is a national issue, to 
make sure we empower our local communities and--with whatever 
Federal assistance we can do. So thank you, Mr. Chairman.
    Mr. Deal. At least it is a National League hat. Mr. Inslee?
    Mr. Inslee. Thank you. I want to speak of two powerful 
addictions. And the first is, of course, methamphetamine, which 
really is the King Kong of drugs when it comes to addiction. 
And its addictive power is certainly stunning and terrifying 
every parent in the country. And it has touched every district 
in the country as well, of course.
    And because--in light of that addiction that is really 
sweeping the country, it is really troubling to me and 
surprising that Congress has and is considering more cuts to 
the ability of the Federal Government and States and local 
police departments and schools to deal with this issue.
    Ms. Baldwin spoke eloquently about these reductions in 
Byrne grants. I was just looking at a document called the 
Republican Study Committee Operation Offset document, September 
21, 2005. And among the cuts that they have proposed or at 
least considering are an elimination of the State grants for 
safe and drug-free schools, a tool used to teach kids how 
devastating this drug is, elimination of Federal anti-drug 
advertising program, eliminate high density drug trafficking 
area. These cuts may be in the Republican budget. We are not 
sure. We haven't seen it yet.
    And you have to ask yourself why, in the light of the 
powerful addictive capability of methamphetamine, the majority 
party would want to cut our ability to deal with these 
problems. And I think the answer is clear. Or at least the 
question should be asked is there a never equally powerful 
addiction to giving tax cuts to the wealthiest people in 
America. And does that addiction prevent us from continuing our 
efforts to deal with methamphetamines.
    And I very much appreciate the Chairman's holding this 
hearing to hear about the first addiction. But if we allow the 
second addiction to hobble our abilities to deal with 
methamphetamines--and that bill was supposed to be up on the 
floor today. And we don't know what the reason for the delay 
was, but we do not want to see those Federal efforts hobbled 
because of the second addiction. And we will have that debate 
later. Thank you.
    Mr. Deal. I am pleased to welcome the members of the first 
panel here. And I will introduce you at this time. Oh, I am 
sorry. Ms. Bono, I did not see you. Do you have an opening 
statement you would like to submit?
    Ms. Bono. I will submit it, Mr. Chair.
    Mr. Deal. All right. I would ask unanimous consent that all 
members would be allowed to submit their statements for the 
record. Without objection, so ordered. We are pleased to have 
three distinguished members of the first panel. And I am going 
to introduce you in somewhat reverse order from what we would 
normally go, but I have been told that we need to go in this 
order, so we will do that. First, Ms. Stephanie Colston, who is 
the Senior Advisor to the Administrator of Substance Abuse and 
Mental Health Services Administration of HHS, Mr. Joseph 
Rannazzisi, who is Deputy Chief of the Office of Enforcement 
Operations of the Drug Enforcement Administration, and Mr. 
Peter Murtha, who is the Director of the Office of Criminal 
Enforcement, Forensics and Training, of the Environmental 
Protection Agency. Lady and gentlemen, we are pleased to have 
all of you here today. And I will start with Ms. Colston. You 
are recognized for 5 minutes.

    STATEMENTS OF STEPHANIE COLSTON, SENIOR ADVISOR TO THE 
   ADMINISTRATOR, SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES 
 ADMINISTRATION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
   JOSEPH T. RANNAZZISI, DEPUTY CHIEF, OFFICE OF ENFORCEMENT 
  OPERATIONS, U.S. DRUG ENFORCEMENT ADMINISTRATION; AND PETER 
MURTHA, DIRECTOR, OFFICE OF CRIMINAL ENFORCEMENT, FORENSICS AND 
         TRAINING, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Colston. Thank you. Chairman Deal and Chairman Gillmor 
and members of both the Subcommittee on Health and the 
Subcommittee on Environment and Hazardous Materials, I am 
Stephanie Colston, Senior Advisor to Charles G. Curie. Charles 
G. Curie is the Administrator of SAMHSA, the Substance Abuse 
and Mental Health Services Administration, within the United 
States Department of Health and Human Services.
    I am pleased to present SAMHSA's substance abuse prevention 
and treatment response to the methamphetamine crisis. Mr. 
Curie, unfortunately, had a longstanding commitment for today 
and sends his regrets that he is not able to testify this 
morning. I ask that my written testimony be entered into the 
record.
    SAMHSA has a lead role to play in the demand reduction side 
of addressing drug abuse in the nation. SAMHSA is structured 
around our vision of a life in the community for everyone and 
our mission of building resilience and facilitating recovery. 
Our collaborative efforts with our Federal partners, States, 
local communities, faith-based organizations, consumers, 
families, and providers are central to achieving both our 
vision and our mission.
    While the numbers of those who have used methamphetamine in 
their life, in the last year, or even in the last month have 
not grown over the past several years, what has changed is the 
level of their use. In 2002, 27.5 percent of those who said 
they used methamphetamine in the past month met the definition 
of being dependent. Two years later, in 2004, the percentage 
was 59.3 percent. The average person presenting themselves for 
substance abuse treatment today has been using methamphetamine 
for over 7 years.
    Our first effort at SAMHSA is to try to prevent the use of 
methamphetamines. After consulting with prevention 
professionals and examining our own experience, SAMHSA believes 
that whether we speak about abstinence or rejecting 
methamphetamines, heroin, cocaine, alcohol, or preventing 
violence, or promoting mental health, we really are all working 
toward the same objective, reducing risk factors and promoting 
protective factors.
    In the past 2 years, SAMHSA has awarded Strategic 
Prevention Framework grants to 26 States and territories to 
create a statewide prevention system and to advance community-
based programs for substance abuse prevention. We expect to 
continue these grants and hope to fund seven new grants in 
fiscal year 2006, for a total of 93 million.
    These grants are working with our five regional centers for 
the application of prevention technology that provide 
assistance to States and communities to systematically 
implement a risk and protective factor approach to prevention 
across the nation. The success of the framework rests in large 
part on the tremendous work that comes from grassroots 
community anti-drug coalitions. That is why we are so pleased 
to be working with the White House Office of National Drug 
Control Policy to administer the Drug-Free Communities Program. 
This program supports approximately 775 community anti-drug 
coalitions across the country.
    Unfortunately, there are many who are in need of treatment 
for methamphetamine abuse. In the past 10 years, the number of 
individuals entering treatment with primary drug of choice 
being methamphetamine has risen fivefold.
    SAMHSA began working on the problems resulting from 
methamphetamine in 1998 by funding eight grants in California, 
Hawaii, and Montana to test treatment approaches for 
methamphetamine. I will talk more about his later in my 
testimony.
    The primary way that SAMHSA supports treatment is through 
the Substance Abuse Prevention and Treatment Block Grant. 
Funded at nearly $1.8 billion, these funds are distributed to 
the States using a formula dictated by statute. States have 
flexibility in the use of those funds, but they are typically 
used to maintain an existent system of care.
    SAMHSA's Targeted Capacity Expansion Program focuses on 
reducing substance abuse treatment needs by supporting 
strategic responses to demands for substance abuse treatment 
services. Response to treatment capacity problems may include 
communities with serious emerging drug problems or communities 
struggling with an unmet need.
    We are currently funding 20 methamphetamine grants in 11 
different States, totally nearly $10,000,000. In his 2003 State 
of the Union Address, President Bush resolved to help people 
with a drug problem who sought treatment but could not find it. 
He proposed Access to Recovery, a new consumer-driven approach 
for obtaining treatment and sustaining recovery through a State 
run voucher program. State interest in Access to Recovery was 
overwhelming. 66 States, territories, and tribal organizations 
applied for the $99,000,000 in competitive grants in 2004. We 
funded grants to 14 States and one tribal organization in 
August of 2004.
    Of the States that are now implementing access to recovery, 
Tennessee and Wyoming have a particular focus on 
methamphetamine. Wyoming and Tennessee are just two examples of 
ATR's potential. ATR's use of vouchers coupled with State 
flexibility and executive discretion offer an unparalleled 
opportunity to create profound positive change in substance 
abuse treatment, financing, and service delivery across the 
nation.
    To help better serve people with substance use disorders, a 
true partnership has emerged between SAMHSA and the National 
Institute of Health. Our common goal is to more rapidly deliver 
research based practices to the communities that provide 
services.
    To specifically address the needs resulting from 
methamphetamine abuse, SAMHSA began working in 1999 to evaluate 
and expand on the Matrix model, which was developed in 1996 by 
the Matrix Institute with support from the National Institute 
on Drug Abuse. It is an outpatient treatment model that is 
responsive to the needs of stimulant abusing patients.
    In 1999, SAMHSA Center for Substance Abuse Treatment funded 
eight grants in California, Hawaii, and Montana to compare the 
Matrix model to other cognitive behavioral therapies in the 
largest clinical trial network study to date on treatment for 
methamphetamine dependence. The result was the development and 
release of a scientific intensive outpatient curriculum for the 
treatment of methamphetamine addiction that maximizes recovery-
based outcomes.
    Information on the Matrix model and other cognitive 
behavioral approaches are available in a set of two DVD's 
produced by our Pacific Southwest Addiction Technology Transfer 
Center and from SAMHSA's Treatment Improvement Protocol #33, 
Treatment for Stimulant Use Disorders.
    Education and dissemination of knowledge are key to 
combating methamphetamine use. SAMHSA's Addiction Technology 
Transfer Centers are providing training, workshops, and 
conferences to the field regarding methamphetamine. 
Additionally, SAMHSA has collaborated with ONDCP, the National 
Guard, NIDA, and the Community Anti-Drug Coalitions of America 
on a booklet, videotape, and PowerPoint presentation entitled 
``Meth: What's Cooking in Your Neighborhood?'' This package of 
products provides useful information on what methamphetamine 
is, what it does, why it seems appealing, and what the dangers 
of its use are.
    SAMHSA has been working in partnership with our colleagues 
at the Drug Enforcement Administration to provide funding to 
support a series of Governor summits on methamphetamine. These 
summits provide communities with opportunities for strategic 
planning and collaboration to combat methamphetamine problems 
faced in their own communities. And summits, to date, have been 
held in 15 States.
    Chairman Deal, Chairman Gillmor, and members of the 
subcommittees, I appreciate the opportunity to testify here 
today and am available to answer any questions you may have.
    [The prepared statement of Stephanie Colston follows:]
    [GRAPHIC] [TIFF OMITTED] T4258.001
    
    [GRAPHIC] [TIFF OMITTED] T4258.002
    
    [GRAPHIC] [TIFF OMITTED] T4258.003
    
    [GRAPHIC] [TIFF OMITTED] T4258.004
    
    [GRAPHIC] [TIFF OMITTED] T4258.005
    
    [GRAPHIC] [TIFF OMITTED] T4258.006
    
    [GRAPHIC] [TIFF OMITTED] T4258.007
    
    Mr. Deal. Thank you. Mr. Rannazzisi?

                STATEMENT OF JOSEPH T. RANNAZZISI

    Mr. Rannazzisi. Good morning. Chairman Deal, 
Representatives Brown and Solis, and distinguished members of 
the House Committee on Energy and Commerce, Subcommittee on 
Health, and Subcommittee on the Environment and Hazardous 
Materials, on behalf of Drug Enforcement Administration 
Administrator Karen B. Tandy, I appreciate your invitation to 
testify today regarding the DEA's efforts to combat 
methamphetamine trafficking and its abuse across the United 
States.
    Methamphetamine's devastating consequences are felt across 
the country by innocent children, adults, government agencies, 
businesses, and communities of all sizes. The DEA is well aware 
that combating this drug requires a multi-faceted comprehensive 
approach. In addition to enforcement efforts, the DEA is 
combating methamphetamine by providing training to our State 
and local partners, administering the cleanup of labs, 
providing assistance to the victims of methamphetamine, and 
educating communities to the drug's dangers.
    The methamphetamine consumed in the United States 
originates from two general sources. It is estimated that 
approximately two-thirds of the methamphetamine consumed in 
this country comes from Mexico and California-based Mexican 
drug trafficking organizations that control superlabs with 
approximately one-third coming from the small toxic labs. 
Although these small toxic labs produce a relatively small 
amount of methamphetamine, they have spread across much of the 
country and present unique challenges for law enforcement.
    Successes of the domestic front against superlabs have 
increasingly resulted in the movement of these labs to Mexico. 
In an effort to combat methamphetamine and its precursor 
chemicals before they reach the U.S., the DEA has forged 
agreements without international partners to prescreen 
shipments of pseudoephedrine in an attempt to ensure that it is 
used for legitimate purposes. These international efforts have 
resulted in significant seizures of precursor chemicals capable 
of producing tons of methamphetamine.
    Domestically, small toxic labs continue to overwhelm many 
law enforcement agencies, especially those in rural areas. In 
an effort to combat these labs, many States have either enacted 
or have legislation pending, which places restrictions on the 
sale of pseudoephedrine. The Administration is aware of the 
various approaches enacted by States and supports the 
development of Federal legislation to fight methamphetamine 
production, trafficking, and abuse, denying methamphetamine 
cooks the availability to gather the ingredients they need 
while balancing the need for law-abiding citizens to be able to 
access commonly used cold products in an approach that works.
    Law enforcement officers involved in these hazardous 
investigations require specialized training. And since 1998, 
DEA has offered a robust training program for our State and 
local law enforcement partners, providing basic and advanced 
clandestine laboratory site safety training. Since inception, 
the DEA has trained over 9,300 State and local officers and 
1,900 DEA employees. Each course is provided at no cost to 
qualified State and local law enforcement officers, as is the 
equipment needed to safely investigate and work in these 
hazardous conditions.
    As was said before, the manufacture of a pound of 
methamphetamine results in about five to six pounds of toxic 
waste, which is often disposes of by lab operators by pouring 
it on the ground, down drains, or into sewers and streams, 
polluting our environment.
    While we can do little once the waste is released, in 1990, 
the DEA established a hazardous waste cleanup program to 
address environmental concerns from the seizure of clandestine 
drug labs. This program promotes the safety of the law 
enforcement personnel and the public by using qualified 
companies with specialized training and experience to remove 
hazardous waste.
    Through this program, the DEA administers the cleanup of 
the majority of the labs seized in this country. In fiscal year 
2004, the cost of administering these cleanups was 
approximately $17.8 million.
    More than any other controlled substance, methamphetamine 
trafficking endangers children through exposure to drug abuse, 
neglect, physical and sexual abuse, toxic chemicals, hazardous 
waste, fire, and explosions. Each of the DEA field divisions 
has a victim/witness coordinator to ensure that all endangered 
children are identified and that the child's immediate safety 
is addressed by child welfare and health care service 
providers.
    There are no easy answers to combating the spread of 
methamphetamine, but there are tools. The DEA is attacking 
methamphetamine on all fronts, focusing not only on the large 
scale methamphetamine trafficking organizations, but also those 
involved in providing the precursor chemicals to fuel these 
labs. This involves efforts both in enforcement, regulation, 
and international cooperation.
    Additionally, through our office of training we have 
trained thousands of our State and local partners who are 
involved in these investigations. Our hazardous waste and 
victim/witness programs deal with the environmental and 
societal impacts of methamphetamine.
    I want to thank you for your recognition of this important 
issue and the opportunity to testify here today. I look forward 
to answering any questions you may have. Thank you.
    [The prepared statement of Joseph T. Rannazzisi follows:]
  Prepared Statement of Joseph T. Rannazzisi, Deputy Chief, Office of 
        Enforcement Operations, Drug Enforcement Administration
    Chairmen Gillmor and Deal, Representatives Solis and Brown, and 
distinguished members of the House on Health and the House Environment 
and Hazardous Materials Subcommittees, on behalf of Drug Enforcement 
Administration (DEA) Administrator Karen Tandy, I appreciate your 
invitation to testify today regarding the ``Comprehensively Combating 
Methamphetamine: Impact on Health and the Environment''. I am pleased 
to testify on the DEA's efforts to combat methamphetamine trafficking 
and its abuse across the United States.
    Methamphetamine's devastating consequences are felt across the 
country by innocent children and adults, governmental agencies, 
businesses and communities of all sizes. More commonly known as 
``meth,'' this highly addictive stimulant can be easily manufactured 
using ``recipes'' available over the Internet and ingredients available 
at most major retail outlets. While meth used to be associated only 
with a few outlaw motorcycle gangs (OMG), the use and manufacturing of 
this deadly substance is now a national problem. Today few communities 
in the United States have not been impacted by methamphetamine.
    Unlike other, better-known drugs of abuse such as heroin, cocaine, 
or marijuana, methamphetamine presents some unique challenges. First, 
it is synthetic, relying on no harvested crops for its manufacture. 
Unfortunately, the ``recipe'' to manufacture this synthetic drug is 
relatively straightforward, and easy to find on the Internet. It can be 
made using readily available precursor chemicals by anyone who can 
follow simple instructions. Second, meth has hit rural areas in the 
United States particularly hard, communities where resources to combat 
this drug are less available. Third, methamphetamine is a particularly 
intense stimulant, highly addictive, and overwhelmingly dangerous. The 
combination of these factors requires a multi-faceted response.
    In an effort to combat methamphetamine, the DEA aggressively 
targets those who traffic in and manufacture this dangerous drug, as 
well as those who traffic in the chemicals utilized to produce it. We 
have initiated and led successful enforcement efforts focusing on meth 
and its precursor chemicals. Everyday the DEA works side by side with 
our federal, state and local law enforcement partners to combat the 
scourge of meth. Last spring, DEA Administrator Tandy directed DEA's 
Mobile Enforcement Teams (MET) to prioritize methamphetamine 
trafficking organizations during their deployments. These and other 
initiatives have resulted in tremendously successful investigations 
that have dismantled and disrupted high-level methamphetamine 
trafficking organizations, as well as dramatically reduced the amount 
of pseudoephedrine illegally entering our country.
    The DEA is well aware that combating this drug requires a multi-
faceted approach by law enforcement. In addition to our enforcement 
efforts, the DEA is combating this drug by administering the cleanup of 
labs across the country, providing assistance to the victims of 
methamphetamine, and educating communities on the dangers of this drug. 
The DEA also monitors state legislation aimed at combating 
methamphetamine and has noted the success experienced by some states in 
reducing the number of small toxic labs within their borders. 
Additionally, the Administration supports the development of Federal 
legislation to fight methamphetamine production, trafficking, and 
abuse. Any such legislation should balance law enforcement needs with 
the need for legitimate consumer access to widely-used cold medicines.

               METHAMPHETAMINE TRENDS ACROSS THE COUNTRY
    The methamphetamine seized and abused in the United States 
originates from two general sources, controlled by two distinct groups. 
Most of the methamphetamine found in the United States is produced by 
Mexico-based and California-based Mexican drug trafficking 
organizations. These drug trafficking organizations control ``super 
labs'' which produce the majority of methamphetamine available 
throughout the United States. Mexican criminal organizations control 
most mid-level and retail methamphetamine distribution in the Pacific, 
Southwest, and West Central regions of the United States, as well as 
much of the distribution in the Great Lakes and Southeast regions. 
Mexican midlevel distributors sometimes supply methamphetamine to OMGs 
and Hispanic gangs for retail distribution throughout the country.
    Asian methamphetamine distributors (Filipino, Japanese, Korean, 
Thai, and Vietnamese) are also active in the Pacific region, although 
Mexican criminal groups trafficking in ``ice methamphetamine'' have 
supplanted Asian criminal groups as the dominant distributors of this 
drug type in Hawaii. OMGs distribute methamphetamine throughout the 
country, and reports indicate that they are particularly prevalent in 
many areas of the Great Lakes region, New England, and the New York/New 
Jersey region.
    The second source for methamphetamine comes from ``small toxic 
laboratories'' (STLs), which supplement the supply of foreign 
manufactured methamphetamine in the United States. Initially found only 
in the most Western States, there has been a steady increase and 
eastward spread in the number of STL's found in the United States. Many 
methamphetamine abusers quickly learn that the drug is easily produced 
and that it can be manufactured using common household products found 
at retail stores. For approximately $100 in ``materials'', a 
methamphetamine ``cook'' can produce approximately $1,000 worth of this 
poison. Items such as rock salt, battery acid, red phosphorous road 
flares, pool acid, and iodine crystals can be used as sources of the 
necessary chemicals. Precursor chemicals such as pseudoephedrine can be 
extracted from common, over-the-counter cold medications, regardless of 
whether it is sold in liquid, gel, or pill form. Using relatively 
common items such as mason jars, coffee filters, hot plates, pressure 
cookers, pillowcases, plastic tubing, gas cans, etc., a clandestine lab 
operator can manufacture meth almost anywhere without the need for 
sophisticated laboratory equipment.
    Widespread use of the Internet has facilitated the dissemination of 
technology used to manufacture methamphetamine in STLs. This form of 
information sharing allows wide dissemination of these techniques to 
anyone with computer access. Aside from marijuana, methamphetamine is 
the only widely abused illegal drug that is capable of easily being 
produced by the abuser. Given the relative ease with which 
manufacturers ``cooks'' are able to acquire ``recipes'', ingredients, 
and the unsophisticated nature of the production process, it is not 
difficult to see why this highly addictive drug has spread across 
America.
    STLs produce relatively small amounts of methamphetamine from a few 
grams to several ounces and are generally not affiliated with major 
drug trafficking organizations. Despite this, STLs still have an 
enormous impact on local communities, especially in rural areas.
    A precise breakdown is not available, but current drug and lab 
seizure data suggests that roughly two-thirds of the methamphetamine 
used in the United States comes from larger labs, increasingly in 
Mexico, and that approximately one-third of the methamphetamine 
consumed in this country comes from the small, toxic laboratories.

           METHAMPHETAMINE AND PRECURSOR CHEMICAL INITIATIVES
    The DEA is continuing to investigate, disrupt and dismantle major 
methamphetamine trafficking organizations through the Consolidated 
Priority Target list (CPOT) and our Priority Target Organization 
investigations (PTO). The DEA is significantly involved in the 
Organized Crime Drug Enforcement Task program (OCDETF) and we continue 
to work with state and local law enforcement agencies across the 
country to combat methamphetamine. Additionally, in March 2005, 
Administrator Tandy directed the DEA's Mobile Enforcement Teams (MET) 
to prioritize methamphetamine trafficking organizations during their 
deployments.
    The DEA is striving to ensure that only legitimate businesses with 
adequate chemical controls are licensed to handle bulk pseudoephedrine 
and ephedrine in the United States. In the past seven years, over 2,000 
chemical registrants have been denied, surrendered, or withdrawn their 
registrations or applications as a result of DEA investigations. 
Between 2001 and 2004, DEA Diversion Investigators physically inspected 
more than half of the 3,000 chemical registrants at their places of 
business. We investigated the adequacy of their security safeguards to 
prevent the diversion of chemicals to the illicit market, and audited 
their recordkeeping to ensure compliance with federal regulations.
    The DEA is also working with our global partners to target 
international methamphetamine traffickers and to increase chemical 
control efforts abroad. The DEA has worked hand in hand with our 
foreign law enforcement counterparts, and has forged agreements to pre-
screen pseudoephedrine shipments to ensure that they are being shipped 
to legitimate companies for equally legitimate purposes. An example of 
our efforts is an operation we worked with our counterparts from Hong 
Kong, Mexico and Panama, to prevent approximately 68 million 
pseudoephedrine tablets from reaching ``meth cartels''. This 
pseudoephedrine could have produced more than two metric tons of 
methamphetamine.
    As a result of these efforts and those of our law enforcement 
partners, we have seen a dramatic decline in methamphetamine ``super 
labs'' in the U.S. In 2004, 55 ``super labs'' were seized in the United 
States, the majority of which were in California. This is a dramatic 
decrease from the 246 ``super labs'' seized in 2001. This decrease in 
``super labs'' is largely a result of DEA's enforcement successes 
against suppliers of bulk shipments of precursor chemicals, notably 
ephedrine and pseudoephedrine. Law enforcement has also seen a huge 
reduction in the amount of pseudoephedrine, ephedrine, and other 
precursor chemicals seized at the Canadian border.
    In October 2004, the Administration released the National Synthetic 
Drugs Action Plan. In this plan, the Department of Justice, the DEA and 
ONDCP proclaimed the seriousness of the challenges posed by 
methamphetamine-along with other synthetic drugs and diverted 
pharmaceuticals-as well as our resolve to confront those challenges. 
Part of the National Synthetic Drugs Action Plan (NSDAP) specifically 
recognized that the move of large labs to Mexico requires that we offer 
assistance to help Mexico strengthen its anti-methamphetamine 
activities. This, in turn, requires us to work with other countries 
known to supply Mexican methamphetamine producers with illicit 
pseudoephedrine. A Synthetic Drugs Interagency Working Group (SD-IWG), 
co-chaired by the White House Office of National Drug Control Policy 
(ONDCP) and the Department of Justice (DOJ), was directed to oversee 
implementation of the Action Plan. The working group was tasked with 
reporting their findings to the Director of National Drug Control 
Policy, Attorney General, and Secretary for Health and Human Services 
six months after the document's release. In the May 2, 2005 Interim 
Report the SD-IWG has responded to this portion of the Action Plan:

<Bullet> China (particularly Hong Kong) has been a significant source of 
        pseudoephedrine tablets that have been diverted to 
        methamphetamine labs in Mexico. The United States and Mexico 
        have obtained a commitment by Hong Kong not to ship chemicals 
        to the United States, Mexico, or Panama until receiving an 
        import permit or equivalent documentation and to pre-notify the 
        receiving country before shipment.
<Bullet> The United States has made significant progress in assisting Mexican 
        authorities to improve their ability to respond to 
        methamphetamine laboratories. The DEA has played a role by 
        providing diversion and clandestine lab cleanup training 
        courses for Mexican officials (both Mexican Federal and State 
        levels).
<Bullet> In conjunction with our joint efforts, Mexico this year began to 
        impose stricter import quotas for pseudoephedrine, tied to 
        estimates of national needs and based on extrapolations from a 
        large population sample. Additionally, distributors have agreed 
        to limit sales of pseudoephedrine to pharmacies, which in turn 
        will sell no more than approximately nine grams per transaction 
        to customers.

            OTHER APPROACHES TO CONTROLLING METHAMPHETAMINE
    Methamphetamine is a synthetic central nervous system stimulant 
that is classified as a Schedule II controlled substance. It is widely 
abused throughout the United States and is distributed under the names 
``crank'', ``meth'', ``crystal'' and ``speed''. Methamphetamine is 
commonly sold in powder form, but has been distributed in tablets or as 
crystals (``glass'' or ``ice''). Methamphetamine can be smoked, 
snorted, injected or taken orally. The clandestine manufacture of 
methamphetamine has been a concern of law enforcement officials since 
the 1960's, when outlaw motorcycle gangs produced their own 
methamphetamine in labs, and dominated distribution in the United 
States. While clandestine labs can produce other types of illicit drugs 
such as PCP, MDMA, and LSD, methamphetamine has always been the primary 
drug manufactured in the vast majority of drug labs seized by law 
enforcement officers throughout the nation.
    A number of states have recently pursued legislation to curtail 
access to pseudoephedrine products and similar meth precursors. 
Different states have taken very different approaches to this challenge 
based upon their understanding of their own unique situation, and of 
the balance appropriate for their circumstances between law enforcement 
needs and consumer assess to cold medications.
    In April 2004 Oklahoma enacted the first and the most far-reaching 
state law restricting the sale of pseudoephedrine products. This law 
made pseudoephedrine a Schedule V Controlled Substance. Provisions of 
this law included the following: limiting sales of both single-entity 
and combination pseudoephedrine products to pharmacies; requiring 
pseudoephedrine products to be kept behind the pharmacy counter; and 
requiring the purchaser to show identification and sign a log sheet.
    Oklahoma's law was noted in the National Synthetic Drugs Action 
Plan, and was the first of many similar proposals introduced in State 
legislatures last year. The Interim Report again noted Oklahoma's law, 
as well as the State of Oregon's approach to restrict the sale of 
pseudoephedrine products. In October 2004, Oregon adopted a similar 
approach to Oklahoma's model through a temporary administrative rule. 
However, unlike Oklahoma, Oregon allowed combination pseudoephedrine 
products--those containing pseudoephedrine plus other active medical 
ingredients--to be sold at stores other than pharmacies, provided that 
the products were kept in a secure location. At the time of the Interim 
Report's release, only four months of data were available for review. 
This review showed an approximate 42 percent reduction in the number of 
labs seized from the same months in the prior year. A review of 12 
month's worth of data from Oklahoma showed a 51 percent reduction in 
lab seizures (April 2004 through March 2005).
    The Interim Report noted that even with the stabilization in 
methamphetamine laboratory numbers observed nationally, no states with 
consistently significant numbers of methamphetamine labs have seen the 
reductions in lab numbers that took place in Oklahoma and to a lesser 
but still significant extent in Oregon. The Interim Report stated that 
the available data (--a year's worth of data from Oklahoma, four months 
of data from Oregon, and several years worth of national data)--
strongly suggested that Oklahoma's and Oregon's state-level approaches 
were likely the primary reasons for the dramatic reduction in the 
number of STLs found in Oklahoma, as well as smaller reductions found 
in Oregon. Since the release of the Interim Report, the State of Oregon 
has enacted legislation which made pseudoephedrine a Schedule III 
Controlled Substance.
    Since the release of the Interim Report, the seizure of meth labs 
in Oklahoma has continued to remain at low levels, with a total of 115 
meth labs being seized from April through July 2005. The seizure of 
these 115 labs is significantly less than the seizures reported in 
Oklahoma during this same time period in 2004 (261) and 2003 (423).
    Furthermore, the State of Oregon has recently enacted legislation 
that classifies pseudoephedrine as a Schedule III Controlled Substance. 
This law will not go into full effect until July of 2006, and we cannot 
draw any conclusions about this new measure's effectiveness.
    Other states have since passed laws as well, some taking the 
Oklahoma approach and others taking a variety of less stringent 
approaches. As data from these states become available, it will be 
possible to assess the effectiveness of their efforts.

               COMBATING METHAMPHETAMINE AND ITS EFFECTS
    Pseudoephedrine and ephedrine are List I chemicals which are more 
correctly known as ``listed precursor chemicals'' under the Controlled 
Substances Act. These are chemicals needed and used to manufacture a 
controlled substance. Any importer of a List I chemical must notify the 
DEA in advance of importation. However, once the shipment arrives, its 
ultimate pre-production consumer may not be the recipient identified 
initially by the importer. The company who placed the order may 
determine its needs were less than originally anticipated. For the 
chemical importer this means any excess not sold to the ordering 
company may then, legitimately, be placed on the ``spot'' market and 
sold. Unlike Schedule I and II controlled substances, List I chemicals 
are not subject to the same stringent record keeping requirements which 
track the substance from production to consumption, so neither the 
seller nor buyer on the ``spot'' market is mandated to report the sale. 
The only requirement is that the seller maintains a record of the 
transaction. Tighter regulation of the ``spot'' market could reduce the 
amount of ephedrine and pseudoephedrine diverted from legitimate 
production needs.
    Additionally, legislation that would deal with the blister pack 
exemption and transaction limits would be useful. Elimination of the 
blister pack exemption would require all products containing ephedrine 
or pseudoephedrine, regardless of how it is packaged or the form the 
dosage unit takes, to be subject to Federal law. The enactment of 
legislation closing this loop-hole will make it more difficult for meth 
traffickers and ``cooks'' to get the amount of ephedrine or 
pseudoephedrine they need for a cook. In addition, effective Federal 
legislation should include an individual purchase limit of 3.6 grams 
per transaction for retail sales of over-the-counter products 
containing pseudoephedrine. Such limits would directly impact the 
production of methamphetamine in STLs.

                                TRAINING
    In response to the spread of labs across the country, more and more 
state and local law enforcement officers require training to 
investigate and safely dismantle these labs. Since 1998, the DEA has 
offered a robust training program for our state and local law 
enforcement partners. The DEA, through our Office of Training, provides 
basic and advanced clandestine laboratory safety training for state and 
local law enforcement officers and Special Agents at the DEA 
Clandestine Laboratory Training Facility. DEA instruction includes the 
Basic Clandestine Laboratory Certification School, the Advanced Site 
Safety School, and the Clandestine Laboratory Tactical School. Each 
course exceeds Occupational Safety Health Administration (OSHA)-
mandated minimum safety requirements and is provided at no cost to 
qualified state and local law enforcement officers. As part of this 
training, approximately $2,200 worth of personal protective equipment 
is issued to each student, allowing them to safely investigate and work 
in this hazardous environment.
    The DEA has trained more than 9,300 State and local law enforcement 
personnel (plus 1,900 DEA employees), since 1998, to conduct 
investigations and dismantle seized methamphetamine labs and protect 
the public from its toxic waste.
    The Office of Training also provides clandestine laboratory 
awareness and ``train the trainer'' programs that can be tailored for a 
specific agency's needs, with classes ranging in length from one to 
eight hours. We provide in-service training and seminars for law 
enforcement groups, such as the Clandestine Laboratory Investigator's 
Association and the International Association of Chief's of Police. DEA 
also has provided training to our counterparts overseas regarding 
precursor chemical control, investigation and prosecution. This DEA 
training is pivotal to ensuring safe and efficient cleanup of 
methamphetamine lab hazardous waste and the arrest and prosecution of 
violators.

                        HAZARDOUS WASTE CLEANUP
    When a federal, state or local agency seizes a clandestine 
methamphetamine laboratory, Environmental Protection Agency regulations 
require the agency ensure that all hazardous waste materials are safely 
removed from the site. In 1990, the DEA established a Hazardous Waste 
Cleanup Program to address environmental concerns from the seizure of 
clandestine drug laboratories. This program promotes the safety of law 
enforcement personnel and the public by using qualified companies with 
specialized training and equipment to remove hazardous waste. Private 
contractors provide hazardous waste removal and disposal services to 
the DEA, as well as to state and local law enforcement agencies.

                   VICTIM WITNESS ASSISTANCE PROGRAM
    More than any other controlled substance, methamphetamine 
trafficking endangers children through exposure to drug abuse, neglect, 
physical and sexual abuse, toxic chemicals, hazardous waste, fire, and 
explosions. In response to these tragic phenomena, the DEA has enhanced 
its Victim Witness Program to identify, refer, and report these 
incidents to the proper state agencies. Each of the DEA's Field 
Divisions has a Victim/Witness Coordinator to ensure that all 
endangered children are identified and that the child's immediate 
safety is addressed at the scene by appropriate child welfare and 
health care service providers. Assistance has also been provided to 
vulnerable adults, individuals of domestic violence, and to customers 
and employees of businesses such as hotels and motels where 
methamphetamine has been produced or seized.

                               CONCLUSION
    Methamphetamine continues to take a terrible toll on this country. 
To combat this poison, the DEA is attacking methamphetamine on all 
fronts. Our enforcement efforts are focused not only on the large-scale 
methamphetamine trafficking organizations distributing this drug in the 
U.S., but also on those involved in providing the precursor chemicals 
necessary to manufacture this poison. The DEA is well aware of the 
importance of controlling the precursor chemicals necessary to produce 
methamphetamine and is working with our international counterparts to 
forge agreements to control the flow of these chemicals.
    We are also working closely with our state and local law 
enforcement partners to assist in the elimination of the small toxic 
labs that have spread across the country. The DEA's Hazardous Waste 
Program, with the assistance of grants to state and local law 
enforcement, supports and funds the cleanup of a majority of the 
laboratories seized in the United States. The DEA has also taken an 
active role in the Victim Witness Assistance Program to assist 
methamphetamine's victims educating communities about the dangers of 
meth and other illicit drugs.
    There are no easy answers to combating the spread of 
methamphetamine, but there are tools. The best weapon in our collective 
arsenal is knowledge. We must continue to make our youth better 
understand how methamphetamine can devastate their lives and harm their 
bodies. We must help law enforcement officers increase their tactical 
knowledge of how to effectively identify and attack meth traffickers, 
and thereby remove incentives for people to manufacture and sell 
methamphetamine. We must also improve public awareness of how 
methamphetamine tears apart communities, friendships, and families.
    Thank you for your recognition of this important issue and the 
opportunity to testify here today. I will be happy to answer any 
questions.

    Mr. Deal. Thank you. And Mr. Murtha?

                    STATEMENT OF PETER MURTHA

    Mr. Murtha. Chairmen Deal and Gillmor, my name is Peter 
Murtha. I am the Director of the Office of Criminal 
Enforcement, Forensics and Training, of the United States 
Environmental Protection Agency. In that capacity, I direct 
EPA's criminal enforcement role in responding to human health 
and environmental threats, including those posed by 
methamphetamine production.
    Thank you for inviting me to appear today to discuss the 
agency's efforts regarding enforcement issues associated with 
methamphetamine production, in particular H.R. 3888, the 
Methamphetamine Epidemic Elimination Act. We commend the 
Committee for proposing steps to eliminate methamphetamine 
labs.
    My testimony today will describe in general EPA's criminal 
enforcement experience with methamphetamine labs. I will 
summarize my statement but ask that my entire written statement 
be submitted to the record.
    EPA's criminal enforcement program investigates those 
violations of environmental laws that pose both a significant 
threat to human health and the environment, and manifest the 
requisite criminal intent.
    EPA Criminal Investigation Division offices throughout 15 
Area Offices and 29 Resident Offices are spread across the 
country. EPA participates nationwide in dozens of environmental 
crime taskforces in nearly every judicial district. Our 
partners in these taskforces consist of other Federal law 
enforcement agencies, including the DEA, Offices of the U.S. 
Attorney, as well as State and local law enforcement and 
regulatory agencies. EPA works with many of these partners in 
their efforts to arrest and prosecute producers of 
methamphetamine who not only violate State and Federal 
narcotics laws but also Federal hazardous waste laws.
    As a law enforcement matter, regulation of methamphetamine 
labs falls primarily within the jurisdiction of other Federal, 
State, and local law enforcement agencies. EPA, however, does 
have authority to investigate environmental crime, usually un-
permitted disposal of RCRA hazardous waste associated with such 
labs.
    It is our experience that in cases involving 
methamphetamine laboratories, the drug, racketeering and 
conspiracy charges generally brought are typically easier to 
prosecute and yield far greater sentences than environmental 
crimes. Thus, in many instances EPA's investigation of 
methamphetamine laboratories would have limited incremental 
value, especially in light of resource constraints.
    However, EPA continues to coordinate with our Federal, 
State, and local law enforcement partners to assist in such 
cases. And EPA stands ready to assist our law enforcement 
partners by investigating these crimes.
    Identifying and cleaning up the vast majority of 
methamphetamine labs is done by local and State governments. 
EPA does respond in a small percentage of cases, when local or 
State resources cannot address the problem. In addition to EPA 
cleanup response, the agency provides training for thousands of 
State and local responders each year. EPA offers a wide range 
of technical and management courses designed to aid responders 
in identifying and implementing appropriate actions to 
eliminate the threats from hazardous substances.
    The Agency also provides financial support to State, 
tribal, and local governments and nonprofit organizations that 
can be used to eradicate and clean up meth labs. Local 
governments can receive help paying for emergency response 
actions through EPA's Local Governments Reimbursement Program. 
EPA also makes funding available to State and local governments 
for the assessment and cleanup of meth lab sites through the 
Office of Brownfields Cleanup and Redevelopment.
    EPA's regulations established two ways of identifying solid 
waste as hazardous under the Resource Conservation and Recovery 
Act. A waste is hazardous if it exhibits certain characteristic 
properties, known as characteristics. RCRA regulations define 
four hazardous waste characteristics: ignitability, 
corrosivity, reactivity, and toxicity.
    The second approach used by EPA is to conduct a specific 
assessment of a waste or category of wastes and list them as 
hazardous if the wastes pose substantial hazards. It is very 
unusual, though not unprecedented, in EPA's experience for an 
investigation of a methamphetamine lab to reveal neither 
characteristics nor listed hazardous wastes. Nearly every 
investigation of methamphetamine labs reveals either 
characteristic or listed waste.
    Mr. Chairman, that concludes my oral statement. We look 
forward to working with the Committee and its members as it 
continues to consider this legislation and provide the 
Committee with any needed technical assistance. Thank you for 
the opportunity to appear before you today.
    [The prepared statement of Peter Murtha follows:]
   Prepared Statement of Peter Murtha, Director, Office of Criminal 
    Enforcement, Forensics and Training, Office of Enforcement and 
       Compliance Assurance, U.S. Environmental Protection Agency
    Mr. Chairman and Members of the Subcommittee, my name is Peter 
Murtha. I am the Director of the Office of Criminal Enforcement, 
Forensics and Training in the Office of Enforcement and Compliance 
Assurance at the Environmental Protection Agency (EPA). In that 
capacity, I direct EPA's criminal enforcement role in responding to 
human health and environmental threats, including those posed by 
methamphetamine production. Thank you for inviting me to appear today 
to discuss the Agency's efforts regarding enforcement issues associated 
with methamphetamine production, in particular HR 3889, the 
Methamphetamine Epidemic Elimination Act. We commend the Committee for 
proposing steps to eliminate methamphetamine labs. My testimony today 
will describe in general EPA's criminal enforcement experience with 
methamphetamine labs.

                   EPA'S CRIMINAL ENFORCEMENT PROGRAM
    EPA's criminal enforcement program investigates those violations of 
environmental laws that both pose a significant threat to human health 
and the environment, and manifest the required criminal intent. The 
program provides stateoftheart training to our employees and our 
partners in international, federal, tribal, state, local law 
enforcement, regulatory and intelligence agencies. EPA's Office of 
Criminal Enforcement, Forensics and Training administers this program 
through its Criminal Investigation Division.
    EPA Criminal Investigation Division offices are located in 15 Area 
Offices and 29 Resident Offices throughout the country. EPA 
participates nationwide in dozens of environmental crime task forces. 
Our partners in these task forces consist of other federal law 
enforcement agencies, Offices of the U.S. Attorney, as well as state 
and local law enforcement and regulatory agencies. EPA works with many 
of these partners in their efforts to arrest and prosecute producers of 
methamphetamine who not only violate state and federal narcotics laws 
but also federal hazardous waste laws.
    As a law enforcement matter, regulation of methamphetamine labs 
fall primarily within the jurisdiction of other federal, state and 
local law enforcement agencies. EPA does, however, have authority to 
investigate environmental crimes relating to such labs (e.g., the 
unpermitted disposal of RCRA hazardous waste).
    It is our experience that in cases involving methamphetamine 
laboratories, the drug, racketeering and conspiracy charges generally 
brought are typically easier to prosecute and yield far greater 
sentences than environmental crimes. Thus, in many instances EPA's 
investigation of a methamphetamine laboratory would have limited 
incremental value.
    EPA continues to coordinate with our federal, state and local law 
enforcement partners to assist in such cases, while ensuring that they 
are investigated and prosecuted in the most appropriate manner, which 
is often not as federal criminal environmental crime cases. At the same 
time, however, in those unusual cases in which the environmental 
crimes, rather than the traditional drug prosecution, is the best 
prosecutive option, EPA stands ready to assist our law enforcement 
partners by investigating these crimes.

                           EMERGENCY RESPONSE
    Each year, more than 20,000 emergencies involving the release, or 
threatened release, of oil and hazardous substances are reported in the 
United States, potentially affecting both large and small communities 
and the surrounding natural environment. Reports in the local news 
often report the timely, effective response of local firefighters and 
other emergency officials. Behind the scenes, however, an integrated 
National Response System (NRS) involving federal, state, and local 
officials is at work supporting the men and women on the front lines.
    The U.S. Environmental Protection Agency plays a leadership role in 
this national system, chairing the National Response Team and directing 
its own Emergency Response Program. In the instances when EPA has had 
to respond to the risks posed by meth labs, it has been through EPA's 
Emergency Response Program. The Program's primary objectives are taking 
reasonable steps to prevent emergencies involving hazardous substances 
and oil; preparing emergency response personnel at the federal, state, 
and local levels for such emergencies; and responding quickly and 
decisively to such emergencies wherever and whenever they occur within 
our national borders.

                    METHAMPHETAMINE LABS--EPA'S ROLE
    Identifying and cleaning up the vast majority of methamphetamine 
labs is done by local and state governments, and methamphetamine labs 
do not generally involve scenarios that would trigger response under 
the Superfund law. EPA does respond in that small percentage of cases 
when local or state resources cannot address the problem. In addition 
to EPA cleanup response, the Agency provides training for thousands of 
state and local responders each year. EPA offers a wide range of 
technical and management courses designed to aid responders in 
identifying and implementing appropriate actions to eliminate the 
threats from hazardous substances.
    The Agency also provides financial support to state, tribal and 
local governments and nonprofit organizations that can be used to 
eradicate and clean up meth labs. Local governments can receive help 
paying for emergency response actions through EPA's Local Governments 
Reimbursement Program. To date, EPA has provided local governments more 
than $3 million through this program. EPA also makes funding available 
to state and local governments for the assessment and cleanup of meth 
lab sites through the Office of Brownfields Cleanup and Redevelopment 
via grants of up to $200,000 per site. State and local governments can 
receive grants up to $1 million to be used for the capitalization of 
revolving loan funds; they can then make loans and subgrants for the 
cleanup of methamphetamine labs sites. State and tribal grants provided 
under CERCLA Section 128 for the development and enhancement of state 
and tribal response programs can also be used in this regard. And, 
nonprofit organizations are also eligible for cleanup grants to 
remediate meth lab sites, also up to $200,000 per site.

        WASTES RESULTING FROM THE PRODUCTION OF METHAMPHETAMINE
    EPA's regulations establish two ways of identifying solid wastes as 
hazardous under the Resource Conservation and Recovery Act (RCRA). A 
waste is hazardous if it exhibits certain hazardous properties (known 
as ``Characteristics''). RCRA regulations define four hazardous waste 
Characteristics: ignitability, corrosivity, reactivity, or toxicity. 
Waste generators are responsible for determining if their wastes 
exhibit any of the Characteristics through specific tests or general 
knowledge of the wastes. The second approach used by EPA is to conduct 
a specific assessment of a waste or category of wastes and ``list'' 
them as hazardous if the wastes pose substantial hazards. The listings 
include wastes generated from various industrial processes, as well as 
lists of commercial chemical products and other materials.
    There are a variety of methods for making methamphetamine. In 
general many of the chemicals and wastes likely to be associated with 
methamphetamine production may be addressed as hazardous waste under 
RCRA, typically as ``characteristic'' (e.g., ignitable) hazardous 
waste. A relatively smaller number of the wastes associated with 
methamphetamine production, including solvents and other chemicals used 
in the purification of crude methamphetamine products would also be 
considered hazardous waste based upon a listing as discarded commercial 
chemical products. Nearly every investigation of a methamphetamine lab 
reveals either characteristic or listed hazardous waste.

                               CONCLUSION
    While the response to methamphetamine labs is led principally by 
local and state efforts, EPA's criminal enforcement program works with 
local, state, and other federal law enforcement agencies in limited, 
appropriate cases to investigate and prosecute criminals involved in 
the production of methamphetamine. EPA will continue to help local, 
state and other federal agencies address the problems associated with 
methamphetamine production, ensuring an appropriate law enforcement 
response. While we anticipate having few such cases in the future, we 
are ready to assist in those cases that require our participation, such 
as those with significant environmental impacts or no better 
prosecutorial option.
    We look forward to working with the Committee and its Members as it 
continues to consider this legislation and provide the Committee with 
any needed technical assistance. Thank you for the opportunity to 
appear before you today.

    Mr. Shimkus [presiding]. Thank you. Now we will begin our 
opening round of questions and I will start with myself, since 
I didn't do an opening statement. And we want again welcome 
you. This is, as has been heard from many of my colleagues, a 
very difficult problem. I am interested, though--I represent 
rural Illinois. And of course, we are--our effect is all of the 
above of what was stated. There is mostly small labs of common 
household products that are produced anywhere from inside a 
cornfield to inside a national forest to anywhere where they 
can be out of sight, out of mind. And the first question would 
be for the individuals from EPA. What, if any, assistance is 
there for the local communities once they find a site--a 
small--not a superlab, but a small site that might be on a--you 
know, I have seen photos of--Shawnee National Forest is in my 
district. So there are some picnic areas that are isolated that 
are used during the good seasons and then pretty much not in 
the off season. And then you have on this picnic table and this 
village around there all the, you know, pseudoephedrine and you 
have the gasoline and all this other, you know, nasty chemicals 
that are getting kicked around and dropped. What, if any, 
assistance to local authorities is there from the EPA on the 
cleanup of this?
    Mr. Murtha. Thank you for the question. Ordinarily, the 
State and local authorities, being the first line of response, 
are able to deal effectively with those types of situations. 
However----
    Mr. Shimkus. Well, in essence, they are not. In essence--
you are talking about HazMat. I have got one rural county that 
has 5,000 residents in it. So you are really talking about a 
HazMat team that has to be deployed. Now what we have been able 
to do in the State of Illinois is, you know, work through the 
Illinois State Police to provide that and provide some 
assistance because I am sure if you follow the sheriff's 
testimony, it is the local rural sheriffs, and I have 30 of 
them, that are screaming because they can't do it. They don't 
have the equipment. They don't have--now I think we are all--we 
are being helped on some training. But it is that challenge. So 
I am not being combative, it is just a frustration that in 
Rural America you hear that these are identified as a, you 
know, chemically polluted site, which again, in very small 
rural counties there is just not the resources to meet that. So 
that is probably something that hopefully we--I am on the 
taskforce to deal with the methamphetamine in the caucus, those 
things that we are trying to raise at the legislative level for 
some assistance. The--I am also concerned about the supersites, 
these--the testimony talked about, I don't know, two-thirds of 
the product being in supersites, mostly from Mexico. What is 
the--I shudder to ask this question, because I think I know the 
answer. But what is the transportation route, the entry route 
to the United States?
    Mr. Rannazzisi. Sir, it is all across the Southwest border. 
For instance, we know that there is one transportation route 
that goes up through Arizona. It is interesting. Arizona has 
shown a decrease in clandestine labs over the last 2 or 3 
years. The reason we believe the decrease is there is because 
the market is flooded because that is where that transportation 
route is. And wherever there is a transportation route, there 
is going to be a market of methamphetamine. So it is basically 
along the Southwest border. It is coming across. We still have 
superlabs in the U.S. We just don't have the amount we had back 
in 2001. I think we seized about 246 superlabs in 2001. Those 
are labs that were producing more than 10 pounds of 
methamphetamine in a 24-hour period. In 2004, we only seized 
55. So obviously the population of superlabs has gone down. It 
has been moved across the border, basically.
    Mr. Shimkus. And one of the follow-up questions I am going 
to ask for the next panel is the challenges of the different 
State laws and application, and probably the same thing with 
the law enforcement concerns. As we heard earlier in some 
opening statements, there is obviously a very positive signal 
of trying to get the handle around--trying to restrict 
appropriately the purchase of some of the supplies so that it 
makes it more difficult. But then there is a race and there is 
disarray in nature and everyone lives, for the most part, 
unless you are from the State of Hawaii, bordering some other 
State. And so there is this challenge. In the State of 
Illinois, they have placed restrictions on the sale of some of 
these products in flea markets and the like. I bring that to 
your attention because I know in some States that may not be 
the case. And is that a venue by which the DEA, working with 
local law enforcement, are looking at? Obviously that is 
challenging because the DEA, like any other agency, is a small 
agency, and--smaller, and we could always use more people and 
more money. So what about this aspect of purchasing some of 
these products in the quantities that raise alarm bells that 
the purchaser is using it for other purposes than just their 
own personal cold?
    Mr. Rannazzisi. Well, to start, obviously pseudoephedrine 
products, the cold preparations, could be purchased just about 
anywhere. We have seen them in, of course, pharmacies, retail 
outlets, gas stations, liquor stores. It runs a gamut. Now I 
heard about the flea market sales not but a couple of days ago. 
And we are starting to look into that to find out about flea 
market sales. You could purchase it over the Internet. It is 
readily available. And that is the problem. Now the small 
traffickers are generally smart. They are not going to go in 
and buy five or six packages at one store. They----
    Mr. Shimkus. Well, they are not anymore because of 
legislation or the requirement by States to identify them. I 
mean, you go through a major chain store and you swipe the bar 
scan and all of the sudden bells and whistles go off and local 
law enforcement is there. So that has occurred because of an 
action taken by actually individual States and local law 
enforcement and really the companies that are, you know, in the 
basis of selling and--these products, too, legally.
    Mr. Rannazzisi. That is exactly correct, sir. But they are 
still smurfing. They might not buy more than two packages, but 
they are going to 20 different retail outlets to get the two 
packages. Okay? They are slipping under the, you know, they are 
slipping under the radar screen, basically. The fact is that if 
the States that are requiring, you know, some kind of 
identification, the States that are actually keeping the 
product in a restricted--in some type of restriction, some type 
of point-of-sale restriction, those are the States that, you 
know, are seeing a decrease. Yet they are crossing the border 
to States that don't have those legal restrictions and they are 
getting the product anyway.
    Mr. Shimkus. Thank you. And I just want to end. And I will 
then yield to my colleague from California. As I said, it is an 
important hearing. It is a scourge, again, in Rural America. 
And I look forward to the sheriff's testimony. The other 
challenge that small communities have is the health care costs 
once they apprehend these individuals, they put them into 
incarceration. And the physical effects of meth addiction is 
just--peoples' teeth fall out and there is no bleeding. It is 
amazing. It is a poison. And local governments have to incur 
that cost of the health care for the folks in their jails. So 
we have great challenges and I think that is why all my 
colleagues are here and very interested in this testimony. And 
with that, I want to thank you. And I yield to my colleague 
from California.
    Ms. Solis. Thank you very much. Before I begin, I would 
like to ask Mr. Murtha, as a side note, members of our 
committee sent a letter to Administrator Johnson seeking 
answers to some refinery issues and we were hopeful to get a 
response back September 27. I would like to know if you have 
any information about that or if you could please take that 
message back, that we would like to get a response.
    Mr. Murtha. I would be delighted to take that message back. 
I don't know anything about it, regrettably.
    Ms. Solis. Regarding some refinery issues that we had. So 
very quickly, I would like to ask you, if you can tell me, Mr. 
Murtha, what criteria EPA currently uses to determine if a 
substance is hazardous. You mentioned four--I think four or 
five items or criteria. But how--can you explain that? And then 
also tell me how that differs or if there is any difference 
between the bill that we are discussing, the Souder Bill.
    Mr. Murtha. Well, we primarily have two main approaches, 
one of which is called characteristic waste, the second of 
which is called listed waste. All of these are set forth in a 
great deal of specificity in 40 CFR Part 261, et sec. But 
basically, the characteristics that I spoke of before, 
ignitability, corrosivity----
    Ms. Solis. Yes.
    Mr. Murtha. [continuing] reactivity----
    Ms. Solis. Um-hum.
    Mr. Murtha. [continuing] those types of things are done by 
virtue of a testing method--a standardized testing methodology. 
And if you have a particular substance, any trained laboratory 
scientist can make the determination whether or not that 
criteria fits the particular substance being analyzed. What we 
have found is that in the substantial majority of our 
investigations of methamphetamine labs, one or more of the 
substances we find at those labs can be characterized as 
hazardous waste. For example, often times solvents are found on 
the sites. Those are very, very frequently going to be 
ignitable hazardous wastes. So they come within the universe of 
RCRA and are regulated as such. And therefore, for example, if 
they are improperly disposed of or improperly stored, and that 
is done knowingly, we are in a position where we can actually 
bring felony charges against that particular individual. The 
second basic approach is the listing approach. And there is a 
very--there are several, actually, lengthy tables in the CFR 
specifying under two different approaches. One approach takes a 
look at a particular industry and says that all of the waste 
from this particular industry in connection with this 
particular process will be deemed hazardous waste. A second 
approach is to take a look at a particular chemical and 
indicate that if this chemical product is abandoned or 
discarded, then that is considered hazardous waste.
    Ms. Solis. Okay.
    Mr. Murtha. Now, getting back to your original question, 
what would this do under the provisions suggested in 3888----
    Ms. Solis. Right. 401(b).
    Mr. Murtha. --89.
    Ms. Solis. Section 401(b). How would----
    Mr. Murtha. Right.
    Ms. Solis. How would that differ?
    Mr. Murtha. There may be a rather small segment of cases 
where for whatever reason neither hazardous waste nor 
characteristic waste will be found at a methamphetamine lab. I 
actually asked my staff to take a 10-year retrospective look to 
see the extent that that has actually happened. And I was 
actually only able to find a single case where we went in, 
investigated a lab, took samples, did the things we would 
ordinarily do in the course of a criminal investigation, yet 
did not yield any hazardous waste. It is possible that the 
approach suggested in the bill might allow us to sweep that odd 
case under the rubric of RCRA. But again, in what we have seen, 
it has not been a frequent occurrence that we would need that 
type of additional authority.
    Ms. Solis. And just to note, I guess in that section it 
says that all byproducts shall be designated as a hazardous 
waste, where the Administration determines they are likely to 
cause long-term harm to the environment in the event of 
improper disposal and inadequate remediation.
    Mr. Murtha. I am not sure I completely understand the 
question, ma'am.
    Ms. Solis. Well, that is part of the section in the bill, 
H.R. 3889, Section 401(b). And I am wondering how that differed 
from what you are currently doing.
    Mr. Murtha. Well, once again, it would broaden our 
authority and would essentially give us the ability in certain 
but unusual cases where we are unable under our current manner 
of characterizing and listing hazardous waste to be able to 
attribute those characteristics or listings to something we 
would find at a meth lab site. So it clearly is broader. It 
could fill in some very occasional gaps that we experience.
    Ms. Solis. Thank you. Thank you, Mr. Chairman. I know I 
took more time.
    Mr. Gillmor. I thank the ranking member and wish her a 
happy birthday. I have a couple questions for Mr. Murtha. Does 
EPA or any other Federal agency employ voluntary guidelines or 
mandatory standards in governing the cleanup or remediation of 
meth contaminationsites?
    Mr. Murtha. My understanding, sir, and bearing in mind that 
my background and position is a bit different, being involved 
in the Criminal Enforcement Office, is that the Office of Solid 
Waste and Emergency Response, or OSWER, works in conjunction 
with the DEA in terms of formulating those types of guidelines.
    Mr. Gillmor. Based on your answer then, if EPA were to 
issue guidelines on methamphetamines, would that fall under the 
purview of the Office of Solid Waste and Emergency Response?
    Mr. Murtha. That is correct, sir.
    Mr. Gillmor. All right. Title 4 of H.R. 3889, Section 402, 
creates a new criteria for cleanup costs under the Controlled 
Substances Act. It says passage of H.R. 3889 would constitute a 
later in time enactment. Would these new provisions hamper or 
amend EPA's efforts at cost recovery for cleanup or remediation 
of sites under Federal environmental statutes?
    Mr. Murtha. Sir, I think that is a little beyond my 
immediate expertise. And I would like to have an opportunity to 
supplement the record with a written response.
    Mr. Gillmor. We would very much appreciate it if you would 
do that. Thank you. The gentleman from New Jersey.
    Mr. Pallone. I wanted to ask Mrs. Colston, following up on 
my opening statement. In your testimony you cite that the rates 
of I guess meth use amongst youth age, 12 to 17, declined from 
0.9 percent in 2002 to 0.76 percent in 2003, and dropped again 
to 0.6 percent in 2004. I mean, I know those numbers are not, 
you know--they are still pretty close. But I made the point in 
my opening statement that the Republican Study Committee Budget 
would seek to eliminate funding for the Drug-Free School Zone 
Program as well as funding for the Office of the National Drug 
Control Policy. And that is an office that your agency is 
working with to develop grassroots community anti-drug 
coalition. I mean, the Republicans claim that these are 
programs that are ineffective in preventing and reducing drug 
use. Can you comment on the efficacy of those programs--these 
prevention programs and what impact budget cuts might have on 
them? I know it is a very partisan question, but if you could 
answer it.
    Ms. Colston. How about if I answer it within the context of 
the approach that SAMHSA has taken to address substance abuse 
prevention, which is very much tailored, allowing communities 
to tailor prevention interventions based on the needs in the 
community, rural, urban, whether they are--no matter where they 
are located. The beauty of our Strategic Prevention Framework 
is that community prevention, almost by definition, means 
working across systems to stop drug use. And our Strategic 
Prevention Framework requires that communities, working with 
States, actually assess needs, develop a plan, mobilize 
resources based on these needs, methamphetamine abuse----
    Mr. Pallone. But, I mean, you would certainly not advocate 
cutting these grants that----
    Ms. Colston. We have no position on that, sir.
    Mr. Pallone. Okay. Let me ask I guess Mr. Rannazzisi. You 
know, a number of the State laws that are--have been passed or 
end up reducing meth abuse. And a lot of them basically limit 
the supply of either meth or precursors used to manufacture it. 
And despite these efforts, the meth problem continues to spread 
as manufacturers and, you know, basically look for alternative 
methods of obtaining the ingredients that produce meth. And 
many of the policies introduced in this Congress--many of the 
bills seek to curb meth abuse once again by focusing on 
precursor regulation. You know, placing cough medicines behind 
the shelf, drug stores, you know, trying to get them off the 
shelf. Have these kinds of efforts that--have they been 
successful in curbing meth abusers or do those producers look 
and find other ways to access precursors?
    Mr. Rannazzisi. Well, we can look at two States that were 
mentioned in the report for the National Synthetic Drug Action 
Plan. Oklahoma basically passed Schedule 5 legislation, reduced 
their lab seizures by 52 percent. Oregon--and that was a full 
year data set, so we had a full year data set. Oregon, in the 
first 4 or 6 months of their law, which was similar to Schedule 
5, with the exception of combination pseudoephedrine products 
could be sold behind the counter at other retail outlets, had 
about a 42 percent reduction. So obviously in those States they 
have showed a significant reduction in clandestine labs. 
However, you could go to the neighboring States to make your 
purchases of pseudoephedrine and bring them back across the 
border. And in Oklahoma they were seeing that pretty regularly.
    Mr. Pallone. So you would argue that we need to do things 
federally so that we can't have, you know, shopping at 
different States or neighboring States because the one State 
passed a certain law. Is that--you think the most important 
thing is to have Federal action?
    Mr. Rannazzisi. What we need to--well, the Attorney 
General, Secretary Levin, and Director Walters I think laid out 
what they feel--what the Administration feels is a good 
response legislatively, a 3.6 gram limit on the number of--on 
the amount of purchase for at retail level. The removal of the 
blister pack exemption, the so-called Safe Harbor Provision, so 
you could purchase unlimited amounts of pseudoephedrine blister 
packs without any kind of record of a transaction. And finally, 
the spot market removal. There is a loophole in the law that 
allows importers to--if an importer brings in an amount of 
pseudoephedrine for a company and that company decides they 
don't want it, the importer could basically sell it to anybody, 
whereas that importer is granted the right to import based upon 
who the downstream purchaser of that product is. So the 
Administration laid out those three specific provisions that 
would help in the--combating methamphetamine manufacturing.
    Mr. Pallone. All right. Thank you.
    Mr. Gillmor. The gentleman from Texas.
    Mr. Burgess. Yes, Mr. Chairman. With your indulgence, I did 
have a few questions. Ms. Colston, why is methamphetamine so 
bad?
    Ms. Colston. That is a good question, sir. I think 
methamphetamine is so bad because it is so highly addictive. 
The people that we are seeing in our treatment system now are 
dependent. They have been abusing methamphetamine for over 7\1/
2\ years. But----
    Mr. Burgess. Let me interrupt for just a moment. Mr. 
Chairman, I waived the right to an opening statement and I 
wonder if I might be given the----
    Mr. Gillmor. The gentleman is recognized.
    Mr. Burgess. Thank you. But I wonder if I might be 
recognized for the 8 minutes rather than 5.
    Mr. Gillmor. The gentleman is recognized for the 8 minutes. 
I would point out to the members, we are going to have a 
problem here with the----
    Mr. Burgess. I understand.
    Mr. Gillmor. [continuing] but the gentleman did waive, so--
--
    Mr. Burgess. Thank you.
    Mr. Gillmor. [continuing] the gentleman is entitled to his 
8 minutes.
    Ms. Colston. Methamphetamine has profound cognitive impact. 
That is why when people present for treatment it is very 
important to take a cognitive behavioral approach. That is, a 
very comprehensive approach and work on just the fact that 
someone doesn't have the ability to make a decision.
    Mr. Burgess. Well, if I may interrupt----
    Ms. Colston. Sure.
    Mr. Burgess. [continuing] what are some of the treatments 
for someone who is addicted to methamphetamine? Do we have a--
--
    Ms. Colston. Yes, sir.
    Mr. Burgess. [continuing] like a Methadone for heroin? 
What----
    Ms. Colston. We----
    Mr. Burgess. [continuing] are some of the things----
    Ms. Colston. [continuing] we have an approach that has 
positive outcomes, called the Matrix model, which I referred to 
earlier. And it has cognitive behavioral aspects, family 
education, daily living skill, initially work on the more 
intensive end--when they first come in, more intensive 
treatment and then clinical treatment and then move through the 
recovery support services, because it is a long-term issues.
    Mr. Burgess. So this requires primarily psychotherapy. 
There is no pharmacological therapy, such as Antabuse or 
Methadone----
    Ms. Colston. Correct.
    Mr. Burgess. [continuing] that would be useful in the 
treatment of----
    Ms. Colston. Correct. At this point, yes.
    Mr. Burgess. [continuing] addiction. Well, how effective is 
that regiment of psychotherapy and family therapy that you 
have?
    Ms. Colston. We have had very good results, between 57 and 
68 percent of the Matrix model system reported no 
methamphetamine use at discharge and at follow-up points 
after----
    Mr. Burgess. 57 percent?
    Ms. Colston. Yes, sir.
    Mr. Burgess. Over what period of time?
    Ms. Colston. At discharge and at certain points after 
discharge.
    Mr. Burgess. How long is that----
    Ms. Colston. It is likely to get better.
    Mr. Burgess. How long--okay. What sort of time----
    Ms. Colston. Six points, 1 year.
    Mr. Burgess. Okay.
    Ms. Colston. Six months.
    Mr. Burgess. What----
    Ms. Colston. And they also have improvement in their 
employment status, family relations, legal status.
    Mr. Burgess. Sure. And I understand that. I mean, I have 
personally witnessed in my own medical practice----
    Ms. Colston. Yes.
    Mr. Burgess. [continuing] how disruptive this is to a 
family. Well, how expensive is the treatment then, the 
psychotherapy, family therapy that you have outlined?
    Ms. Colston. I would have to get that information to you. I 
do not have the exact cost information with me today.
    Mr. Burgess. If you could. And I don't----
    Ms. Colston. I will absolutely do that.
    Mr. Burgess. [continuing] I don't know if it is even 
available to break it down as cost per patient or cost per 
month.
    Ms. Colston. Yes, sir.
    Mr. Burgess. And then do you have--does SAMHSA keep any 
sort of record as far as oversight for who is doing the best 
job with this, who has got the best rates, so we try to capture 
some best practices? Because being of a more practical sort----
    Ms. Colston. Yes.
    Mr. Burgess. [continuing] when I hear about things that are 
treated with psychotherapy and family therapy, I get a little 
concerned that there is going to be--the definitions may not be 
as precise as I might like.
    Ms. Colston. Yes, sir. We do. We have had a number of years 
trying to identify evidence-based practices and disseminating 
that knowledge and information.
    Mr. Burgess. If you would share that with the Committee----
    Ms. Colston. I absolutely----
    Mr. Burgess. [continuing] I think that would be----
    Ms. Colston. I absolutely will.
    Mr. Burgess. [continuing] useful information for us----
    Ms. Colston. Yes, sir.
    Mr. Burgess. [continuing] to have. Let me just ask you 
this. You said it is--one of its problems is it is so terribly 
addictive. Would you regard methamphetamine as a gateway drug? 
Is it one of the things that if someone said you know, today is 
the day I am going to start my career in drug abuse. I will go 
out and buy some meth. Is that what is likely to happen?
    Ms. Colston. I don't think I would characterize it that 
way, sir. It is such a serious drug in and of itself. And we 
are doing our best. We actually--I am trying to think about our 
surveillance data. It--the domestic amphetamine----
    Mr. Burgess. Well, let me ask the question in another way--
--
    Ms. Colston. Okay.
    Mr. Burgess. [continuing] then. Would it be more likely 
that someone would come to the decision to use meth because 
they were with a group of people who found that they liked it 
and said you ought to try this?
    Ms. Colston. Yes, sir.
    Mr. Burgess. Well, would those be people that you might--a 
younger person or young adult might go out and drink beer with?
    Ms. Colston. It is possible.
    Mr. Burgess. Is beer perhaps a gateway drug for 
methamphetamine?
    Ms. Colston. I am not aware.
    Mr. Burgess. Is marijuana a gateway drug?
    Ms. Colston. I am not aware of that.
    Mr. Burgess. Has anyone does those studies? Do you think 
anyone is aware of that?
    Ms. Colston. Yes, sir. I believe we do have studies and I 
will be happy to provide them.
    Mr. Burgess. Does the DEA have an opinion on that?
    Mr. Rannazzisi. No, sir.
    Mr. Burgess. The reason I am asking is because all the time 
we are asked to liberalize our marijuana laws for medical 
treatment and, you know, you are describing a problem here that 
is maybe not as horrific as avian flu, but it is pretty 
horrific in its effect on families. And I think we need to be 
incumbent upon us as lawmakers to do everything at our 
disposal, to make certain we have gathered all the tools that 
are available to ourselves to keep this epidemic from 
spreading. And Mr. Chairman, I am sensitive to the time. I do 
want to ask the gentleman from the DEA, I think the technical 
term that was given by Mr. Shimkus was smurfing. Is that right?
    Mr. Rannazzisi. Yes, sir.
    Mr. Burgess. And you said that to be a successful smurf you 
can buy no more than 3.5 grams of a precursor agent at a time. 
Is that correct?
    Mr. Rannazzisi. Depending on the package sizes. Most of 
them are--most of the people who are smurfing are going in and 
buying a couple--two or three packages at a time.
    Mr. Burgess. Are you utilizing any of the available 
pharmaceutical programs for data mining to sort of isolate or 
identify the person who may be out there buying small 
quantities to gather enough to make a shipment or a batch?
    Mr. Rannazzisi. Well, the buying in such small quantities 
and the fact is there are no records----
    Mr. Burgess. I guess that is really the question I am----
    Mr. Rannazzisi. Yeah.
    Mr. Burgess. [continuing] trying to ask. Do we need to ask 
that those types of records be kept, even for someone coming in 
and buying a 12-capsule blister pack of pseudoephedrine?
    Mr. Rannazzisi. I believe that record keeping is a useful 
tool. And----
    Mr. Burgess. Yeah, and I do, too. Of course, one of the 
difficulties is if we capture all the smurfs and round them up 
we can drive the problem offshore. And Republicans are always 
accused of outsourcing our jobs. And maybe we outsource this to 
some place else. And what about the border interdiction? How do 
you think we are doing there?
    Mr. Rannazzisi. The border is--it is very--miles. Hundreds 
of miles, thousands of miles of border. I--we are doing the 
best we can at the----
    Mr. Burgess. That--1,200 miles of that 2,000 mile southern 
border is in my State of Texas.
    Mr. Rannazzisi. Yes, sir.
    Mr. Burgess. All right. I am very familiar with how much is 
there. Perhaps, again, in the interest of time, you could 
provide to the Committee what the DEA's opinion is as to how 
you are doing with interdiction and what you think needs to be 
increased and what you think needs to be decreased as far as 
what we are doing, as far as making an effective border 
control. Because the more we clamp down domestically, I have 
the feeling we are going to encourage the production outside 
the country. Certainly that has been the case with some other 
drugs. And Mr. Chairman, with that, I will yield back.
    Mr. Gillmor. I thank the gentleman. We have a series of 
votes which has begun on the House floor. And so we are going 
to have to go over and vote. I would propose that we recess 
until 1, which will give us time to complete those votes. 
People can have lunch and we will try to reconvene then. Also, 
before I recess, I wanted to ask the panel, some members are 
not here but may have questions. Would you be willing to 
respond to written questions in writing?
    Ms. Colston. Of course.
    Mr. Rannazzisi. Yes, sir.
    Mr. Gillmor. I thank you very much.
    Mr. Murtha. Sure thing.
    Mr. Gillmor. And we stand in recess.
    [Recess.]
    Mr. Gillmor. I am calling the subcommittee to order. And we 
will proceed with the first panel. And first of all, let me 
express my appreciation to all of you for coming. And also, my 
apologies for the delay in getting to this panel because of the 
road schedule. But we will proceed with Mr. Eric Coleman, 
Commissioner of Oakland County, Michigan.

STATEMENTS OF HON. ERIC COLEMAN, COMMISSIONER, OAKLAND COUNTY, 
 MICHIGAN, ON BEHALF OF NATIONAL ASSOCIATION OF COUNTIES; MARY 
  ANN WAGNER, SENIOR VICE PRESIDENT FOR PHARMACY, POLICY, AND 
REGULATORY AFFAIRS, NATIONAL ASSOCIATION OF CHAIN DRUG STORES; 
 GORDON KNAPP, PRESIDENT, PCH NORTH AMERICA, PFIZER, INC.; TED 
 G. KAMATCHUS, MARSHALL COUNTY SHERIFF'S OFFICE, ON BEHALF OF 
 NATIONAL SHERIFFS' ASSOCIATION; AND JOSEPH R. HEERENS, SENIOR 
 VICE PRESIDENT, GOVERNMENT AFFAIRS, MARSH SUPERMARKETS, INC., 
             ON BEHALF OF FOOD MARKETING INSTITUTE

    Mr. Coleman. Thank you, Chairman Gillmor. My name is Eric 
Coleman. I am a county commissioner from Oakland County, 
Michigan. In addition, I currently serve as First Vice 
President of the National Association of Counties.
    The National Association of Counties, or NACo as it is 
sometimes known, is the only national organization that 
represents county government. With over 2,000 member counties, 
we represent over 85 percent of the Nation's population.
    A growing issue for counties across the Nation is 
methamphetamine abuse. Methamphetamine, or meth, is consuming a 
greater share of county resources because of its devastating 
and addictive nature. In many parts of the nation, county jails 
are becoming overwhelmed with inmates on meth related charges 
who often need greater medical and dental attention. 
Investigating and busting meth labs is requiring longer hours 
for county law enforcement personnel. Along with these law 
enforcement consequences, mass treatment, cleanup, removing 
children from meth houses are all painful reminders of a 
community with meth.
    To illustrate the severity of the meth crisis, NACo 
commissioned two surveys on the impact to county government. 
And I would like to make two points on these surveys and NACo's 
policy on meth.
    First, our survey confirmed meth amphetamine abuse is a 
national drug crisis that requires national leadership. Second, 
a comprehensive and governmental approach is needed to combat 
the meth epidemic. Necessary components must include law 
enforcement, treatment, child protective services, prevention, 
education, public health, environmental cleanup, and research 
and precursor control.
    To elaborate, I will briefly touch on NACo's survey on the 
law enforcement. In the 500 responding State sheriff 
departments, 87 percent reported increase in meth related 
arrests starting 3 years ago. 17 States reported 100 percent 
increase in meth related arrests during the last 3 years, 
including Ohio and California. In addition, 7 States, including 
Georgia and Mississippi report a 90 percent increase.
    Additionally, 58 percent of the county law enforcement 
agencies reported that meth is their largest drug problem. Meth 
outpays cocaine by 19 percent, marijuana by 17 percent, and 
heroin by 3 percent.
    Meth related arrests represent a higher proportion of crime 
requiring incarceration. 50 percent of the counties surveyed 
estimated that 1 in 5 in their current jail population are 
related to meth related crimes. The numbers are increasing so 
rapidly counties are having a difficult time in wrapping up 
their services to address the problem.
    We also surveyed child welfare officials from 13 States 
where services are provided by county government. Children 
living in houses where meth is produced or used are considered 
drug endangered due to toxin, neglect, and abuse.
    40 percent of all children welfare officials surveyed 
reported increase in out of home placement because of meth in 
the last year. In addition, 59 percent of county officials 
reported meth has increased the difficulties of reuniting 
families.
    NACo believes that these figures confirm the need for a 
comprehensive and intergovernmental strategy to fight this 
insidious drug. One piece of this puzzle must be precursor 
control. States such as Iowa and Oklahoma have seen dramatic 
reductions in meth labs since implementation of their State 
legislation. NACo is a supporter for the Combat Meth Act, 
Senate Bill 103, which was incorporated in the Senate 
Conference Justice Science Spending Bill. NACo urges the 
members of the House to accept the Senate's position during the 
Conference negotiations and enact that legislation.
    Additionally, NACo strongly supports House Bill 798, the 
Methamphetamine Remediation Act. This legislation would direct 
the EPA to establish standards for cleaning up a former meth 
lab. Currently, local government and private land owners lack 
scientifically based standards to clean up former meth labs. We 
believe that this bill represents a significant step toward 
understanding the true nature of methamphetamine production and 
use.
    Additionally, NACo has endorsed House Bill 2335, the Meth 
Endangered Children Protection Act. This legislation would 
authorize $10 million annually to assist States and local 
governments in developing Drug Endangered Children teams. DEC 
teams are specially trained local law enforcement officials, 
child protective service workers, medical professionals, and 
prosecutors that comprehensively respond to the needs of 
children found in meth labs.
    Additional issues that must be addressed by our 
Congressional Committees include increasing funding for local 
law enforcement, particular the Justice Assistance Grant 
Program, mostly prevention funding aided at educating today's 
youth on the dangers of meth and increasing funding for meth 
treatment.
    In conclusion, I would like to thank you for the 
opportunity to appear before you today on behalf of NACo. We 
will be conducting future surveys on meth abuse and look 
forward to reporting our findings and working with you to 
resolve the meth crisis in this country. Thank you and I will 
be happy to answer any questions that you may have.
    [The prepared statement of Hon. Eric Coleman follows:]
Prepared Statement of Hon. Eric Coleman, Commissioner, Oakland County, 
  Michigan and First Vice President, National Association of Counties
    Thank you Chairman Gillmor, Chairman Deal, Ranking Member Solis and 
Ranking Member Brown and Members of the Subcommittees. My name is Eric 
Coleman, I am a County Commissioner from Oakland County, Michigan, and 
I currently serve as the First Vice President of the National 
Association of Counties. I have served as a County Commissioner in 
Oakland County since 1996.
About the National Association of Counties
    Established in 1935, the National Association of Counties (NACo) is 
the only national organization representing county governments in 
Washington, DC. Over 2,000 of the 3,066 counties in the United States 
are members of NACo, representing over 85 percent of the population. 
NACo provides an extensive line of services including legislative, 
research, technical, and public affairs assistance, as well as 
enterprise services to its members. The association acts as a liaison 
with other levels of government, works to improve public understanding 
of counties, serves as a national advocate for counties and provides 
them with resources to help them find innovative methods to meet the 
challenges they face. In addition, NACo is involved in a number of 
special projects that deal with such issues as the environment, 
sustainable communities, volunteerism and intergenerational studies.
    NACo's membership drives the policymaking process in the 
association through 11 policy steering committees that focus on a 
variety of issues including agriculture, human services, health, 
justice and public safety and transportation. Complementing these 
committees are two bi-partisan caucuses--the Large Urban County Caucus 
and the Rural Action Caucus--to articulate the positions of the 
association. The Large Urban County Caucus represents the 100 largest 
populated counties across the nation, which is approximately 49 percent 
of the nation's population. Similarly, the Rural Action Caucus (RAC) 
represents rural county commissioners from any of the 2,187 non-
metropolitan or rural counties. Since its inception in 1997, RAC has 
grown substantially and now includes approximately 1,000 rural county 
officials.
Methamphetamine
    Methamphetamine or meth is a highly addictive homemade amphetamine 
that can be made from commonly found chemicals, such as 
pseudoephedrine, anhydrous ammonia, lye, phosphorous and antifreeze. 
Meth is an insidious drug that is cheap to produce that can be easily 
manufactured in virtually any setting; a car, house or deserted area. 
The drug can be smoked, snorted, injected or swallowed and releases an 
intense high for hours. Harmful long-term health risks from meth abuse 
include tooth and bone loss, damage to the user's brain, liver and 
kidneys, heart attack and stroke. Children who are exposed to the toxic 
chemicals during production of methamphetamine can also develop these 
conditions. In addition, the prolonged use of the drug, called 
``tweaking'', can keep users up for days or weeks at a time. 
Consequently, the psychological side effects of meth use include 
paranoia, anger, panic, hallucinations, confusion, incessant talking 
and convulsions. Many of these lead to violent aggressive acts and 
suicide.
    According to the 2003 National Survey on Drug Use and Health 12.3 
million Americans had tried methamphetamine at least once--up nearly 
40% over 2000 and 156% over 1996. In 2004, the survey notes that an 
estimated 1.3 million Americans regularly smoked, snorted or injected 
the drug.
    Historically, meth abuse was confined to the Western United States 
and to rural areas. However, the drug has quickly spread East and is 
having disastrous consequences in rural, urban and suburban communities 
nationwide.
Impacts of Methamphetamine Abuse on County Governments
    County governments are on the front-line in dealing with the 
painful and costly consequences of methamphetamine abuse and 
production. The United States Drug Enforcement Agency estimates that 65 
percent of methamphetamine is produced in ``superlabs'' in Mexico and 
California with the remaining 35 percent produced in ``small toxic 
labs''. These labs pose a significant risk to their community and 
represent the largest problem for local law enforcement. Investigating 
and busting small toxic labs, incarcerating and adjudicating meth users 
and cleaning up former meth labs are searing a hole in county budgets. 
County correction facilities are being overwhelmed by the increase in 
the number of meth related crimes and associated incarceration costs 
including mental health treatment, dental and other treatment costs. 
The need for and cost of county public defender services are also 
increasing at alarming rates because of the meth epidemic.
    There are also many societal effects caused by meth abuse. In an 
alarming number of meth arrests, there is a child living in the home. 
These children often times suffer from neglect and physical and sexual 
abuse.
    Meth labs pose a significant danger in the community because they 
contain highly flammable and explosive materials. Local first 
responders must be trained on how to identify and respond to meth labs 
in their communities. Additionally, for each pound of methamphetamine 
produced, five to seven pounds of toxic waste remain, which is often 
introduced into the environment via streams, septic systems and surface 
water run-off.
    Meth abuse is a complex, difficult, growing problem that must be 
solved by cooperation among all levels of government and involvement by 
our citizenry. NACo is in the early stages of a national campaign to 
fight methamphetamine abuse. The primary objective of this initiative 
is to promote action by Congress and the Administration to control and 
reduce the production, distribution and abuse of methamphetamine, 
including assistance to counties in responding comprehensively to the 
problem locally. We look forward to working with this committee and 
your colleagues on this undertaking.
    As part of this initiative, NACo President and Umatilla County, 
Oregon Commissioner Bill Hansell has appointed a cross-cutting work 
group that has county representatives from all perspectives of the 
issue. The charge of our Methamphetamine Action Group is to further 
assess the impacts of meth abuse on county governments, educate county 
officials and the public on the dangers of the drug and identify best 
practices and local approaches that address education, prevention, 
enforcement, cleanup and treatment of meth challenges.
    In addition, NACo will be conducting further surveys on other 
aspects of the methamphetamine crisis. Currently, we just received the 
raw data for a survey on the impacts of meth abuse on the treatment 
delivery system and public health system. We would welcome the 
opportunity to appear before this committee at a later date to discuss 
these findings.
    This morning, I would like to make two key points:

<Bullet> First, as NACo's two recent surveys confirmed, methamphetamine abuse 
        is a national drug crisis that requires national leadership.
<Bullet> Second, a comprehensive and intergovernmental approach is needed to 
        combat the methamphetamine epidemic. Necessary components must 
        include law enforcement, treatment, child protective services, 
        prevention, education, public health, cleanup, research and 
        precursor control. NACo urges Congress to adopt several 
        targeted measures and increase funding to address aspects of 
        the meth crisis--including HR 798, S 103 and HR 2335.
    First, as NACo's two recent surveys confirmed, methamphetamine 
abuse is a national drug crisis that requires national leadership.
    On July 5, 2005, NACo released two surveys on the methamphetamine 
crisis that has swept the nation. In the first survey, entitled, The 
Criminal Effect of Meth on Communities, is based on results from 500 
county law enforcement agencies from 45 states. The counties that 
participated in the survey are representative of all counties 
nationally based on population and regional representation.
    Meth is a growing problem that is now national in scope. Of the 500 
responding law enforcement agencies, 87 percent report increases in 
meth related arrests starting three years ago. The states reporting a 
100 percent increase in meth related arrests during the last three 
years include Indiana, California, Minnesota, Florida and Ohio. 
Furthermore, Iowa and Mississippi reported a 95 percent increase and 
Illinois and North Dakota reported a 91 percent increase.
    Additionally, 58 percent of county law enforcement agencies 
reported that meth is their largest drug problem. Meth outpaced cocaine 
at 19 percent, marijuana at 17 percent and heroin at 3 percent. In 
certain regions of the country, the percentages are even higher. In the 
Southwest, 76 percent of the counties said that meth is the biggest 
drug problem. In the Northwest, 75 percent said it was the top problem 
and by 67 percent of the counties in the Upper Midwest.
    Meth related arrests represent a high proportion of crimes 
requiring incarceration. Fifty percent of the counties estimated that 1 
in 5 of their current jail inmates are there because of meth related 
crimes. The problem is even worse in the other half of the counties 
surveyed. Seventeen percent of the counties report that more than half 
of their populations are incarcerated because of meth related crimes.
    Stopping the small meth lab operations continues to be a problem. 
Concerning lab seizures, 62 percent said that meth lab seizures 
increased in their counties in the last three years.
    Other crimes are increasing because of meth. Seventy percent of the 
responding officials say that robberies or burglaries have increased 
because of meth use, while 62 percent report increases in domestic 
violence. In addition, simple assaults at 53 percent and identity 
thefts 27 percent have also increased because of meth use.
    The increased presence of meth in many counties across the nation 
has increased the workload of 82 percent of the responding counties. 
These increased law enforcement activities from meth abuse are 
straining law enforcement budgets. Fifty-two percent of counties stated 
that they are paying more overtime, while 13 percent have changed work 
assignments to accommodate the increase need for policing.
    Methamphetamine abuse is beginning to reach my home county, Oakland 
County, Michigan. The Oakland County Prosecuting Attorney's office 
reports that since October 2001, their office has processed 
approximately 30 cases involving either possession or possession with 
the intent to deliver methamphetamine.
The Impact of Meth on Children
    As law enforcement officials are clamping down on the manufacture 
and use of meth, they are finding a disturbing side effect. Many 
children are being grossly neglected by their addicted parents and 
these same children are being exposed to the harmful side effects of 
the production of the drug if they live in close proximity to a lab.
    To assess this problem, NACo surveyed 303 counties from all 13 
states where child welfare activities are performed at the county level 
to assess the danger to children and families from meth abuse.
    Forty percent of all the child welfare officials in the survey 
report increased out of home placements because of meth in the last 
year. During the past five years, 71 percent of the responding counties 
in my home state of California reported an increase in out of home 
placements because of meth and 70 percent of Colorado counties reported 
an increase. The results in the Midwest are frighteningly similar. More 
than 69 percent of counties in Minnesota reported a growth in out of 
home placements because of meth during the last year, as did 54 percent 
of the responding counties in North Dakota. In addition, 59 percent of 
county officials reported meth has increased the difficulty of re-
uniting families.
    Meth use is not limited to rural counties, nor is it limited to the 
West and Midwest. As a follow-up to the NACo report, one of our 
affiliate associations, the National Association of County Human 
Services Administrators, conducted an informal survey. Sacramento 
County, California, a large urban county, discovered that meth was 
involved in 70 percent of the family cases referred to court services 
due to substance abuse. Wilkes County, North Carolina Child Protective 
Services reported that methamphetamine abuse has been the most damaging 
drug to families that they have ever encountered.
    Second, a comprehensive and intergovernmental approach is needed to 
combat the methamphetamine epidemic. Necessary components must include 
law enforcement, treatment, child protective services, prevention, 
education, public health, cleanup, research and precursor control. NACo 
urges Congress to adopt several targeted measures and increase funding 
to address aspects of the meth crisis--including HR 798, S 103 and HR 
2335.
Precursor Control
    In April 2004, Oklahoma was the first state in the nation to 
restrict the sale of products containing pseudoephedrine. Since the law 
was enacted, a number of states have followed Oklahoma's lead in 
restricting pseudoephedrine products. Oklahoma has seen a significant 
drop--80 percent--in small toxic meth labs as a result of the 
legislation.
    NACo is in support of the Combat Meth Act (S. 103/HR 314) that 
would replicate the Oklahoma legislation on the national level. By 
limiting individuals to 7.5 grams (250 pills) of pseudoephedrine per 
month, the measure would seriously impair the access of meth cooks to 
obtain this essential component to meth production. The legislation was 
unanimously adopted in the Senate Judiciary committee and was 
incorporated into the Senate FY2006 Commerce-Justice-Science 
appropriations bill. NACo urges members of the House of Representatives 
to cede to the Senate position and include the Combat Meth Act in the 
final version of the FY2006 Science-State-Justice-Commerce 
appropriation bill.
    Another option to restrict pseudoephedrine sales is to repeal the 
federal blister pack exemption. Blister packs are small plastic-and-
foil packages that force a consumer to remove cold pills one or two at 
a time. Currently, federal law allows individuals to purchase an 
unlimited quantity of pseudoephedrine, as long as the pills are in 
blister packs. When the blister pack exemption was established, it was 
believed that the difficulty in accessing these pills would preclude 
meth cooks from using pseudoephedrine pills. However, it has not proven 
to be an effective deterrent and meth cooks have exploited this 
weakness in federal law. NACo supports efforts to repeal the current 
blister pack exemption, including HR 1350, the Methamphetamine Blister 
Pack Loophole Elimination Act of 2005.
    Additionally, a repeal of the blister pack exemption is contained 
in the Methamphetamine Epidemic Elimination Act of 2005 (HR 3889). NACo 
supports this provision in the bill and the provisions that increase 
international regulation of pseudoephedrine, however NACo respectfully 
differs with the overall strategy to control domestic sales of 
pseudoephedrine and increasing mandatory sentencing. Essentially, this 
legislation lowers the threshold put on retailers to report purchases 
of pseudoephedrine from 9 grams to 3.6 grams for each transaction. 
While this may reduce the access that currently exists, NACo believes 
that the restrictions will fall short in the long-term. Under this 
provision, meth cookers could go to multiple stores in one day or 
consecutive days and purchase 3.6 grams (120 pills) of pseudoephedrine. 
Therefore, NACo believes that the approach laid out in the Combat Meth 
Act, which has proven successful in several states, represents the most 
effective attempt to limit access to pseudoephedrine.
Environmental Cleanup
    One of the major issues facing communities and property owners is 
the issue of remediating former clandestine methamphetamine labs. As I 
noted earlier, the US Drug Enforcement Administration estimates that 
only 35 percent of all methamphetamine is produced in these small toxic 
labs. However, these labs pose a significant risk to the community and 
individuals present at the manufacturing or use of the drug. The labs 
are highly toxic and the residual contamination from the production of 
methamphetamine can lead to health risks and threaten the health of 
children and individuals who may unsuspectingly live in a former lab.
    Currently, there are no guidelines for local governments or private 
landowners to follow for remediating former clandestine meth labs. 
Additionally, several studies by Dr. John Martyny at the National 
Jewish Medical Center have shown that airborne and surface 
contamination from methamphetamine production or use can be far-
reaching. Dr. Martyny found that residual contamination could last for 
long periods and cause serious health concerns for those individuals 
and children who are exposed knowingly or unknowingly. NACo supports 
the bi-partisan Methamphetamine Remediation Act of 2005 (HR 798), which 
would require the Environmental Protection Agency to establish 
voluntary guidelines on the clean-up of former meth lab sites. This 
legislation has passed the House Science Committee and is awaiting 
action on the House floor.
Drug Endangered Children
    Across the nation, alarming rates of children are found present at 
clandestine meth labs. In 2003, approximately 3,000 children were found 
during meth lab seizures. In the Western United States, the numbers are 
more frightening, as Assistant United States Attorney Laura Birkmeyer 
noted in testimony to the House Government Reform Subcommittee on 
Criminal Justice and Drug Policy. Birkmeyer stated, that in San Diego, 
``Drug Endangered Children teams have taken more than 400 children into 
protective custody in the past 12 months. Significantly, more than 95 
percent of these children came from environments where there was 
methamphetamine use and trafficking but where manufacturing was not 
occurring. Approximately 1 in 10 of these children tested positive for 
methamphetamine and of those the children ages 0-6 were twice as likely 
to test positive for methamphetamine as children aged 7-14.''
    To better coordinate and respond to the needs of these innocent 
victims, a Drug Endangered Children pilot program was started in 1997 
in California. Drug Endangered Children are those children who suffer 
physical or psychological harm or neglect resulting from exposure to 
illegal drugs or to dangerous environments where drugs are being 
manufactured or chemicals used to make drugs are accessible. These 
harms may include injury from explosion, fire or exposure to toxic 
chemicals found at clandestine lab sites; physical abuse; sexual abuse; 
medical neglect and; lack of basic care including failure to provide 
meals, sanitary and safe living conditions or schooling.
    A Drug Endangered Children (DEC) program is a multi-disciplinary 
team made up of law enforcement, medical professionals, prosecutors and 
child welfare workers. Team members are trained to view children found 
at narcotics crime scenes as crime victims. A typical scenario involves 
law enforcement breaking up a meth lab and contacting local child 
welfare officials if a child is present. The child welfare professional 
assesses the crime scene with law enforcement and determines if the 
child should be placed in protective custody. An at-risk child would 
then be given a medical exam, toxicology screen and developmental 
evaluation. The child would then be placed in a safe foster care 
environment. The prosecutor would then determine if child endangerment 
charges are appropriate. This concept bridges the gaps that often exist 
between these agencies. Furthermore, it represents a comprehensive 
approach to responding to the health risks of meth posed to children.
    NACo supports the bi-partisan Meth-Endangered Children Protection 
Act of 2005. This legislation would authorize $10 million annually for 
the development of Drug Endangered Children rapid response teams. The 
legislation has been referred to the Health Subcommittee of this 
committee and we would respectfully ask that this legislation be 
considered.
Public Health Risks
    The National Institute of Drug Abuse notes that methamphetamine 
users, especially those that inject the drug and share needles, are at 
increased risk to contract HIV and Hepatitis C. In addition, NIDA 
reports that methamphetamine can increase the libido in users, which 
may lead them to practice unsafe sex and lead to transmitting HIV and 
Hepatitis C. In addition, research and news accounts have shown that 
this is particularly the case in urban areas with the gay population. 
To date, NACo has not yet examined the impacts of an increase in these 
and other sexually transmitted diseases on the county public health 
system but initial evidence shows that there is a correlation between 
methamphetamine use and infection.
Prevention/Education
    Additionally, NACo believes that education and prevention efforts 
must be increased to inform children and youth about the dangers of 
methamphetamine abuse. Many former meth users indicate that they did 
not know of the ingredients and dangerous consequences of the drug 
before their first use.
    Current funding for the White House Office of National Drug Control 
Policy's (ONDCP's) National Youth Anti-Drug Media Campaign is set at 
$120 million. Out of this funding, $1 million is targeted for anti-meth 
educational ads during the current year. Reps. Mark Souder (R-IN) and 
Rick Larsen (D-WA) succeeded in adding $25 million to the campaign 
during consideration of the FY2006 Transportation-Treasury-HUD 
appropriations bill, for a total of $145 million. The sponsors of the 
amendment specifically targeted the new funding for anti-meth ads. NACo 
supports increased funding for the National Youth Anti-Drug Media 
Campaign targeted at producing and disseminating an anti-meth 
educational campaign.
Treatment
    Despite a pervasive myth that treatment is ineffective for meth 
users, meth addiction can be treated similar to other forms of 
substance abuse. Treatment has been proven effective when it is 
available and the individual is willing to accept it. The Matrix Model, 
for example, consists of a 16-week intervention that includes intensive 
group and individual therapy to promote behavioral changes needed to 
remain off drugs.
    According to the National Association of County Behavioral Health 
and Developmental Disabilities Directors, a NACo affiliate, there are 
22 states with county sponsored substance abuse treatment authorities. 
These states account for 75 percent of the nation's population. The S 
BtfNl
Research
    Iowa State University researchers have developed an additive to 
anhydrous ammonia that can reduce the production value of meth, while 
still being a useful fertilizer. The additive is currently undergoing 
further testing, however if proven successful at limiting 
methamphetamine production it would be a major break-through for many 
rural farming communities that have been affected the methamphetamine 
epidemic.
Law Enforcement
    NACo is a strong supporter of the Justice Assistance Grant (JAG) 
program within the Department of Justice. JAG funding can be used for a 
variety of purposes including law enforcement, prosecution, prevention, 
education, drug treatment, planning, corrections and technology 
improvements. Many counties across the nation use JAG funding for 
multi-jurisdictional or regional drug taskforces.
    Additionally, many counties receive Edward Byrne discretionary 
funding through congressional earmarks for similar programs. Funding 
for JAG and Byrne discretionary in FY2005 was $804 million, however the 
Bush administration recommended eliminating funding for FY2006. The 
House of Representatives set funding for JAG at $478 million. During 
consideration of the FY2006 Commerce-Justice-Science appropriations 
bill the Senate added $275 million to their recommended level of $802 
million to the Justice Assistance Grant for a total of $1.077 billion. 
NACo supports the Senate funding level of $1.077 billion or at least 
level funding of $804 million as a minimum for Justice Assistance Grant 
program funding and urges members of the House of Representatives to 
cede to the Senate position during conference negotiations.
Conclusion
    On behalf of NACo, I would like to thank Chairman Gillmor, Chairman 
Deal and Ranking Member Solis and Ranking Member Brown for holding this 
hearing today. Methamphetamine abuse is a scourge on our society that 
must be addressed in a comprehensive manner by all forms of government. 
NACo looks forward to working with Congress and the Administration to 
craft and implement such legislation.
    Additionally, NACo is encouraged by the attention that 
methamphetamine abuse has received recently by the media and 
policymakers in Congress and the Administration. Newspapers across the 
country, national magazines and television newscasts have raised 
awareness of methamphetamine by showing the devastating consequences 
that meth abuse can bring to families and communities. In Congress, the 
bi-partisan House Caucus to Fight and Control Methamphetamine has shown 
leadership in bringing the issue to the forefront. In July 2005, 
Attorney General Alberto Gonzales stated that, ``in terms of damage to 
children and to our society, meth is now the most dangerous drug in 
America--a problem that has surpassed marijuana.''
    Lastly, NACo will be conducting several additional surveys on other 
aspects of the methamphetamine epidemic. As I mentioned earlier, the 
next round of surveys will be on the impacts to the treatment delivery 
system and public health system. We would welcome the opportunity to 
come before this committee and present our findings at the appropriate 
time. Again, we thank the Chairmen, the Ranking Members and members of 
the subcommittees for the opportunity to submit testimony on the 
methamphetamine crisis facing this nation.

    Mr. Gillmor. Thank you very much, Commissioner. Mary Ann 
Wagner, the National Association of Chain Drug Stores.

                  STATEMENT OF MARY ANN WAGNER

    Ms. Wagner. Thank you, Chairman Gillmor, Chairman Deal, 
Ranking Member Brown, Ranking Member Solis, and other 
distinguished members of the Energy and Commerce Subcommittees 
on Health and Environment and Hazardous Materials. We certainly 
appreciate the opportunity to be here today and the opportunity 
to view our concerns to you regarding Federal legislation in 
the methamphetamine problem.
    The National Association of Chain Drug Stores, or NACDS, 
represents over 200 chain drug companies. The diversity of our 
membership includes traditional chain drug stores, supermarket 
pharmacies, and mass merchants. We operate--our membership 
operates over 35,000 pharmacies, employs 108,000 pharmacists, 
and fills over 2.3 billion prescriptions a year.
    NACDS and our member companies have been very involved with 
the methamphetamine problem for 10 years now, since 1995. A 
number of members have done voluntary programs within their 
stores and have taken a number of measures voluntarily, 
including sales limits that they imposed upon their stores 
sometimes as many as 7 or 8 years ago, training for their 
employees, signage in their stores. Some of them have removed 
products voluntarily and put it behind the counters when there 
was evidence of theft or shop sweeping.
    They have been involved with Meth Watch programs in their 
communities, working hand-in-hand with law enforcement to 
report suspicious activity within their stores. In the past 
year, a number of them have voluntarily taken products off 
their shelves and put them behind the counter. Some of them 
have even removed products from their stores that don't contain 
pharmacies. Two of our member companies have implemented 
electronic tracking programs.
    And we have been involved, of course, with Federal 
legislation this past year, both on the Senate side and on the 
House side. We have had a number of calls, conference calls and 
meetings on methamphetamine. Our members are extremely engaged 
in this and want to do what they can to help law enforcement. 
We do have a great deal of empathy for what the local law 
enforcement officials are going through in cleaning up these 
labs and the fact that it is draining their resources, both 
financially and human resources. So we do want to help and work 
with them to do what we can.
    There is a very delicate balance that we have been sure to 
try to follow through, and that is keeping the product 
available for legitimate customers who have legitimate needs 
for cough and cold products, as well as restricting access to 
those who might illicitly manufacture meth.
    We support a stringent comprehensive and standardized 
approach to solving the methamphetamine problem. Specifically, 
we believe that the Federal Government should play a vital role 
in helping to address the growing problem of methamphetamine 
production and addiction.
    In addition to addressing enforcement, education, 
treatment, and cleanup issues, we strongly believe that any 
comprehensive approach should include a national standard for 
limiting consumer access to products that can be used to 
manufacture methamphetamine.
    One national standard for retail availability is important 
because the current patchwork of more than three dozen 
different State requirements in addition to scores of local 
ordinances in cities, towns, and counties throughout the 
country is confusing to consumers and to law enforcement.
    The key to a national standard would be to preempt only 
retail requirements for pseudoephedrine sales in State laws. 
And by that I mean we wouldn't want to touch the law 
enforcement provisions that States may choose to enact, but 
definitely on retailer requirements.
    We do not believe it is necessary for consumers to have to 
obtain a prescription in order to purchase pseudoephedrine 
products. This is why we support keeping the sale of 
pseudoephedrine products available without a prescription. We 
support maintaining a written or electronic log of 
pseudoephedrine purchases to assist law enforcement efforts. We 
support limiting retail and distribution reporting, record 
keeping, storage, and dispensing requirements. We support 
funding for law enforcement as far as education, prevention, 
treatment, cleanup, and all of those items as well.
    So in conclusion, NACDS is committed to work with the 
Committee and other Federal policymakers, the Administration, 
local law enforcement to find a comprehensive solution to this 
problem. Thank you.
    [The prepared statement of Mary Ann Wagner follows:]
    Prepared Statement of National Association of Chain Drug Stores
    NACDS appreciates the opportunity to testify before the House 
Subcommittees on Health and Environment and Hazardous Materials to 
address the methamphetamine problem.
    The National Association of Chain Drug Stores (NACDS) represents 
the nation's leading retail chain pharmacies and suppliers, helping 
them better meet the changing needs of their patients and customers. 
NACDS members operate more than 35,000 pharmacies, employ 108,000 
pharmacists, fill more than 2.3 billion prescriptions yearly, and have 
annual sales of over $700 billion. Other members include almost 1000 
suppliers of products and services to the chain drug industry. NACDS 
international membership has grown to include 90 members from 30 
countries. For more information about NACDS, visit www.nacds.org.
    Our membership is deeply concerned about the problems of 
methamphetamine production and abuse. NACDS continues to have ongoing 
calls and meetings to discuss this issue and to develop solutions to 
this devastating problem in our country. The majority of the chain 
community pharmacy industry has taken voluntary, proactive steps that 
go beyond what is required by law to reduce the theft and illegitimate 
use of pseudoephedrine products. They:

<Bullet> have placed these products behind pharmacy and/or sales counters 
        voluntarily, or have otherwise limited access to these products 
        in their stores,
<Bullet> have initiated voluntary sales limits of these products,
<Bullet> participate in voluntary education and theft-deterrent programs such 
        as Meth Watch,
<Bullet> voluntarily eliminate consumer self-access to pseudoephedrine 
        products in their stores in geographic areas where 
        methamphetamine is a problem,
<Bullet> participate in youth anti-methamphetamine education efforts,
<Bullet> educate their employees about methamphetamine abuse to raise 
        awareness and prevent questionable sales of these products, and
<Bullet> work with law enforcement by reporting suspicious activity in their 
        stores.
    Moreover, chain pharmacy has worked closely with the Drug 
Enforcement Administration (DEA) and state and local law enforcement 
officials since 1995 to stem the tide of methamphetamine production in 
communities across the U.S.

                              INTRODUCTION
    Almost one year ago, on November 18, 2004, NACDS testified before 
the House Government Reform Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources about law enforcement and the fight against 
methamphetamine. At that time, NACDS commented on various solutions we 
believe would help reduce the methamphetamine problem. These solutions 
include:

<Bullet> Encourage states to pass necessary restrictions and penalties upon 
        those arrested for and/or convicted of methamphetamine-related 
        offenses;
<Bullet> Federalize methamphetamine-related offenses;
<Bullet> License non-pharmacy retailers that sell pseudoephedrine products;
<Bullet> Significantly increase funding for methamphetamine abuse prevention 
        programs;
<Bullet> Work in concert with the State Department and officials in chemical 
        producing countries (e.g., India, China, the Czech Republic and 
        Germany) to more closely track every sale of pseudoephedrine 
        into the United States;
<Bullet> Provide incentives for drug companies to develop an effective 
        decongestant that cannot be converted into methamphetamine;
<Bullet> Provide more funding and resources to DEA for enforcement activities;
<Bullet> Enact import controls on bulk pseudoephedrine and ephedrine similar 
        to Schedule II controlled substances; and limiting imports to 
        those necessary for legitimate commercial needs;
<Bullet> Provide funding resources to local law enforcement for 
        methamphetamine lab cleanup;
<Bullet> Provide additional funding for treatment of methamphetamine addicts 
        so that they can eventually become productive members of our 
        communities; and
<Bullet> Continue to coordinate with Canada and Mexico on distribution 
        tracking and control of pseudoephedrine and ephedrine.

                     METH EPIDEMIC ELIMINATION ACT
    We are pleased that both the U.S. House of Representatives and 
Senate have introduced legislation that reflects solutions identified 
by NACDS. We applaud Representatives Mark Souder (R-IN) and Jim 
Sensenbrenner (R-WI) for their leadership in introducing the Meth 
Epidemic Elimination Act (H.R. 3889) to address the methamphetamine 
problem. Many of the provisions in the Meth Epidemic Elimination Act 
are similar to provisions that we have advocated, including the 
recommendations we provided in our testimony on November 18, 2004. We 
advocated for import and export controls for pseudoephedrine, and this 
is exactly what has been proposed by Sections 102, 103, 104, 105, 106, 
201 and 202. DEA admits that there exists a very large discrepancy 
between U.S. bulk pseudoephedrine import records and the records of 
legitimate U.S. manufacturers of pseudoephedrine-based products. No one 
is sure where the unaccounted bulk pseudoephedrine goes--most likely 
into criminal hands. We believe that import and export controls are 
necessary to reduce diversion of bulk pseudoephedrine.
    We have advocated for enhanced penalties for methamphetamine 
related offenses. This has been proposed under Title III of the Meth 
Epidemic Elimination Act. We have advocated for funding for 
methamphetamine lab cleanup costs. This has been addressed in Title IV 
of the Meth Epidemic Elimination Act. We believe these provisions will 
assist local law enforcement officials as they struggle to handle the 
methamphetamine problem throughout the country. Local law enforcement 
officials in communities all across the country have indicated that 
their most severe problem continues to be with the small 
methamphetamine labs, which are draining all their time and resources. 
Once we help them resolve the problems associated with methamphetamine 
production by the small labs, they can better prepare themselves to 
focus on the larger problem of methamphetamine abuse.

                            COMBAT METH ACT
    The Combat Meth Act, introduced by Senators Jim Talent (R-MO) and 
Dianne Feinstein (D-CA), would provide numerous tools to law 
enforcement and includes numerous provisions that would provide 
treatment and education resources. For example, the Combat Meth Act 
would:

<Bullet> expand the Methamphetamine Hot Spots Program to include personnel for 
        enforcement, prosecution, and cleanup;
<Bullet> provide funding for the Attorney General for training and cross-
        designating of local prosecutors as Assistant Attorneys 
        General;
<Bullet> provide grant funding for Drug Endangered Children rapid response 
        teams to assist children that have been affected by the 
        production of methamphetamine;
<Bullet> authorize the creation of Methamphetamine Research, Training and 
        Technical Assistance Centers to research effective treatments 
        for methamphetamine abuse and disseminate information and 
        technical assistance to states and private entities on how to 
        improve current treatment methods; and,
<Bullet> Provide local grants for treatment of methamphetamine abuse and 
        related conditions.
    We commend Senators Talent and Feinstein for their leadership in 
pursuing a role for the federal government to assist with stopping 
methamphetamine production and addiction. We support these provisions 
because we believe that these provisions would address the problems of 
both methamphetamine production and abuse through a comprehensive 
approach.
    The Combat Meth Act provides a comprehensive solution by giving 
local law enforcement the necessary tools and resources to pursue 
methamphetamine offenders, and state prosecutors the power to 
effectively prosecute methamphetamine cases. NACDS has encouraged 
states to impose necessary restrictions and penalties upon those 
arrested for and/or convicted of methamphetamine-related offenses. We 
are pleased that the federal government is assisting states in these 
matters.
    The Combat Meth Act also provides critical funding for 
methamphetamine education, training, research, treatment, and child 
endangerment programs. The Combat Meth Act's comprehensive approach 
seeks to reduce methamphetamine demand by educating consumers about the 
life-threatening dangers of methamphetamine abuse and by providing 
treatment to free methamphetamine addicts from their addiction.

        A NATIONAL STANDARD AS PART OF A COMPREHENSIVE APPROACH
    Just as we believe that a comprehensive approach is necessary to 
combat the methamphetamine problem, we believe that a comprehensive 
approach should include a national standard for limiting consumer 
access to products that can be used to manufacture methamphetamine. One 
national standard for retail availability is important because the 
current patchwork of more than three dozen different state 
requirements, in addition to scores of local ordinances in cities, 
towns, and counties throughout the country, is confusing to consumers 
and law enforcement. For chain pharmacies, which operate in practically 
every state, city, town, and county in the country, it is complex and 
costly to have to create different policies, procedures, and employee 
training programs for every different pharmacy outlet. A national 
standard for retail availability will streamline our members' 
operations and allow for better and quicker compliance nationwide. With 
respect to the Combat Meth Act, we have supported the following 
principles for selling products containing pseudoephedrine:

<Bullet> Preempting retailer requirements in state laws;
<Bullet> Keeping the sale of pseudoephedrine products available without a 
        prescription;
<Bullet> Requiring sales of single entity products from behind the pharmacy 
        counter and sold by a licensed pharmacist or pharmacy 
        personnel;
<Bullet> Requiring sales of combination products from behind the pharmacy 
        counter by January 1, 2007 and sold by a licensed pharmacist or 
        pharmacy personnel;
<Bullet> Maintaining a written or electronic log of pseudoephedrine purchases 
        to assist law enforcement efforts;
<Bullet> Limiting purchases to 9 grams within a 30-day period; and,
<Bullet> Limiting distribution center storage requirements.
    Key to a national standard is the preemption of state laws. A 
national standard could exist only if states are preempted from 
imposing different requirements upon retailers.
    Many of the principles we have supported closely mirror the 
provisions of the Combat Meth Act. However, the Combat Meth Act would 
designate pseudoephedrine products as Schedule V controlled substances. 
We did not include ``Schedule V'' in our principles because we have 
concerns about such a designation. These concerns include the fact that 
in nineteen states, pseudoephedrine products could be sold only upon 
the order of a prescribing practitioner if they were designated a 
Schedule V product. We do not believe that a consumer should have to 
visit a practitioner to obtain a prescription in order to purchase 
pseudoephedrine products.
    Moreover, designating pseudoephedrine as a Schedule V controlled 
substance would impose undue burdens upon pharmacies. For example, DEA 
prescribes certain forms, procedures and recordkeeping requirements for 
controlled substances that would be extended to pseudoephedrine if 
pseudoephedrine were designated a Schedule V controlled substance. 
Pseudoephedrine products would have to be stored in a locked cabinet or 
dispersed throughout the pharmacy. These products could only be ordered 
from wholesalers by pharmacists. Specific forms and procedures would 
have to be used for the destruction of such products. Additionally, for 
a theft or loss of pseudoephedrine, specific forms and procedures would 
have to be used. Pseudoephedrine invoices would have to be signed and 
dated and saved separate from other invoices. Dispensing records would 
have to be maintained separately from other dispensing records and 
pharmacists would have to review the dispensing records on a daily 
basis and sign and date the dispensing records on a daily basis. 
Finally, a detailed inventory of all pseudoephedrine products would 
have to be performed on a biennial basis. We believe that the goal of 
federal legislation is to limit access, and not place recordkeeping, 
storage, and other procedural burdens on pharmacies. We believe that 
the goal of limiting access can be achieved without designating 
pseudoephedrine as a controlled substance.

                           TRANSIENT VENDORS
    In addition to limiting access to pseudoephedrine products by 
traditional retailers and pharmacies, we believe that a comprehensive 
federal solution should address the problem of pseudoephedrine sales by 
transient or limited vendors, such as at flea markets. Many of the 
products sold at flea markets were originally acquired from 
questionable sources, often they were stolen from legitimate retailers. 
As such, we would support legislation that would address all retail 
theft, including the theft of pseudoephedrine products. We believe that 
such legislation should prohibit the sales of nonprescription products, 
as defined in the Federal Food, Drug, and Cosmetic Act and regulations 
issued under that Act, and infant formula manufactured and packaged for 
sale for consumption by children under 2 years of age, by a transient 
or limited vendor, unless the vendor maintains for public inspection 
written documentation including invoices and other appropriate business 
records identifying the vendor as an authorized representative of the 
manufacturer or distributor of that product.

                               CONCLUSION
    A comprehensive approach is necessary to effectively address the 
methamphetamine problem. A comprehensive approach includes reducing 
demand for methamphetamine. Experience with the drug abuse problem has 
shown that these problems are not eliminated by merely erecting 
barriers to the drug supply, but we also must focus resources on drug 
abuse prevention and treatment; we must eliminate the demand for drugs. 
So long as people are addicted to drugs, they will find ways to get 
them.
    We believe that both the U.S. Senate and House of Representatives 
have introduced legislation that represents comprehensive approaches to 
address the methamphetamine problem. Both the Meth Epidemic Elimination 
Act and the Combat Meth Act will further assist law enforcement by 
providing more funding and resources for methamphetamine abuse 
prevention, treatment, and cleanup. These provisions should reduce the 
demand for methamphetamine, which will have long-lasting benefits.

    Mr. Gillmor. Thank you very much. Gordon Knapp of Pfizer?

                    STATEMENT OF GORDON KNAPP

    Mr. Knapp. Yes. Thank you, Mr. Chairman, and good 
afternoon. And thank you for this opportunity to testify before 
your combined subcommittees and for your attention to this 
crucial issue of methamphetamine abuse in America.
    Of the manufacturer of Sudafed, the largest pseudoephedrine 
based brand in the U.S., Pfizer has long been involved in the 
fight against meth abuse. We have supported Federal and State 
sales limits and packaging guidelines for PSE. We have funded 
Meth Watch programs in over a dozen affected States. And this 
year we introduced the first major PSE-free cold medicine, 
Sudafed PE, to American consumers.
    Over time, despite the valiant efforts of law enforcement, 
we have seen America's meth crisis continue to deepen. We at 
Pfizer have concluded that tough comprehensive action, 
including Federal legislation to place all PSE products behind 
the counter, is necessary to combat this meth abuse and the 
proliferation of small toxic meth labs.
    We view the different bills now under consideration by the 
House, with some modifications, as being fully compatible and 
complimentary approaches to addressing this multi-faceted 
problem.
    My submitted testimony focuses on the principals that we 
believe should guide the legislation. I will speak briefly to 
three of those now. First, PSE needs to go behind the counter, 
whether a pharmacy counter or perhaps other secure locations. 
States that have done so have seen a sharp drop in small toxic 
labs. Many who were initially skeptical of those laws, and to 
be fair, that included many of us in the industry, now accept 
that putting PSE behind the counter is an effective part of a 
comprehensive anti-meth strategy.
    Second, Pfizer believes that designating PSE a Schedule V 
controlled substance is the wrong way to move PSE behind the 
counter. Schedule V has unintended side effects that would 
burden consumers, medical practitioners, the industry, and do 
little to keep PSE out of the hands of criminals.
    Schedule V can trigger by prescription only provisions in 
up to 19 States, which would make it necessary for consumers to 
bear the added time and expense of seeing or contacting a 
doctor, paying an Rx dispensing fee. Prescription medicines 
containing PSE, like Pfizer's own Zyrtec D also would be caught 
up in the nationwide Schedule V net. In some States, this would 
mean that mid-level medical practitioners, such as qualified 
RN's, could no longer prescribe these medicines and doctors 
could no longer sample them.
    By moving PSE behind the counter nationally, Congress can 
have the same impact on small toxic labs as Schedule V without 
these unintended side effects. If Congress nonetheless decides 
to designate PSE a Schedule V controlled substance, these side 
effects of the law could and should be dealt with by amendment.
    Finally, with PSE moved behind the counter nationally, 
Pfizer believes the entire category should be included, for the 
simple reason that our formulations of PSE can be converted 
into meth. Pfizer sells liquids and liquid-filled capsules or 
cells. If we believe that these or any other form of PSE 
resisted conversion into methamphetamine, we would ask you to 
exempt it, but we know different.
    We have tested these products, State criminal labs have 
tested them, and the DEA has tested them, all with the same 
result. They can be readily converted using common street 
methods. The ONDCP reports that word is out on the street in 
Oregon and that liquids and gel caps can be converted into 
meth, and both have now been found in local labs there. Unlike 
State laws that exempt these products, as some do, a Federal 
exemption would create a perverse incentive for the entire 
industry to reformulate the products that we know can be made 
into meth.
    Last January, Pfizer introduced our first PE product, 
Sudafed PE. We did so after investing years and millions of 
dollars trying to develop a form of PSE, which we called Lock 
II, that could not be converted to meth. We have continued to 
reformulate the PE products and our competitors have quickly 
followed suit. An implementation date of January 2007 would 
give other companies time to catch up and retailers the time 
they need to prepare.
    It is clear that the U.S. is moving toward a new paradigm 
in the cold and sinus category, PSE behind the counter and PS-
Free in front of the counter. By 2007, we expect that up to 75 
percent of our cold and sinus sales will be PE products.
    At latest count, more than 30 States have passed some form 
of PSE restrictions, creating a patchwork quilt of legislation. 
Ideally, Federal legislation will preempt State laws, leaving a 
predictable legislative environment that allows retailers, 
manufacturers, and consumers to plan and engage in commerce 
without undue burden.
    Mr. Chairman and members of the subcommittees, strong 
bipartisan coalitions in the House and Senate have endorsed 
tough action to fight meth abuse. Law enforcement, the drug 
control community and industry stand behind you. We at Pfizer 
are pledged to do all that we can to assist your efforts. We 
look forward to working with you and to answering your 
questions. Thank you.
    [The prepared statement of Gordon Knapp follows:]
 Prepared Statement of Gordon Knapp, President, North America Region, 
                       Pfizer Consumer Healthcare
    Good morning. Thank you for this opportunity to testify before your 
combined subcommittees, and for your attention to the crucial issue of 
methamphetamine abuse in America.
    As the manufacturer of Sudafed, the largest pseudoephedrine (PSE) 
brand in the U.S., Pfizer has long been involved in the fight against 
meth abuse. In the 1990s, we supported federal sales regulation and 
packaging guidelines for PSE. In 2002, we were the first in our 
industry to support even tougher state-level limits on the amount of 
PSE that consumers could purchase per sale. We have funded and been 
engaged in developing ``meth watch'' programs in over a dozen affected 
states. And this year, we introduced the first major PSE-free cold 
medicine--Sudafed PE--to American consumers.
    Over time, despite the valiant efforts of law enforcement, the work 
of manufacturers and retailers, and the efforts of state legislators, 
we have seen America's meth crisis continue to deepen. In the face of 
this challenge, we at Pfizer have concluded that comprehensive action, 
including federal legislation to place all PSE products behind-the-
counter, is a necessary part of any comprehensive strategy to combat 
meth abuse and the proliferation of small toxic meth labs.
    Setting aside the details of implementation for a moment, we seem 
to be approaching a national consensus on how best to address America's 
methamphetamine problem. Taken together, bipartisan bills introduced in 
the House and the Senate point to the need for a comprehensive approach 
that will restrict access to PSE at the point of sale, control the 
importation of PSE into the United States, and adequately fund law 
enforcement, treatment, and education efforts. Pfizer supports all 
these approaches. We view the different bills now under consideration 
by the House, with some modifications, as fully compatible and 
complementary approaches to addressing the multi-faceted problem of 
meth abuse.
    Pfizer has long taken the position that we need to strike the right 
balance between making medicines available to legitimate consumers and 
restricting access to criminals who would use our medicines for illicit 
purposes. Today, I would like to focus my comments on the principles 
that we believe should guide legislation, particularly regarding limits 
on the sale of PSE to consumers:

<Bullet> Establish a single national standard restricting PSE sales to 
        ``behind the counter'' in pharmacies, and perhaps certain other 
        retailers;
<Bullet> Oppose the classification of PSE as a Schedule V controlled 
        substance;
<Bullet> Regulate all forms of PSE equally--including solid-ingredient 
        tablets, combination products, liquid gel caps and liquids--
        since the DEA confirms that all can and are being used by 
        criminals to make meth;
<Bullet> Impose national gram or package limits on the amount of PSE that can 
        be purchased by an individual;
<Bullet> Allow for a phase-in period, until January 2007, to give retailers 
        adequate time to adjust to new restrictions;
<Bullet> Fully fund anti-meth enforcement, education and treatment programs, 
        including tough criminal statutes and import controls;
<Bullet> Pre-empt divergent state and local laws and apply a single national 
        standard.
Behind the counter . . . but not Schedule V
    Theft of PSE from store shelves has been a source of supply for 
criminals. Where PSE has moved behind the counter, criminals have found 
it much tougher to get their hands on it, and local meth lab busts have 
dropped. Many who initially were skeptical of these laws, and to be 
fair that included many of us in industry, now accept that putting PSE 
behind the counter is an effective part of a comprehensive anti-meth 
strategy.
    Pfizer believes that Congress should mandate that PSE be sold from 
``behind the counter,'' either the pharmacy counter or more broadly, 
but that designating PSE a Schedule V controlled substance is the wrong 
way to achieve this end. The reason is that Schedule V has unintended 
side effects that would impose unnecessary restrictions on consumers, 
medical practitioners, and industry, while doing little or nothing to 
keep PSE out of the hands of determined criminals.
    For example, Schedule V can trigger ``by prescription only'' 
provisions in up to 19 states, which would make it necessary for 
consumers to visit or contact a doctor every time they feel a cold 
coming on and want to buy a medicine containing the decongestant they 
have relied on for years. The added inconvenience and expense of 
requiring a prescription for PSE is unreasonable in an environment in 
which PSE already is behind the counter. The same can be said of 
security and storage requirements that pertain to Schedule V drugs 
only.
    Another unintended side effect of ``Schedule V'' is that 
prescription medicines containing PSE as an active ingredient (such as 
the ``D'' formulations of Rx allergy medicines) would be caught up in 
the nationwide Schedule V net. In some states, this would mean that 
mid-level medical practitioners, such as qualified RNs, could no longer 
prescribe these medicines, and doctors could no longer give them as 
samples to patients. Since, by definition, prescription medicines 
already can be dispensed only by a licensed pharmacist, the additional 
burdens of imposing Schedule V restrictions on Rx medicines are 
entirely unnecessary.
    Moreover, under Schedule V, PSE sales would be limited to behind 
the pharmacy counter only. If Congress decides to allow sales somewhat 
more broadly, Schedule V does not offer that flexibility.
    If, however, Congress nonetheless decides to designate PSE a 
Schedule V controlled substance, provision should be made in the 
legislation to limit the unintended side effects of the law by: (1) 
exempting Rx products, (2) including clarifying language that avoids 
triggering state ``Rx only'' statutes for Schedule V drugs, and (3) 
exempting PSE from Schedule V security and storage requirements.
Regulate the entire category equally
    If Congress decides to put PSE products behind the counter, as we 
believe you should, then the entire category should be included for the 
simple reason that all formulations of PSE now on the market can be 
converted into meth. The only possible exception might be certain 
pediatric products that simply do not contain enough PSE to make theft 
worthwhile.
    Pfizer manufactures or sells all forms of pseudoephedrine: single 
ingredient tablets, combination ingredient tablets, liquid-filled 
capsules, and liquids. If we believed that any one of these were 
particularly resistant to conversion into methamphetamine, we would 
request that you exempt it. Unfortunately, we know differently.
    The June issue of the DEA Microgram Bulletin reports the results of 
two studies, one by the Washington State Patrol Crime Laboratory, and 
one by an independent forensic laboratory on behalf of McNeil Consumer 
and Specialty Pharmaceuticals. Both studies produced methamphetamine 
from liquid filled capsules and liquids using approaches similar to 
small toxic labs. These findings accord with a study prepared by 
another outside laboratory for Pfizer, which extracted PSE from liquid-
filled capsules and liquids using a recipe found in a book available 
through a popular on-line store. A study by the DEA's North Central 
Regional Laboratory in Chicago had a similar result.
    According to the Office of National Drug Control Policy, word 
already is out ``on the street'' in Oregon that liquids and gel caps 
can be converted into meth, and both have now been found in local labs. 
Criminals will use the products and methods they are familiar with, and 
switch to others if those no longer are available.
    It is true that most--though not all--states have exempted liquids 
and gel caps from their anti-meth legislation. Were Congress to do so, 
however, there would be wide ranging consequences. A national exemption 
for liquids and gel caps would create an incentive for the entire 
industry to switch its manufacturing to those products--products that 
we know can be made relatively easily into meth. Inevitably, criminals 
everywhere would catch on, and we all would have wasted even more time 
in getting a handle on the problem of local toxic meth labs.
    If, however, Congress includes all forms of PSE in legislation, you 
instead will create incentives for companies to develop and switch to 
non-PSE alternatives, an effort in which Pfizer has been engaged for 
many years. An implementation date of January 2007 would give these 
companies and retailers the time they need to prepare.
The search for solutions
    Mr. Chairman, I have a story to share that we rarely have discussed 
publicly, the story of our ultimately unsuccessful efforts to develop a 
form of PSE that could not be converted into meth. What we called 
``Lock II'' technology was an attempt to bind PSE with other chemicals 
that would prevent extraction and conversion. Over a period of years 
and an investment of millions of dollars, we developed a product that 
we believed could not be converted by local labs into methamphetamine. 
To be sure of what we had, we asked the DEA to give it their best shot 
to break the formula using street methods. What they told us came as a 
surprise: Lock II could be broken using a chemical increasingly 
employed by local meth cooks. While our Lock II technology would have 
been tough to crack (many times harder than liquids or gel caps), it 
was vulnerable. We understood that to switch our own line--and 
potentially an entire industry--to the new technology would succeed 
only in pushing the problem down the road. We were and are interested 
in permanent solutions.
    As it became clear that the technical solutions we developed were 
impractical, Pfizer set about pursuing another plan. We decided to 
replace, and in some cases supplement, our PSE containing medicines 
with a new line of products containing phenylephrine (PE) as the 
decongestant ingredient. While PE is FDA approved, American consumers 
had limited exposure to it. To get a better idea of acceptability, we 
ran consumer tests in the U.S. that showed no statistical difference 
between PSE and PE in terms of consumers' perceptions of symptom 
relief.
    Last January, we introduced our first PE product, Sudafed PE. We 
have since switched other Sudafed, Actifed and Benadryl products from 
PSE to PE, and by early next year we expect to have most of our brand 
lines switched over. As we hoped and expected, we have started a trend. 
Private label (store brands) quickly followed our lead. And we are 
pleased to see that one of our major competitors has just replaced its 
popular day and night cold medicines with ``pseudoephedrine-free'' 
formulas, one of which contains PE. We understand that another 
competitor may be about to follow suit.
    Even without legislation, a number of major retailers including 
Wal*Mart and Target have voluntarily moved some or all PSE behind the 
counter. It is clear that the U.S. is moving toward a new paradigm in 
the cold and sinus category: PSE behind the counter, ``PSE-free'' in 
front of the counter. The argument that moving PSE behind the counter 
will unduly restrict access to cold medicines may have been true two 
years ago. It is no longer true today, and will be less so moving 
forward. The fact is, between the efforts of Pfizer and our 
competitors, and America's forward-thinking retailers, consumers soon 
will have a plethora of ``PSE-free'' medicines available on the store 
shelf. For those who still prefer PSE, as some consumers undoubtedly 
will, all they will have to do is ask for help in getting the medicine 
they need.
Why federal action makes sense
    At latest count, more than thirty states have passed some form of 
PSE restrictions, and over half the remaining states have legislation 
pending. Restrictions range from Schedule V, which is interpreted 
differently in different states, to gram or package limits, to menus of 
options for display and sale of PSE containing medicines. This 
patchwork quilt of state regulations is precisely why federal 
legislation is necessary. Ideally, federal legislation will pre-empt 
state laws, leaving a predictable legislative environment that allows 
retailers, manufacturers, and consumers to plan and engage in commerce 
without undue burden. Legislation in the absence of preemption might 
have the salutary effect of dampening down legislative activity in the 
states for awhile, but it would leave in place many divergent laws, and 
the prospect of more changes to come. It would be preferable, from our 
point of view, to solve the problem once.
The opportunity before us
    There are a number of other issues that undoubtedly will be 
addressed today by my fellow panel members. How many grams or packages 
of PSE should be allowed per sale or per month? Should non-pharmacies 
be allowed to carry PSE products behind the counter, and what specific 
security arrangements might be needed? Should single-dose packets be 
sold in airports and other transit locations? These are all important 
issues, and I will be happy to comment on them during questioning.
    Whatever differences may exist over details, however, we should not 
lose sight of the fact that a historic opportunity is at hand. Strong 
bi-partisan coalitions in the House and Senate have endorsed action. 
Law enforcement, the drug control community and industry stand behind 
you. We at Pfizer are pledged to do all we can to assist your efforts 
to take meaningful, comprehensive action to fight meth abuse. We look 
forward to working with you and to answering your questions.

    Mr. Gillmor. Thank you very much. And we will now go to 
Sheriff Ted. And I hope I pronounce this right, Ted. Is it 
Kamatchus?
    Mr. Kamatchus. It is Kamatchus, sir.
    Mr. Gillmor. Very good. Representing the National Sheriffs' 
Association.

                  STATEMENT OF TED G. KAMATCHUS

    Mr. Kamatchus. Mr. Chairman and members of the Committee, 
my name is Ted Kamatchus and I am the sheriff of Marshall 
County, Iowa. I would like to thank the members of this 
distinguished panel for inviting me to Washington and allowing 
me to share my experience with you regarding the national 
methamphetamine problem.
    I am a 29-year veteran of law enforcement and I am in my 
eighteenth year as serving my county as its sheriff. I 
currently serve as the First Vice President of the National 
Sheriffs' Association. You will find my professional bio in 
your packets.
    On March 24, 1999, I was honored to speak before a 
Congressional subcommittee on methamphetamine use. My message 
then was much the same as the one I bring to you today. In 
1999, the Midwestern States were experiencing a rapid rise in 
the use of methamphetamine. Officers were finding labs popping 
up all across the Heartland.
    At that time, the flow of meth from its traditional 
suppliers in Mexico was being attacked by law enforcement. 
Larger seizures were common. And eventually, two of the four 
main meth supplying drug cartels were severely damaged. To feed 
the need for methamphetamine, the users discovered a process of 
manufacturing the drug that was easy and gave them 
accessibility to a product that was often times stronger than 
they could find from across the border.
    Meth has no stereotypical user. From the rich and famous to 
the runaway on the street, once it grabs you, few people become 
successful at breaking away from the clutches of its addiction.
    In 1994, law enforcement, excuse me, officers in Iowa found 
two meth labs. At the end of 2004, just 10 years later, 1,472 
labs were seized and destroyed in the State. When considering 
major impact issues that come before Congress on a daily basis, 
I would imagine that few statistical indicators have ever shown 
such an alarming increase.
    What does this mean? What is the true impact on our 
society? The physical impact on America is devastating. Last 
year, nearly $3 million was spent in Iowa for lab disposal and 
cleanup. During that same period, an Oklahoma Department of 
Public Safety study attributed an expense of $350,000 for each 
lab that was in existence. This amount was determined by the 
study, having considered all of the various social economic 
factors that were touched by meth addiction. Multiply that 
amount by the 1,100-plus labs in Oklahoma or the 1,400-plus 
labs in the State of Iowa, and you can see the burden carried 
by the American taxpayer.
    The State of Iowa saw this and we enacted a very strict 
pseudoephedrine law. It should be noted that since this law 
took effect in April of 2005, we have found a 78 percent 
reduction in meth labs in our State. And this problem no longer 
is just a Midwestern issue.
    Methamphetamine is flowing across America. The increase of 
the drug's availability is enhanced by its ease of 
manufacturing and inexpensive cost. Once this poison begins to 
expand into the major metropolitan areas, the cost to the 
American public will devastate our economy.
    Like you, I am elected by the public. Ninety-eight percent 
of the over 3,000 sheriffs in this country are elected. And the 
Office of Sheriff possesses a unique view of the total impact 
that drug addiction has on our society. We are the only full 
lined law enforcement entity in our country.
    Like our brothers and sisters in police agencies, the 
majority of the Sheriffs' Offices also perform full criminal 
investigative enforcement. But as sheriffs, we also are active 
in the civil and court aspects of law enforcement. We serve 
civil process, committals, and forfeitures. I myself personally 
have seized homes, vehicles, and children from families as a 
direct result of the court action brought upon them due to 
their drug abuse.
    And the sheriffs operate the jails in this country. No 
individual is accepted into the prison system without first 
having gone through jail at some time in this process. Due to 
the toxicity of meth, we find that users need far more medical 
treatment. Kidney dialysis and anti-psychotic medications are 
the norm for the meth addicts that we incarcerate.
    Ladies and gentlemen of this committee, I come before you 
today to ask your support and assistance. With all the trying 
times facing this nation, we can ill-afford to open the door to 
more catastrophic and disruption. While our enemies are at our 
gate knocking on the door and waiting for us to weaken, we 
cannot allow our nation to destroy itself.
    This is more than a group of weak individuals using the 
substance for self pleasure. It is a major part of our society 
that is destroying itself and the country's future. I ask that 
you give full consideration to supporting efforts currently 
being submitted to Congress to fully fund the fight against 
drugs in America, to take on the war on drugs that so many of 
your colleagues and yourselves have mentioned in years past.
    Legislation is needed to secure pseudoephedrine from over 
purchase potential and shoplifting cooks. We must not turn our 
back to those individuals who have dedicated their lives to 
protecting and serving. To cut funding from the JAG/Byrne or 
HIDTA programs will eliminate drug taskforces in 38 of the 50 
States in this country. I shudder to think of the ramifications 
of that occurring with inadequate monitoring and enforcement.
    I want to thank you again for this opportunity to come 
before you today. I have great faith in our system of 
government and know that through your hard efforts our country 
will have a stronger and more resilient future. I want to thank 
you very much for this opportunity.
    [The prepared statement of Ted G. Kamatchus follows:]
 Prepared Statement of Ted G. Kamatchus, Sheriff, Marshall County, Iowa
    Mr. Chairman and Members of the Committee: My name is Ted Kamatchus 
and I am the Sheriff of Marshall County, Iowa. I would like to thank 
the members of this distinguished panel for inviting me to Washington 
and allowing me to share my experience with you regarding the National 
Methamphetamine problem. I am a 29-year veteran of law enforcement and 
am in my 18th year serving my county as its sheriff. I currently serve 
as the 1st Vice-President of the National Sheriffs' Association. You 
will find my professional bio in your packets.
    If you would indulge me, I would like to read briefly from the 
testimony I presented to Congress in 1999.
    ``Make no mistake about it. We are facing one of the worst drug 
problems America has ever confronted. In the 1980's, the drug of choice 
was cocaine. In the early 1990's, we faced a heroin epidemic and now at 
the close of the century with the dawn of a new millennium, we confront 
efforts to legalize marijuana as we face an international invasion of 
methamphetamine.
    Meth (or crank) is one of the greatest challenges we face as law 
enforcement officers. Meth labs are highly toxic, environmental 
disasters. The chemicals used in the production of crank are volatile 
and enforcement activity at a lab must be handled with extreme caution. 
One wrong move could touch off an explosion. As sheriff, a locally 
elected law enforcement official, I have a unique perspective on this 
new epidemic. I have been to meth labs. I have been on drug raids and I 
have purchased crank by the pound in undercover operations. I have seen 
first hand how this highly addictive drug destroys our kids and I have 
had to visit too many homes to try and explain to parents that their 
teenager just died of an overdose. We must do something to stem the 
tide of illegal drugs, especially meth.''
    That is how I began testimony before a similar committee in 
Congress on March 24, 1999. Just prior to that testimony, my community 
had received national attention through an article published in U.S. 
News and World Report magazine. The article had discussed the 
trafficking of Methamphetamine into the heartland of America and how 
Marshall County was the epicenter of that process. The writer had 
actually infiltrated Mexican Drug Cartels and found direct links of two 
cartels to our area.
    As a result of efforts by the National Sheriffs' Association and 
other national law enforcement associations, we were able to convince 
the Congress of the United States to maximize funding for our efforts 
in fighting drugs in America. Emphasis was placed on the infiltration 
of Methamphetamine from abroad. As a result, huge seizures of product 
occurred and 2 of the 4 primary drug cartels involved sustained major 
set-backs. These setbacks greatly decreased the availability of 
Methamphetamine to the users in our area.
    There is no a-typical user of Meth in our country. From the rich 
and famous to individuals on the street, all have seemed to find a 
purpose in selecting Meth as their drug of choice. As major suppliers 
were slowed or eliminated, addicted users turned to other means of 
supplying their habits. It was these addicts who were driven to find 
fuel for their addictions by developing small local ``user'' labs for 
the product. The majority of these labs utilized the Nazi ``cold cook'' 
method of manufacturing the drug. Primarily using the internet as a 
reference book, home grown ``chemists'' or ``cooks'' began sprouting up 
throughout the country.
    You will note in your packets the growth of labs in the State of 
Iowa. The total number of Meth labs seized during the year 1994 was 2. 
The total number of labs seized in 2004 was 1,472. When considering 
issues of major impact brought before the Congress, I would imagine 
that few statistical indicators have ever jumped at such an alarming 
pace.
    But what does this mean? What is the true impact on our society? 
Over the past 10 years, I have grown to learn more about this issue 
than I would have ever cared to learn. Let me take a few moments to 
discuss with you some figures compiled by the Iowa Office of Drug 
Control Policy. Please understand this is an issue that is rapidly 
spreading across our country. It no longer resides solely in the 
Midwest! The fingers of its use and abuse are seen reaching throughout 
the East coast. As I read you the numbers we have found in Iowa, you 
only have to pause a moment to consider the huge long term economic and 
environmental impact it will have on the rest of our country.
What is Meth?
    Although I am sure you have a better understanding than the average 
citizen, I want to do all I can to give a complete overview of 
Methamphetamine so that anyone who may monitor or read this testimony 
will possess as complete an understanding of the problem as possible.
    Meth is made with common chemicals such as; ether; sodium hydroxide 
(lye); drain cleaner; lithium (from Batteries); red phosphorus (from 
matchbooks and flares); camping fuel; and pseudoephedrine. While there 
are many different recipes for making methamphetamine all mixtures 
include one common and essential ingredient: pseudoephedrine. If you 
aren't aware of pseudoephedrine, it also is one of the primary 
ingredients in cold, sinus and allergy medications. The molecular 
structure of it is only 1 step away from methamphetamine. The mixture 
of the aforementioned precursors causes the transformation of that 
structure into the poison we call Meth.
    But it is more than the drug itself that is of concern. The 
remaining byproducts from the process of ``cooking'' meth are equally 
as dangerous. The impact this refuse has on the environment and fiscal 
budgets of those agencies taxed to clean it up is enormous. Latest 
studies have shown that the direct cost to Iowa law enforcement 
officials for cleanup and disposal of the labs during FY-2004 was 
$2,923,144. And the impact that meth abuse has had on the substance 
abuse treatment process in Iowa exceeded $7 million dollars during that 
same period.
    Methamphetamine has been shown to serve as the primary drug of 
choice of 15.8% of those in non-criminal drug and mental health 
treatment in Iowa during FY-2004. That same study clearly indicated 
that Meth users are ``poly'' drug users involved in a wide array of 
drug use and abuse. However, keep in mind, that methamphetamine use is 
NOT just an Iowa problem.
Socio-economic impact study
    A study conducted by the Oklahoma Department of Public Safety 
clearly showed the grand scale of this problem. The study conducted 
this past year was developed through a survey of known Meth users and 
manufacturers. It took into consideration the Socio-Economic impact of 
Meth labs in the state. Consideration was given to mental health, child 
welfare, treatment, court and correctional costs, investigation and 
apprehension costs, job retention, property damage and Meth lab clean 
up.
    The average attributed impact of cost on the system for each Meth 
lab seized was $350,000 annually. In addition, impacts on the family 
structure, unborn children, educational system and sustaining health 
care were NOT figured into the equation.
    When you multiply this amount by the 1,200+ labs seized by Oklahoma 
authorities or the 1,400+ seized by Iowa authorities the fiscal impact 
becomes evident. It should be noted, that since the inception of Iowa's 
strict pseudoephedrine purchasing law, we have experienced a 78% 
reduction in Meth labs as compared to the same period in 2004.
Impact on our families
    In addition, the emotional impact on the citizens of our country is 
extreme. Family breakdowns and the loss of loved ones who poison 
themselves through addiction are greater with Methamphetamine than any 
other illegal drug.

<Bullet> In Burlington, Iowa a 14-year old girl died from meth overdose after 
        mixing meth lab residue given to her by her mom's boyfriend 
        with a bottle of pop and than drinking it.
<Bullet> In Rural Carroll County Iowa an infant nearly died from a baby bottle 
        filled with pseudoephedrine and other meth-making chemicals. 
        They were placed there to hide from authorities.
<Bullet> In Rural Clay County Iowa a 3-month old was removed from her home 
        where her mother and grandmother and grandmothers' boyfriend 
        cooked and used meth. The meth was cooked in a hidden area next 
        to the baby's room. So toxic was the environment in the room, 
        that all the metal items were corroded due to the acid in the 
        air.
<Bullet> A Mason City, Iowa little girl was discovered in a family car seated 
        next to a bubbling meth ``generator''. The vapors of anhydrous 
        ammonia used in the process overwhelmed the interior of the 
        vehicle.
<Bullet> And then there is the case of Angela Fatino. In your packets you will 
        find a copy of the story printed in the Des Moines Register. It 
        discusses how within one year a bright, involved, beautiful 12 
        year old girl could fall so low; she would end up in a juvenile 
        detention center and eventually take her own life.
    I ask that you take a moment to study the photos so you can more 
clearly gain an understanding of this cold reality called Meth abuse.
Effects on the user
    The drug is unique. It has a higher addiction potential than Heroin 
with symptoms of paranoia similar to those caused by Cocaine. It 
possesses the hallucinogenic properties of LSD and individuals on Meth 
gain adrenal strength much like the PCP addicts of the 70's.
    It is less expensive and more addictive than Crack Cocaine and 
easier to get than marijuana. Methamphetamine can be smoked, eaten, 
injected, snorted or absorbed. Few, if any other, substances can be 
abused as easily or are as easy to get as Meth. If you can't buy it, 
you can make it. All you need is the right over the counter chemicals 
and an empty 2-liter pop bottle.
Sheriffs see full impact
    As a Sheriff, I have a unique chance to be involved in all aspects 
of law enforcement. Of the over 3,000 Sheriff's Offices in our country 
the overwhelming majority are full-line agencies. We have community 
action programs, teach DARE, and enforce motor vehicle and criminal 
laws while participating in the full gamut of protective services.
    But from that point we separate ourselves from the majority of 
other law enforcement agencies. 98% of the Nations' Sheriffs are 
elected by the people. We are directly charged by those citizens who 
elected us, those same citizens who elected you, to protect and serve 
the counties and parishes of this nation.
    As Sheriffs we are also active in the Civil and Court aspects of 
law enforcement. We serve civil papers and court actions on individuals 
who have incurred judgments against them. I have seized homes, vehicles 
and children from families as a direct result of court action brought 
upon the defendant due to their drug use. Not just through the 
forfeiture process but directly resulting from the users spending every 
last cent to maintain their habit. In addition, the Office of Sheriff 
is charged with the transporting of mental health and substance abuse 
committals through court order often originating from illicit drug use.
    And, we operate the nations' jails. No individual is accepted into 
the prison system without first going through a jail at some time in 
their process. Due to the large national increase in drug users, we 
find our cost of in-house health care skyrocketing. In my facility, 
nearly 60% of the inmates are on some form of prescribed medication. 
With the high toxicity level of Meth, we find that users need far more 
medical treatment. More and more users must be taken to kidney dialysis 
or are on anti-psychotic medications so that they can remain stable and 
capable of fitting into the facility.
A need to band together in support
    Ladies and Gentlemen of this Committee, I come before you today to 
ask your support and assistance. With all the trying times facing this 
nation, we can ill afford to open the door to more catastrophe and 
disruption. While our enemies are at our gate, knocking on the door and 
waiting for us to weaken, we can not allow our nation to destroy 
itself. This is more than a group of weak individuals using a substance 
for self pleasure. It is a major part of our society destroying itself 
and the country's future.
    I ask that you give full supporting for efforts currently being 
considered by Congress that would better fund the fight against Meth 
and other illicit drugs in America. To take the ``War on Drugs'' more 
seriously now than ever before! Legislation is needed to secure 
pseudoephedrine from over-purchase potential and shoplifting cooks.
    We must not turn our backs on those individuals who have dedicated 
their lives to protecting and serving our citizens. To cut funding of 
the JAG/Byrne or HIDTA programs will eliminate drug taskforces in 38 of 
the 50 states in this country. I shudder to think of the ramifications 
of that occurring with inadequate monitoring and enforcement.
    Again, I want thank you for the opportunity to come before you and 
express my concerns. I have the greatest faith in our system of 
government and know that through your efforts our country will be 
stronger and more resilient well into the future.

    Mr. Gillmor. Thank you very much. And we go to Joseph 
Heerens----
    Mr. Heerens. Very good.
    Mr. Gillmor. [continuing] representing the Food Marketing 
Institute.

                 STATEMENT OF JOSEPH R. HEERENS

    Mr. Heerens. Thank you, Mr. Chairman, members of the 
subcommittee. Mr. Chairman, members of the subcommittee, my 
name is Joseph R. Heerens and I am a Senior Vice President with 
Marsh Supermarkets, based in Indianapolis. My statement today 
is on behalf of Marsh, the Food Marketing Institute, and its 
members nationwide. Thank you for holding this important 
hearing.
    Methamphetamine is a serious problem. Our industry believes 
that to effectively address it we need a comprehensive strategy 
and partnership between law enforcement, regulatory agencies, 
manufacturers, and retailers. Our industry has serious concerns 
over recent initiatives enacted into law that would impose 
stringent controls on precursor chemicals at the retail level. 
I am referring specifically to the Oklahoma model that 
relegates pseudoephedrine products to Schedule V status.
    Under Schedule V, only retail pharmacies or retail stores 
that have a pharmacy department would be allowed to sell cough 
and cold products and they would have to be kept behind the 
pharmacy counter. Schedule V is troublesome because an 
overwhelming majority of grocery stores in our country do not 
have a pharmacy department and would be prohibited from selling 
these products.
    For example, my company has 121 stores in the Midwest, but 
only 47 have a pharmacy. Sixty percent of our stores would be 
prohibited from selling pseudoephedrine cough and cold 
products. Accordingly, Schedule V poses significant barriers 
for consumers, as most neighborhood grocery stores would not be 
allowed to sell these products.
    In terms of pending Federal legislation, the Combat Meth 
Act of 2005, approved by the Senate last month, our industry 
firmly believes that this bill in the House version are flawed 
and in need of significant revisions for the following 10 
reasons.
    First, these bills failed to provide for a national 
standard. They allow States to establish different 
restrictions, making compliance by retailers more difficult.
    Second, because these bills do not include strong Federal 
preemption language. The requirement for a logbook seems 
superfluous. States and localities could have different 
restrictions than what might be set forth in a Federal law.
    Third, the Combat Meth Act does not exempt liquids and gel 
caps, even though every State Schedule V law regulating 
pseudoephedrine products exempts them.
    Fourth, the Combat Meth Act would trigger a by prescription 
only requirement in up to 19 States, meaning consumers would 
need a prescription from their doctor to purchase 
pseudoephedrine products, adding significantly to their cost.
    Fifth, the Schedule V provisions in these bills will force 
grocery warehouses to apply for a controlled substances license 
from the DEA, entailing higher licensing fees and new 
regulatory burdens, even though these facilities are not a 
source of supply for the meth cooks.
    Sixth, these bills are too narrow in their focus, as they 
address only 20 percent of the meth production problem. They do 
nothing to address to lion's share of the problem, which is the 
estimated 80 percent of meth coming from the superlabs, such as 
those in Mexico.
    Seventh, the Combat Meth Act reduces consumer access to 
cough and cold products by limiting their sale to pharmacies or 
pharmacy departments, many of which have space limitations that 
will reduce the number of products carried.
    Eighth, the Combat Meth Act limits purchasers to no more 
than 7.5 grams in a 30-day period, which may be unfair to large 
families with allergy sufferers or sick children who need a 
greater supply.
    Ninth, the Combat Meth Act does not adequately address the 
issue of Internet sales and flea markets, both of which have 
been problem areas.
    And last, the Combat Meth Act allows stores without a 
pharmacy department to sell pseudoephedrine products under very 
limited circumstances, but the exemption process is complicated 
and very few exemptions will likely be granted or granted 
timely.
    As I stated at the beginning of my testimony, the 
supermarket industry supports a comprehensive solution, as 
reflected in FMI's recent endorsement of the Methamphetamine 
Epidemic Elimination Act, introduced by Representatives Mark 
Souder, James Sensenbrenner, and Howard Coble, along with more 
than 45 cosponsors. Unlike the narrow focus of the Combat Meth 
Act, House Bill 3889 seeks to address the problem in a 
comprehensive manner. And we support it for the following 
reasons.
    We support the elimination of the blister pack exemption 
and our industry supports reasonable sales restrictions on 
pseudoephedrine cough and cold products. FMI has recommended a 
6-gram limit per transaction. We support the adoption of strong 
Federal preemption language in order to facilitate retailer 
compliance. Our industry supports limiting consumer access to 
pseudoephedrine products by placing them behind a counter that 
is not accessible to consumers, such as a service counter where 
cigarettes are kept. FMI members support a Federal exemption 
for pediatric products, as meth cooks generally do not use them 
to make meth. We support a ban on Internet sales of precursor 
chemicals as well as strict limits on mail order sales of 
pseudoephedrine products. Our industry supports strict quotas 
and import restrictions on both chemicals of ephedrine and 
pseudoephedrine. We support a ban on the sale of 
pseudoephedrine products in infant formula at flea markets 
unless they have written authorization from the manufacturer or 
proper business records. Flea markets routinely sell 
pseudoephedrine products that in many cases have been stolen 
from retail stores. We support stronger penalties and fines and 
tough enforcement from the manufacture, possession, or sale of 
meth. And we support making Federal funds available to the 
States to help clean up meth labs.
    Mr. Chairman, members of the subcommittees, this concludes 
my statement. On behalf of FMI and the supermarket members 
across this country, we very much appreciate the opportunity to 
present our views today on solutions to the meth problem. And I 
would be glad to take any questions you may have.
    [The prepared statement of Joseph R. Heerens follows:]
    Prepared Statement of Joseph R. Heerens, Senior Vice President, 
              Government Affairs, Marsh Supermarkets, Inc.

                              INTRODUCTION
    Chairman Deal and Chairman Gillmor. My name is Joseph R. Heerens, 
and I am Senior Vice President of Government Affairs for Marsh 
Supermarkets, Inc., headquartered in Indianapolis, Indiana. My 
statement today is on behalf of Marsh Supermarkets and the Food 
Marketing Institute (FMI). FMI is our national trade association, 
representing food retailers and wholesalers. While my company has no 
stores in Georgia, we do have thirteen (13) supermarkets in western and 
southwestern Ohio.
    Thank you for holding this important hearing on the impact of 
methamphetamine on health and the environment, and solutions to address 
this very serious problem. The supermarket industry fully understands 
the magnitude of the problem, and we also know that legitimate cough 
and cold products containing pseudoephedrine (PSE) are used to 
manufacture meth.
    According to law enforcement sources, legitimate PSE products, 
which are purchased or stolen from retail stores, account for 
approximately 20 percent of the methamphetamine that is domestically 
manufactured by so-called ``mom and pop'' meth cooks, whereas the 
lion's share of meth in our country (approximately 80 percent) comes 
from super labs, many of which are located in other countries, such as 
Mexico. Regrettably, when domestic meth production is curtailed in a 
state because of enactment of a retail sales restriction law, Mexican 
drug gangs quickly fill the void with cheaper and more potent ``crystal 
meth''. In other words, the problem does not go away; sometimes it gets 
worse. Thus, it is the supermarket industry's position that to 
effectively address the methamphetamine problem, we need a 
comprehensive strategy and partnership between law enforcement, 
regulatory agencies, over-the-counter (OTC) manufacturers, and the 
retail community.
    Of our 47 stores that have a pharmacy department, general store 
hours are quite different from the pharmacy department's hours of 
operation. Most of our supermarkets are open 24-hours. In comparison, 
however, our pharmacy departments are typically open less than 12-hours 
on weekdays, and even more limited hours on weekends. Therefore, even 
if the store is open for business, if the pharmacy department is not 
open or if the pharmacist is not on duty, sales of PSE cough and cold 
products would not be permitted and our customers would have to shop 
elsewhere to meet their medication needs. That causes us great concern.

                    SCHEDULE V--IMPACT ON CONSUMERS
    The bottom line result under a rigid Schedule V approach is a 
dramatic reduction in consumer access to cough and cold medications 
depending upon whether their local grocery store has a pharmacy 
department and the pharmacy department's hours of operation. For 
consumers living in rural areas or in the inner city, Schedule V can 
create major hardships if the nearest pharmacy is 15 to 20 miles from 
their home or if the person is elderly or poor and would have to rely 
on public transportation in order to get to a pharmacy to purchase a 
PSE medication.
    FMI, along with the National Consumers League (NCL), gauged 
consumer opinion on sales restrictions of PSE products in a national 
survey released in April of 2005. What the FMI-NCL survey found is 
revealing. Forty-four (44%) percent of the 2,900 adult survey 
respondents felt that Schedule V would create a hardship for them, 
while 62 percent said they did not believe that restricting sales of 
PSE products to pharmacies is a reasonable measure for controlling meth 
production. In contrast, survey respondents were far more receptive to 
less severe restrictions than Schedule V, such as placing cough, cold 
and allergy products behind a counter, but not a pharmacy counter, or 
placing these items in a locked display case on the sales floor. 
Additionally, more than 80 percent of the survey respondents expressed 
support for limiting the quantity of such products that individuals can 
purchase, and 74 percent said it would be reasonable to restrict the 
age of purchasers.
    For all of these reasons, the supermarket industry cannot support a 
Schedule V classification for cough and cold products containing 
pseudoephedrine. Schedule V poses significant problems for consumers 
who have legitimate needs for these medications, including reduced 
consumer access and hardship because their nearby neighborhood grocery 
store, which they visit 2.2 times each week, would not be allowed to 
sell these medicines. In addition, Schedule V may likely mean higher 
prices, as PSE products move from self-service to behind the pharmacy 
counter where the pharmacist, who is a highly salaried professional, 
will be required to ask for photo identification and have the customer 
sign a log book. Schedule V just isn't the right solution to this 
terrible problem.

                   COMBAT METH ACT OF 2005 IS FLAWED
    In terms of pending federal legislation, the Combat Meth Act of 
2005 (S. 103) approved by the Senate on September 9, 2005, as part of 
the FY 2006 Commerce Justice Appropriations bill, our industry firmly 
believes that this bill, and the House version (H. R. 314), are 
deficient, flawed, and in need of significant revisions. The following 
are the deficiencies and shortcomings we see in this legislation:

<Bullet> S. 103 and H. R. 314 fail to provide for a national standard 
        governing the sale of PSE products. Methamphetamine is a 
        nationwide problem that needs a national solution. Regrettably, 
        this legislation allows states and localities to establish 
        different restrictions on these products, making compliance by 
        retailers more difficult and complicated.
<Bullet> Because these bills do not include strong federal pre-emption 
        language, the requirement for a log book seems superfluous. 
        That's because states and localities could have different 
        transaction restrictions than what might be set forth in a 
        federal law. Moreover, a log book raises significant privacy 
        issues for many consumers.
<Bullet> The Combat Meth Act of 2005 does not exempt liquids and gel caps even 
        though every state Schedule V law regulating the sale of PSE 
        products exempts these products.
<Bullet> Unless the Combat Meth Act of 2005 is amended, the Schedule V 
        provisions will trigger a ``by prescription only'' requirement 
        in as many as 19 states. This would mean consumers would have 
        to get a prescription from their doctor in order to purchase 
        PSE products. As a result, a cough and cold product that 
        normally sells for about $6 at retail could now cost $60 or 
        more when you factor in the physician office visit charge.
<Bullet> Moreover, the Schedule V provisions in S. 103 and H. R. 314 will 
        force grocery warehouses and distribution centers that handle 
        PSE products to apply for a Controlled Substances Registrant 
        license from the Drug Enforcement Administration (DEA). This 
        will entail higher licensing fees and new regulatory burdens 
        for these facilities. Imposing Schedule V requirements and 
        higher regulatory costs on warehouses and distribution centers 
        makes no sense since these facilities are not a source of 
        supply for the meth cooks.
<Bullet> S. 103 and H. R. 314 are too narrow in their focus. These bills 
        address only 20 percent of the problem in terms of domestic 
        meth production. S. 103 and H. R. 314 do nothing to address the 
        lion's share of the problem, which is the estimated 80 percent 
        of methamphetamine coming from the super labs, such as those 
        located in Mexico.
<Bullet> The Combat Meth Act of 2005 dramatically reduces consumer access to 
        cough and cold products by limiting their sale to stores that 
        have a pharmacy or a pharmacy department. PSE products would 
        have to be placed behind a pharmacy counter, and, due to space 
        limitations in the pharmacy department, many retailers will not 
        be able to carry and offer for sale the wide variety of PSE 
        medications that their customers need. Moreover, because these 
        products will be behind the pharmacy counter, consumers will no 
        longer have the opportunity to read and compare products and 
        product labels, and to otherwise engage in comparison shopping.
<Bullet> S. 103, as passed by the Senate, limits purchasers to no more than 
        7.5 grams within a 30-day period. This arbitrary limit may be 
        unfair to a large family with allergy problems or to a mother 
        with several sick children at home who has a legitimate need 
        for more than 7.5 grams within a 30-day period.
<Bullet> The Combat Meth Act of 2005 does not adequately address the issue of 
        Internet sales and flea markets. S. 103, as passed by the 
        Senate, allows, but does not require, the Attorney General to 
        promulgate regulations governing the sale of PSE products over 
        the Internet. Furthermore, S. 103 and H. R. 314 have no 
        provisions relating to flea markets which routinely sell PSE 
        products that in many cases have been stolen from retail stores 
        by organized theft gangs. Flea markets should be prohibited 
        from selling PSE products unless these transient vendors have 
        written authorization or appropriate business records from the 
        manufacturer.
<Bullet> The Combat Meth Act of 2005 allows stores without a pharmacy 
        department to sell PSE products under very limited 
        circumstances. Indeed, the exemption process is complicated and 
        convoluted, involving both state and federal agencies, and very 
        few exemptions will likely be granted and they probably will 
        not be granted in a timely fashion. Individuals living in rural 
        areas that do not have a pharmacy nearby will obviously be 
        adversely affected by the Combat Meth Act and Schedule V.
<Bullet> The implementation dates for Schedule V, as specified in S. 103, are 
        unrealistic. For example, single ingredient PSE products would 
        be placed in Schedule V ninety (90) days after enactment, and 
        retailers would be required to maintain a log book. It is 
        unlikely that the Department of Justice (DOJ) would be able to 
        promulgate necessary regulations in 90 days to advise retailers 
        on how to comply with the law.
 solutions to the meth problem methamphetamine epidemic elimination act
    As I stated at the beginning of my testimony, the supermarket 
industry supports a comprehensive solution to the methamphetamine 
problem. This is reflected in FMI's recent endorsement of the 
Methamphetamine Epidemic Elimination Act (H. R. 3889) introduced by 
Representatives Mark Souder (R-IN), James Sensenbrenner (R-WI) and 
Howard Coble (R-NC), along with more than 45 co-sponsors. Unlike the 
narrow focus of the Combat Meth Act, H. R. 3889 seeks to address the 
methamphetamine problem in a comprehensive manner. This bill is multi-
pronged, with provisions that would establish domestic and 
international controls over precursor chemicals, while providing for 
more severe penalties for methamphetamine production, possession and 
trafficking.
    In expressing our support for H. R. 3889 and a comprehensive 
approach for combating methamphetamine availability and abuse here in 
the United States, FMI members support the following:

<Bullet> We support the elimination of the so-called ``blister pack 
        exemption'', and our industry also supports reasonable sales 
        restrictions on PSE cough and cold products. In testimony to 
        the House Judiciary Committee, FMI recommended a 6 gram limit 
        per transaction.
<Bullet> We support the adoption of strong federal pre-emption language 
        governing the sale of PSE products in order to facilitate 
        retailer compliance. Federal legislation should include 
        language prohibiting local communities from implementing 
        restrictions that are different from sales restrictions that 
        have been established by a state.
<Bullet> Our industry supports limiting consumer access to PSE products by 
        placing these medications behind a counter that is not 
        accessible to consumers, such as a service counter where 
        cigarettes are kept. Current Georgia state law requires PSE 
        products be kept behind a counter or in a locked display case. 
        FMI and its members do not support a Schedule V designation for 
        PSE products.
<Bullet> FMI members support a federal exemption for pediatric products so 
        they can remain on store shelves. All indications are that meth 
        cooks do not use pediatrics to make methamphetamine.
<Bullet> We support a ban on Internet sales of precursor chemicals, as well as 
        strict limits on mail order sales of PSE products.
<Bullet> Our industry supports strict quotas and import restrictions on bulk 
        chemicals of pseudoephedrine and ephedrine.
<Bullet> We support a ban on the sale of PSE products and infant formula by 
        flea markets, unless they have written authorization from the 
        manufacturer or other appropriate business records. Flea 
        markets are notorious for being major conduits for stolen 
        merchandise in these two product categories.
<Bullet> We support stronger penalties and fines, and tough enforcement, 
        including ``no bail'' for individuals involved in the 
        manufacturing, possession or sale of meth.
<Bullet> We support making federal funds available to the states to help 
        clean-up the aftermath of hazardous materials found at meth 
        labs.
    Chairman Deal, Chairman Gillmor, and Subcommittee Members, this 
concludes my statement. On behalf of FMI and its supermarket members, 
we very much appreciate the opportunity to present our views today on 
solutions to the meth problem.

    Mr. Gillmor. Thank you very much. And let me start with a 
couple of questions. I will direct the first one to the 
National Association of Counties and also the Sheriffs' 
Association. Do you support designating pseudoephedrine as a 
Schedule V drug under the Controlled Substances Act?
    Mr. Coleman. Yes, we do.
    Mr. Kamatchus. Yes, sir.
    Mr. Gillmor. The designation, I think in some cases, could 
lead to undesired consequences. In 18 States, the designation 
would mandate that the patients receive a prescription before 
they could obtain what is typically an over-the-counter 
medication. And there are other unintended consequences. I 
guess the question is what policy objection or objectives would 
you seek to achieve by Schedule V designation and if those 
objectives could be achieved without a Schedule V designation, 
would you support that. Yeah, I am the Chairman.
    Mr. Kamatchus. Okay.
    Mr. Gillmor. The Chairman of both.
    Mr. Kamatchus. I think right now the reason we support the 
Schedule V is because of its restriction and obviously it takes 
it of the street. Pseudoephedrine is the primary additive in 
making methamphetamine in the local labs. And as law 
enforcement officers and having seen the result, that is why we 
support it. It is the most strict as possible. I would mention 
it, yes that if in fact we could have as strict of a 
restriction on it along with a verification process that is 
necessary to ensure that the companies, if you will--the 
stores, if you will, are in fact doing that, and also a penalty 
process so that the individual who is selling it from behind 
the counter has to face the penalty, if you will, for sneaking 
them out and selling them.
    Mr. Gillmor. Um-hum.
    Mr. Kamatchus. And then that would be something we would 
look at. But right now we don't see anything that has exacted 
that. So that said, with what we see before us, we are in 
support of the Schedule V.
    Mr. Gillmor. Okay. Thank you, Sheriff. Did you want to jump 
in----
    Mr. Coleman. Yes. We----
    Mr. Gillmor. --Commissioner?
    Mr. Coleman. We support that on the basis of seeing the 
success that we have had already in Oklahoma and Iowa. And we 
believe that the policy is in its strength in itself.
    Mr. Gillmor. Okay. Now if we may go to Mr. Heerens, Food 
Marketing. Do your member companies, even those without 
pharmacies, have experience in restricting sales of certain 
products?
    Mr. Heerens. Yes. I can speak on behalf of my company.
    Mr. Gillmor. Um-hum.
    Mr. Heerens. In Indiana this year, we adopted a restrictive 
meth law that went into effect in July 1 of this year, so it 
has been in effect for about 3\1/2\ months. It is not a 
Schedule V law. It allows all retailers--it maintains a level 
playing field for everybody, but allows all retailers to put 
the product behind, say, the front service desk in the 
supermarket, and that is not accessible to consumers, or in a 
locked case on the sales floor. We have done that. We moved--we 
did carry 213 products with ephedrine and pseudoephedrine. We 
could not move all of those behind the front service desk. 
There is just not room. So we cut that down to 40, the top 40, 
and we stopped carrying 173 products. Since that law went into 
effect, and the Governor's Office just announced this in 
Indiana a few weeks ago, we have already seen in the first 3 
months a 41 percent reduction in meth lab seizures. So I think 
you can achieve substantial results. And that number continues 
to increase. I am convinced by the end of the year we will be 
above 50 percent. So you can achieve a significant reduction of 
meth labs with all the--without all the inconveniences and 
hardships that it causes to consumers and to retailers. We are 
in the business to take care of customers' needs. It is very 
difficult for us to say sorry, we can't carry the product. You 
can go down the street to a competitor and buy it. That is 
simply not acceptable. And so we think that the Indiana law is 
working well and it is not Schedule V. And we would hope that 
something like that could be crafted at the Federal level.
    Mr. Gillmor. Okay. Thank you. And Mr. Knapp, in your 
statement you suggested that OTC products should be put behind 
pharmacy counters. Could you explain why you support 
restricting sales to behind the pharmacy counters? And do you 
believe that consumers need the professional training of 
pharmacists to properly take those medications that are now 
over-the-counter?
    Mr. Knapp. Mr. Chairman, maybe if I could address the 
second part of your question first.
    Mr. Gillmor. Sure.
    Mr. Knapp. It is not our point of view that in fact 
pharmacists or pharmacists technicians need to provide a lot of 
counseling or education to consumers, particularly around 
pseudoephedrine. It has been an OTC product widely available in 
cold and allergy products for almost 30 years at this point in 
time. And so we believe consumers are quite capable of 
selecting the product on their own. The reasons we believe that 
it makes most sense to move all pseudoephedrine based products 
behind the counter at this point are really twofold. No. 1, and 
as some of the other witnesses have correctly pointed out, 
legislation that has restricted access to pseudoephedrine 
products has made a significant difference in terms of 
accessibility and in terms of the number of illegal labs. And 
the second is the availability of other alternatives. We 
believe we have played a leadership position in introducing 
Sudafed PE, which is a phenylephedrine based decongestant. It 
cannot be converted into methamphetamine. And that provides 
consumers with an alternative in front of the counter. And so 
we think we can strike the right balance between maintaining 
access to important medication and still make a major 
contribution to the fight against methamphetamine.
    Mr. Gillmor. Okay. Thank you. And Mrs. Wagner, representing 
the chain drug stores, in States that limit the sale of over-
the-counter cold products to pharmacies, does the pharmacist 
routinely provide any clinical diagnosis or apply any 
professional expertise to dispensing the product or are they 
simply acting as a gatekeeper to the product?
    Ms. Wagner. I would imagine that occasionally they provide 
some clinical advice, if the customer asks a question or 
whatever. But on a routine basis, I would say no. They are just 
restricting the product. And that is why we on the Senate Bill 
have advocated they not call it Schedule V for that reason. If 
the policy is to restrict access to the product, that is one 
thing. But to call it a controlled substance--you mentioned 
earlier about the unintended consequences. There are many. By 
calling it a Schedule V controlled substance, we have now 
record keeping requirements. We have storage requirements, 
distribution center requirements, thefts and loss reports. I 
mean, it is unbelievable the number of requirements on a retail 
store if it is a controlled substance. So if the purpose is to 
restrict access, that is one thing. But I don't think it is 
necessary to call it a Schedule V.
    Mr. Gillmor. Okay. Is there technology currently available 
that makes it feasible for all drug stores to be interconnected 
to ensure that individuals are not purchasing over a set 
monthly limit?
    Ms. Wagner. There is currently not a system like that. 
However, we would envision that would be the solution that we 
would be looking for to be effective. If there is going to be a 
sales limit, and especially if it is over a period of time, in 
order to have law enforcement there has to be a mechanism for 
the seller to be able to know how much of the product the 
customer has bought, not only in their store but in other 
stores as well. So you know, we have two members who have on 
their own developed an electronic tracking system within their 
stores in a couple of different States. That is working quite 
well. And they get a message back and the point of sale that 
the person has already exceeded their limit. So we see that as 
certainly a solution.
    Mr. Gillmor. Okay. Are you sure it is better to restrict 
sales based on monthly per customer limits or based on the per 
transaction limit?
    Ms. Wagner. Well, it depends on what, again, what the 
policy is you are trying to achieve. Certainly a transaction 
limit would be far easier to implement in a retail store. In 
fact, many of our members have been doing that voluntarily for 
years, not necessarily at 3.6 grams, but at 9 grams or 6 grams 
or something like that. So that is fairly easy to implement. On 
the other hand, we advocate for a standardized solution. And so 
many of the States now have a limit of so many grams in so many 
days. Therefore, we would like to see a consistent approach on 
a Federal solution.
    Mr. Gillmor. Okay. This is a joint hearing of the Health 
Subcommittee and the Environment and Hazardous Materials 
Subcommittee. Most of those questions have been going out of 
the Health Subcommittee's side. So in fairness, we are going to 
throw you a couple out of the Environment and Hazardous 
Materials side. And in that respect, Commissioner Coleman, what 
do you consider the average amount of money necessary to clean 
up, for criminal prosecution, and then to fully remediate a 
meth site? And are those costs increasing or decreasing?
    Mr. Coleman. We have heard that it takes $3,000 to $4,000 
to clean up a former meth lab. If you multiply it by the number 
of meth labs that have been crashed or taken at this--at the 
rate that we are doing now in Oakland County as well as in 
Iowa, that can run into quite a few millions of dollars.
    Mr. Gillmor. Okay. Thank you. And Sheriff, one method of 
cleanup at a meth lab is to have the local or the State 
government notify DEA, who then in turn takes responsibility 
for the cleanup of the site. Who has jurisdiction over the 
environmental determinations and the cleanup? And do you 
coordinate with DEA concerning these sites to ensure that 
proper cleanup standards are met?
    Mr. Kamatchus. In the State of Iowa, we have DEA funded 
cleanup teams that work for us statewide. They respond--they 
come in with their kits and their outfits and their--and 
everything and they secure the lab. It is our understanding 
that it also runs, because it is a negotiated cleanup cost, 
around $2,000 a lab. As far as the standards go, if in fact 
there are precursor chemicals onsite or indications of 
precursor chemicals or any apparatus with any residual left in 
them, we call those teams. Now the big problem for a local 
standpoint is that it is great to have that disposal paid for 
by DEA, but we end up putting the manpower out there waiting. 
Those teams have to come from a long distance. It ties up 
manpower in a small agency like myself where I only have 19 
sworn officers total. We sit on them. And then ultimately that 
cost comes back to the taxpayer.
    I am going to be up front with you on some things. It takes 
my officers, my taskforce, our full county taskforce off of the 
real problem, as you have heard mentioned here before. The 
majority of the meth still comes through that Southwest 
corridor. No doubt about that. But the amount of man-hours that 
we put on these little labs takes good investigative staff away 
from the main problem. It ties them up. So the cost is even 
more than just dollars and cents. It is what we feel is an 
unnecessary shift in that cost. I might add my county lost its 
HIDTA funding. We had been--received notoriety, actually, in 
the mid-90's about the amount of meth going through our area by 
some national publications. Well, that secured HIDTA funding 
for us. But what was happening was our direct taskforce was 
spending so much time concentrating on these little labs that 
we began losing touch with that big group that is out there. 
Along the line I began telling my staff--I said if there is no 
sign of residual effect, no residue left, then I said we need 
to determine whether or not we are going to consider that a 
cleanup project. Now does that meet EPA standards? I don't 
know. We--probably I shouldn't even be saying that before you, 
but that is the reality of it all. Maybe EPA needs to look at 
also what it can do to help us have a better understanding of 
what we should and what we shouldn't clean up. Because it is 
expensive and it is a big detriment to the counties out there.
    Mr. Gillmor. Okay. Thank you. That concludes my questions. 
I would like to ask the members of the panel that may have 
members who want to submit any questions in writing if you 
would be willing to respond to those.
    Mr. Kamatchus. By all means.
    Mr. Gillmor. And I thank you. If you don't mind, before I 
adjourn, we are going to wait just a couple minutes. We have 
been informed that Mr. Walden may have a couple questions and 
is on his way down. Now I don't know if that means he is on his 
way down from the second floor or from Oregon. If he is coming 
from the second floor, we will wait a couple minutes. Mr. 
Walden has arrived--his highly anticipated arrival. Everything 
in place? I do have one question before we go to the gentleman 
from Oregon. I represent a rural area, as do a number of 
members. If legislation--restricting sales only to pharmacies, 
do you believe that could have an impact on patients' access to 
cold and allergy medicines? Any thoughts?
    Mr. Heerens. That is one of the issues we discussed in 
Indiana quite extensively when we adopted our meth law. And the 
answer to that is yes. We have parts of our State where there 
just aren't pharmacies. But there is a little grocery store in 
the county seat. We have got a situation in downtown 
Indianapolis where people come in for conventions and there is 
no pharmacies down there except those that are found in a 
couple of grocery stores. So access is an issue. And I think in 
some rural parts--Indiana is a farming community for the most 
part--farming State for the most part. There are some 
communities where people may have to drive 15 miles if we adopt 
a Schedule V approach.
    Mr. Gillmor. Um-hum.
    Mr. Heerens. And again, that seems to be overly restrictive 
considering the success we are having in our State with a non-
Schedule V law.
    Mr. Gillmor. Okay. Thank you. The gentleman from Oregon.
    Mr. Walden. Thank you very much, Mr. Chairman. I appreciate 
your indulgence and courtesy in allowing me not only to sit in 
on the hearing to the extent I have been able to today, which 
isn't much, but also to participate. And I want to thank our 
witnesses, too. As you know, Mr. Chairman, I represent one of 
the most rural districts in the Congress, two-thirds of the 
State of Oregon, 72,000 square miles. But our State has moved 
ahead with I think the Nation's most aggressive attempt to try 
and deal with methamphetamine. By July of next year I think 
they require prescriptions for all pseudoephedrine/ephedrine 
products. And it was not without controversy and consternation 
at the State level, but by overwhelming--Republicans and 
Democrats alike and the Governor all said we have to go down 
this path. We have to try something. What we are doing now 
isn't working. And I--what we are going to see is a model. That 
is one of the best things about States. We are going to find 
out just how that process works. But I can tell you in my 
district, I think we have got 40 percent of the labs and 20 
percent of the population. Having a county of 70,000, in 
Umatilla County out in Eastern Oregon, where they did--so far 
this year busted more meth labs than in Winoma County, which is 
Portland County, 10 times that size. We have an enormous drug 
trafficking operation war coming up out of Mexico and 
California from the superlabs. Congressman Souder, came out and 
held a hearing for me on Friday in Pennelton. And we went 
through with law enforcement, with DEA, with others about the 
challenges we face. Today in the news, there is a story on the 
financial times that talks about the methamphetamine problem as 
it relates to oil rigs. And I don't know if you have had a 
chance to see that, but I would certainly provide a copy for 
you and submit it for the record. But there are oil platforms 
now, they are finding, where entire crews have been fired for 
making methamphetamine. Entire crews. They are actually now 
having great difficulty finding enough workers to operate some 
of these crews. Somewhere in here I think it said up to a third 
in some areas are--they are finding when they test are on 
methamphetamine. So it leads me to a couple of questions.
    First of all, for our--Mr. Knapp, I believe, from Pfizer. 
Can you talk to me about the alternatives that your company has 
been trying to develop as a substitute for pseudoephedrine/
ephedrine products?
    Mr. Knapp. Yes. Thank you, sir, for that question. I would 
direct the comments probably to two efforts we have made to do 
that. We actually commenced a program in 1999 to develop a 
technological solution for it. It basically would be a chemical 
solution that would have prevented pseudoephedrine from being 
extracted and converted into meth, and we called that Lock II. 
That was the internal name we had for it. Unfortunately, after 
a number of formulations and significant expenditure by our 
company--we put in an excess of $10 million over the 3 to 4 
year time period, trying to develop this technology. In 
consultation with the DEA, what we found was that of all the 
methods, particularly the red phosphorus methods----
    Mr. Walden. Um-hum.
    Mr. Knapp. [continuing] and the new solvents, that they 
could break that technology.
    Mr. Walden. Um-hum.
    Mr. Knapp. And really, it was disappointing to us. But it 
was at that point in time we started investigating a second 
alternative, which was phenylephedrine. And----
    Mr. Walden. PE?
    Mr. Knapp. PE. Correct. And we made that determination to 
move to that in March/April of last year. We feel it went 
pretty expeditiously and in fact launched that product in 
January of this year, in single ingredient. We are working very 
hard right now to reformulate our entire product line. We 
believe in excess of 80 percent of our products that used to 
contain pseudoephedrine will be reformulated to PE by mid-year 
next year, representing well over 75 percent of our sales. So 
we feel we are making great progress. And I think from an 
industry perspective, we have certainly brought the other 
players along with us. A number of players have followed very 
quickly. And we feel that this is the right way to go.
    Mr. Walden. And I appreciate your investment and your 
willingness to pursue an alternative. Because my limited 
understanding of this is that without ephedrine or 
pseudoephedrine, you can't make methamphetamine. That is the 
one precursor--there are other recipes. You can use other 
ingredients. But you have to have that one. Now I want to thank 
our representatives from the National Association of Counties. 
Commissioner Coleman, thank you for being here. And I want to 
thank NACo for taking the lead on this issue. The survey that 
you all did was tremendously important. And Bill Hansel is a 
constituent of mine that is now President of NACo and actually 
was at our hearing on Friday. So thanks for the work that you 
are doing.
    Sheriff, I have a question for you. My sheriffs tell me 
that 80 to 85 percent of the property crime we are seeing, 100 
percent of every case of parental rights termination in my 
State of Oregon are related to methamphetamine. Both of those. 
Are you seeing that among your sheriffs nationwide?
    Mr. Kamatchus. We are finding out that over 80 percent of 
the property crimes--actually, over 80 percent of the 
individuals in our jails in Iowa have some sort of fringe, if 
nothing else, involved with methamphetamine, whether it is 
domestic violence, whether it is theft----
    Mr. Walden. Right.
    Mr. Kamatchus. [continuing] or of course, whether it is the 
drug use itself. As far as domestic violence and a lot of the 
involvement of family disputes, the things that you mentioned, 
I am not sure exactly what the numbers of that, but I have 
heard over 90 percent also in that area.
    Mr. Walden. And I think--I did seven summits around my 
district in February and March. We had panels, much like what 
we have had here today. And every time I held one of those and 
went to the next one I didn't think it could get any worse or I 
could hear anything more troubling. And then you would hear 
something else. I mean, we had high school kids testify at one 
where they referred--they said the girls at their school 
referred to methamphetamine as the Jenny Crank diet and would 
take it for weight loss. Unfortunately, part of the weight they 
lose is their brain because we also had the CAT scans that show 
the erosion/corrosion of the brain that never comes back. And 
that is what I think has led Oregon to take the initiative we 
have taken, as inconvenient as it could well be and as costly, 
I think, for some of the supermarket or, you know, various 
convenience stores.
    The final question I have--I realize I have about exhausted 
my time and hospitality here. But I appreciate both, Mr. 
Chairman. The other question I have, my concern is coming out 
of this hearing Friday we had out in Oregon, that if we take 
the pseudoephedrine/ephedrine off the market, that two things 
are likely to occur--well, three things. We will see a drop in 
labs. And indeed, just putting it behind the counters we are 
seeing a 56 percent drop in labs in Oregon since the 
legislature took that--or the Board of Pharmacy took that step. 
This is before it goes prescription.
    The second event is a concern that the purchasing of these 
same products will go to the Internet and you just but it off 
the Internet, which I have legislation to try and deal with. 
The third issue is that it will incent a higher quality crystal 
meth from superlabs. And I wonder from our panels' perspective 
if that is something you are concerned about or have seen or if 
you have any information on that.
    Mr. Kamatchus. You know, if I could just address that real 
briefly. In the 90's before all the small labs came up, we were 
dealing then with the Southwest corridor labs, the Mexican 
meth, if you will. And we had a pretty good grip on it. I know 
that four of the drug cartels in Mexico that we knew of that 
were actually pipelining it into Iowa and then into the 
Midwest, two of those four labs we hit extremely hard and 
knocked down. And our seizures went down with that. And 
frankly, it is because of that that we began seeing that these 
small labs popped up where the addicts were needing to find 
something for their addiction. And they went online and they 
found out how to make the Nazi method crank and the--and what 
we see today has grown out of it. I made a comment earlier that 
one of the biggest problems with these small labs is that they 
take an enormous amount of investigative time and manpower to 
sit on.
    Mr. Walden. Yeah.
    Mr. Kamatchus. So therefore----
    Mr. Walden. Yeah.
    Mr. Kamatchus. [continuing] our efforts just aren't 
adequate to concentrate on those superlabs. So what we are 
hoping here and what we are seeing in Iowa, as a matter of 
fact, since we have seen our big 78 percent reduction is now we 
are starting to work together and we are concentrating on the 
big labs more. And hopefully that will have an effect, too, in 
the long run. Again, like we saw before. But now they won't 
have anything to fall back on if we can attack those big labs, 
those big drug movers.
    Mr. Walden. Anyone else have a comment? Finally, the--I 
know I said finally the last time, but keep doing that, you 
know, they think you are done and you are really never done. 
Talk to me about the importance of Byrne Grants, COP Grants, 
HIDTA. I hear from my law enforcement people those are 
essential in their ability. And the other element is this 
notion that they have got to sit on these labs until a cleanup 
agent can get there to deal with them. And I wonder if anybody 
has any success at alternatives to that.
    Mr. Coleman. Well Congressman, they fund our prime 
taskforce. And without this funding, it becomes an undue burden 
on the taxpayers because we have to clean up the work. We have 
to stop the growth of these labs. And we have to make these 
arrests. In making these arrests, it causes overcrowding of our 
jails. It causes an early release of prisoners of less 
offenses. At the same time, it is putting an undue burden on 
our sheriff departments and our manpower, which causes us--in 
the State of Michigan, where we do have financial problems, it 
increases the burden that we have in trying to face and to 
balance our budgets. So without this money, where do we go? 
There is a limit to what we can do. And we need the Federal 
help necessary to combat this problem.
    Mr. Walden. All right.
    Mr. Kamatchus. If I might just address that also, 
Congressman. In our taskforce in Iowa, we get about $200,000 to 
fund it. And without that, the taskforce falls. It is done 
with. As a matter of fact, there has been studies that have 
shown as many as 38 States in this country would have a 
definite effect on--a devastating effect, because they are 
overwhelming funded by that Byrne/JAG money. We see a push 
toward high intensity drug trafficking areas in that process. 
And it is a good process, by the way. But in Rural America, the 
small agencies out there in particular, the majority of their 
drug funding--and this is where these small labs are and exist, 
comes from the Byrne/JAG system. And to see the cuts is going 
to have a devastating effect on us. Most States are like Iowa. 
We have a ceiling that is preset--the amount of taxes that we 
can go after. We are at the top of that. So we began saying 
where are we going to cut services in order to pay for the drug 
fighting.
    Mr. Walden. Yeah.
    Mr. Kamatchus. So it is devastating, sir.
    Mr. Walden. Okay. All right. Finally, what is the most 
important thing we can do here to help in this process? 
Forget--we will assume more money is on the--I mean, you have 
already--that is always an answer. But structural 
legislatively, to attack this problem that is eating up our 
communities--we won't even talk about treatment, which is a 
whole other issue and I am very supportive of, but from your 
perspectives, what is the most important step Congress can take 
to try and get this methamphetamine crisis back to a more--we 
won't get rid of it. It is like any other bad thing out there. 
But how do we get it back toward the bottle and the cork closer 
to putting it on top?
    Mr. Knapp. I think, sir, if I could at least address 
Pfizer's point of view on that, I--the one thing I think is 
most important is that Congress pass legislation that puts all 
types of pseudoephedrine containing products behind a secure 
counter, whether that be a pharmacy counter or a secure counter 
somewhere else in other stores to address the rural issue. But 
we fundamentally believe that is probably the most important 
thing that could occur here.
    Ms. Wagner. And if I may, I am with the National 
Association----
    Mr. Walden. Right.
    Ms. Wagner. [continuing] of Chain Drug Stores.
    Mr. Walden. Right.
    Ms. Wagner. We agree that we think the one thing that 
probably should be done is to pass a Federal comprehensive 
standardized approach to solving this problem. We all agree it 
may only attack 20 percent of the methamphetamine problem in 
our country. But nevertheless, if we can eliminate that part of 
it and devote resources then to the bigger problem----
    Mr. Walden. Right.
    Ms. Wagner. So we feel passing a Federal bill that would 
give a standardized approach on it would be the one thing you 
could do.
    Mr. Walden. Okay. Sheriff?
    Mr. Kamatchus. I have actually have been coming here now 
for about 10, 12 years and dealing with methamphetamine--to 
Washington. And over the period of time in my 18-plus years as 
a sheriff, I have heard fellow politicians, I will say, because 
I am elected also, statesmen. Thank you. Coin the phrase ``War 
on Drugs''. I know many people who beat the drum in the 90's 
saying they were going to fight the war on drugs. Then we need 
to fight it like a war. And we need to do something. And we 
need to take action and we don't need to beat the drum forever. 
We need to take action and move forward. So I think taking a 
direction, working with the professionals that you are--that is 
the nice thing about having this type of Committee, and then 
moving forward in that direction and not looking back. I think 
that is the best thing we could ask you to do.
    Mr. Walden. All right. Sir?
    Mr. Heerens. I would agree with the comments that have been 
made. I think obviously getting pseudoephedrine behind the 
counter is very important. We have seen significant reductions 
in our State since we did that just 3 months ago. I also think 
the biggest thing you could do is somehow find a way to shut 
down the superlabs and the 80 percent----
    Mr. Walden. Yeah.
    Mr. Heerens. [continuing] that is coming in from out of the 
country.
    Mr. Walden. Great. Commissioner?
    Mr. Coleman. Yes. What we need is a comprehensive approach 
to the problem. We need it at the floor level, not necessarily 
at the ceiling level, to address the issues of the precursors, 
the child neglect, the abuse, the cleanup, the environmental 
dangers. Once it is--for example, once a location is identified 
as a meth manufacturing home, it is not just that house that is 
contaminated. It is the neighborhood that is contaminated and 
all that live in that area. So it is not just a money approach 
but we need a comprehensive approach when dealing with this 
major problem.
    Mr. Walden. All right. I want to thank all of you. And 
again, Mr. Chairman, thank you for your very generous clock and 
the staff for your help on this hearing. Thank you, sir.
    Mr. Gillmor. Okay. I want to once again express my 
appreciation to our witnesses and we stand adjourned.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
